No.

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGE A. LUNA/ Petitioner
v.
ANNA VALENTINE. Warden, Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
SIXTH CIRCUIT COURT OF APPEALS
APPENDIX

George A. Luna
Petitioner, KSR #222876
3001 W. Hwy 146
LaGrange, Kentucky 40032

'\

.N-Q-._2.0-57_4.6UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
GEORGE A. LUNA,
Petitioner-Appellant,
v.
ANNA VALENTINE, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED
Feb 11,2021
DEBORAH S. HUNT, Clerk

ORDER

Before: DAUGHTREY, Circuit Judge.
George A. Luna, a pro se Kentucky prisoner, applies for a certificate of appealability
(“COA”) in his appeal from the district court’s denial of his 28 U.S.C. § 2254 petition for a writ
of habeas corpus. See 28 U.S.C. § 2253(c)(1)(A). Luna also moves to proceed in forma pauperis.
A jury convicted Luna of first-degree murder and first-degree arson for killing Debra
Hendrickson and setting her trailer on fire. The trial court sentenced him to life imprisonment.
The Kentucky Supreme Court reversed and remanded the case for a retrial based on a failure to
excuse a juror for cause. Luna v. Commonwealth, No. 2008-SC-000652-MR, 2010 WL 4683564
(Ky. Nov. 18, 2010). The State tried Luna once more and this time sought a finding of statutory
aggravators.

The jury convicted Luna of the same offenses and found an aggravating

circumstance: that he murdered the victim in the commission of first-degree robbery. The trial
court sentenced Luna to life imprisonment without the possibility of probation or parole for the
murder conviction and a consecutive twenty-year term of imprisonment for the arson conviction.
But the Kentucky Supreme Court reversed Luna’s arson conviction and sentence, holding that
“[tjhere was no disagreement in the evidence that blunt-force trauma, not fire, caused
Hendrickson’s death.” Luna v. Commonwealth, 460 S.W.3d 851, 885 (Ky. 2015). Still, the court
affirmed Luna’s murder conviction and sentence and remanded for entry of a new judgment

No. 20-5746
-2consistent with its ruling. Id. at 889. Luna’s subsequent motion for state post-conviction relief
was unsuccessful. Luna v. Commonwealth, No. 2015-CA-001730-MR, 2017 WL 2492589 (Ky.
Ct. App. June 9,2017).
Luna next filed a § 2254 petition raising fifteen claims. The district court denied the
petition and declined to issue a COA.

Luna v. Jordan, No. 5:18-CV-68-TBR-LLK, 2020

WL 3265350 (W.D. Ky. June 17, 2020); Luna v. Jordan, No. 5:18-CV-68-TBR-LLK, 2019
WL 10302263 (W.D. Ky. Feb. 22, 2019) (Findings, Conclusions, and Recommendation). Luna
appeals and applies for a COA on the following claims, which the district court denied on the
merits: (2) the trial court erred in admitting hearsay statements from the victim; (10) the State’s
. decision on retrial to seek statutory aggravators on the murder charge amounted to prosecutorial
vindictiveness in violation of due process; (12) the Kentucky Supreme Court erred in not reversing
' his murder conviction because the evidence from his reversed arson conviction impermissibly
contributed to it; (13) the trial court erred, and his trial counsel was ineffective, regarding the firstdegree-robbery aggravator; and (15) his trial counsel was ineffective for not pursuing a selfdefense argument earlier. By failing to seek a COA on his other habeas claims, Luna has forfeited
them. See Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per curiam).
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
Luna’s first argument in his COA application concerns his second habeas claim, as he
asserts that the trial court violated his confrontation and due-process rights by admitting into
evidence hearsay statements from the victim, Hendrickson. The State sought to admit statements
that the victim made to others about how Luna abused her and forced her to participate in insurance

No. 20-5746
-3fraud. See Luna, 460 S.W.3d at 867. The trial court held a two-day hearing on the issue and
admitted the statements under the forfeiture-by-wrongdoing exception to the hearsay bar. See id.
at 867-69 (citing Ky. R. Evid. 804(b)(5)). But the Kentucky Supreme Court held that whether the
statements met that exception was “largely philosophical” because they were “not hearsay” given
that they “were not offered for the truth of the matter asserted, e.g. whether Luna actually abused
Hendrickson.” Id. at 872. The court determined that the statements were “more akin to prior-badacts evidence offered for ‘some other purpose,’” namely, to show “motive, preparation, or plan,”
as permitted under Kentucky Rule of Evidence 404(b). Id. at 872-73. The court then held that the
probative value of the statements was not substantially outweighed by their prejudicial nature and
thus affirmed on alternative grounds the trial court’s decision to admit them into evidence. Id. at
873.
Luna first argues that the evidence was unduly prejudicial and therefore violated the Due
Process Clause. But the Supreme Court has never held that a state violates due process either “by
permitting propensity evidence in the form of other bad acts evidence,” Bugh v. Mitchell, 329 F.3d
496, 512 (6th Cir. 2003), or by allowing hearsay testimony, Desai v. Booker, 732 F.3d 628, 63031 (6th Cir. 2013). Luna also argues that the state court erred in its analysis of the forfeiture-by­
wrongdoing hearsay exception, but the Kentucky Supreme Court did not affirm the admission of
the victim’s statements on that ground. Therefore, those arguments do not amount to a substantial
showing of the denial of a constitutional right.
Luna also claims that the statements were admitted in violation of the Confrontation
Clause, which prohibits the admission of testimonial statements of a witness who did not appear
at trial unless the witness was unavailable and the defendant previously had the opportunity for
cross-examination. See Crawford v. Washington, 541 U.S. 36, 53-54 (2004). The district court
considered the Kentucky Supreme Court to have “seemingly found [the victim’s] statements to be
ndntestimonial.” Luna, 2020 WL 3265350, at *5. If a statement is not made “with the primary
purpose of creating evidence for [a] prosecution,” they are unlikely to be considered testimonial
or to violate the Confrontation Clause. Ohio v. Clark, 576 U.S. 237, 244-46 (2015).

No. 20-5746
-4Here, the State put forth statements that Hendrickson made to her sister and friends, to
insurance agents, and to law enforcement. None of the statements made to her sister, friends, or
insurance agents were even plausibly made to prove something for a later criminal case, and thus
Luna has not made a substantial showing that they are testimonial.
As for statements Hendrickson made to law enforcement, the State presented following:
that, because “she was scared,” she would not file charges about Luna’s car that was allegedly
stolen and burned; “that she had been assaulted by Luna and claimed to have already reported it”;
that “if her trailer were to burn, Luna would be the one who did it”; that “Luna had threatened to
bum her trailer down and had made threats to kill her and bum her up in the trailer”; and that she
called 911 “just in case something happened to her trailer while she was at work the next day.”
Luna, 460 S.W.3d at 868. Although these statements are more likely than the others to be
testimonial, even if their introduction at trial violated the Confrontation Clause, such errors can be
harmless. See Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986). The district court also denied
Luna’s claim based on the Kentucky Supreme Court’s determination that he “did not receive a
fundamentally unfair trial as a result of the admission of [the victim’s] statements,” Luna, 460
S.W.3d at 873. “[W]hen a state court determines that a constitutional violation is harmless, a
federal court may not award habeas relief under § 2254 unless the harmlessness determination
itself was unreasonable.” Fry v. Pliler, 551 U.S. 112, 119 (2007) (emphasis in original). “[A]n
error requires reversal only if it ‘had substantial and injurious effect or influence in determining
the jury’s verdict.’” Brecht v.Abrahamson, 507U.S. 619,631 (1993) (quoting Kotteakos v. United
States, 328 U.S. 750, 776 (1946)). Given that the State “put on a large amount of proof’ showing
I

Luna’s motive, Luna, 469 S.W.3d at 868, the state court’s determination of harmlessness cannot
be considered unreasonable. Accordingly, Luna has not made a substantial showing of the denial
of a constitutional right.
Luna next claims that the State engaged in vindictive prosecution by seeking statutory
aggravators at his retrial and by filing the notice of intent do so only after Luna persisted in
pursuing a continuance of his retrial. “[T]he Due Process Clause ... prohibits the prosecution

No. 20-5746
-5from punishing a defendant for exercising a protected statutory or constitutional right.” United
States v. LaDeau, 734 F.3d 561, 566 (6th Cir. 2013). Luna did not cite “objective evidence that a
prosecutor acted in order to punish [him] for standing on his legal rights,” and so to prove his
claim, he had to show “that, in the particular factual situation presented, there existed a ‘realistic
likelihood of vindictiveness’ for the prosecutor’s action.” Bragan v. Poindexter, 2A9 F.3d 476,
481 (6th Cir. 2001) (quoting United States v. Andrews, 633 F.2d 449, 453 (6th Cir. 1980)).
Establishing this requires “that (1) the prosecutor ha[d] ‘some stake’ in deterring the petitioner’s
exercise of his rights, and (2) the prosecutor’s conduct was somehow ‘unreasonable.’” Id. (citing
Andrews, 633 F.2d at 454).
The Kentucky Supreme Court found that Luna had not demonstrated that likelihood, noting
that the retrial was handled by a different attorney—a special prosecutor—who, with time to view
“the case with fresh eyes” after Luna requested a continuance, decided to include the aggravators.
Luna, 460 S.W.3d at 887. The district court denied Luna’s claim because, “[w]ithout more
evidence,” he could not show that this decision amounted to vindictiveness. Luna, 2020 WL
3265350, at *9. In his COA application, Luna recounts the relevant events and argues that
“[v]indictiveness is the only reasonable conclusion that one can arrive at” to explain the State’s
decision to seek aggravators. But while he claims that the State “was just waiting for an
opportunity to” do so, Luna offers only speculation in support. Additionally, the jury in Luna’s
trial ultimately found the aggravator was present, further demonstrating that its inclusion was not
unreasonable. As a result, and given the Kentucky Supreme Court’s rationale, no reasonable jurist
could debate the district court’s denial of this claim.
Luna’s third argument in his COA application concerns this twelfth habeas claim, which
alleged that the evidence from his reversed arson conviction impermissibly contributed to his
murder conviction. The district court denied this claim because the evidence supporting his murder
conviction was “distinct” from the evidence of arson. Luna, 2020 WL 3265350, at *10. Given
that the evidence that the victim died from a blow to the head is unrelated to the evidence that Luna
committed first-degree arson, there is no “reasonable possibility that the evidence [of arson] might

No. 20-5746
-6have contributed to [his murder] conviction.” Fahy v. State of Connecticut, 375 U.S. 85, 86-87
(1963). Therefore, no reasonable jurist could debate the denial of this claim.
Luna next presents his thirteenth habeas claim: that the trial court erred, and his attorney
was ineffective, with regard to the robbery aggravator. The State sought a first-degree-robbery
aggravator for Luna’s murder conviction even though they did not include it in the indictment, nor
did they present it to the jury until the penalty phase of the trial. The jury ultimately found that
the robbery aggravator applied. See Luna, 2019 WL 10302263, at *14 n.6. Luna argues that this
procedure did not give him adequate notice and prevented him from mounting a defense to the
aggravator.
In Luna’s case, the State filed its notice of aggravators before trial, as required by state law.
See Luna, 2017 WL2492589, at *2; see also Ky. Rev. Stat. § 532.025(l)(a). As the district court
noted, Kentucky law does not require aggravators to be included in the indictment, Luna, 2020
WL 3265350, at *10 (citing St. Clair v. Commonwealth, 140 S.W.3d 510, 560 (Ky. 2004)), and
“there is no constitutional right in a state prosecution to a grand jury indictment with particular
specificity,” Williams v. Haviland, 467 F.3d 527, 534 (6th Cir. 2006). Luna cites no relevant
authority stating that Kentucky’s procedure did not give him “adequate notice of the charges in
order to enable him to mount a defense.” Valentine v. Konteh, 395 F.3d 626, 631 (6th Cir. 2005).
Therefore, no reasonable jurist could debate that the trial court did not err in how it handled the
aggravator. Consequently, Luna has not made a substantial showing that counsel was ineffective
for failing to object to the aggravator.

i

For the final argument in his COA application, Luna raises his fifteenth habeas claim,
which alleged that his attorney was ineffective for not investigating or raising a self-defense
argument before trial. Had counsel done so, Luna argues that the trial court may have held a
hearing, see Rodgers v. Commonwealth, 285 S.W.3d 740,755 (Ky. 2009), and found that probable
cause did not support his prosecution.
To prove ineffective assistance of counsel, a habeas petitioner must show that his attorney’s
performance was objectively unreasonable and that it caused him prejudice.

Strickland v.

No. 20-5746
-7Washington, 466 U.S. 668, 687 (1984). Here, the district court denied Luna’s claim because he
could not show prejudice: even if counsel had sought a pretrial hearing to present a self-defense
argument, the State would still have been able to establish probable cause to proceed to trial, which
“is not a high bar.” Luna, 2020 WL 3265350, at * 11 (quoting D.C. v. Wesby, 138 S. Ct. 577, 586
(2018)). Given the nature of the charged offenses, no reasonable jurist could debate that decision.
Accordingly, Luna s GOA application is DENIED, and his motion to proceed in forma
pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-5746

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

May 03, 2021
DEBORAH S. HUNT, Clerk

GEORGE A. LUNA,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
ANNA VALENTINE, WARDEN,
Respondent-Appellee.

ORDER

Before: GRIFFIN, KETHLEDGE, and MURPHY, Circuit Judges.

George A. Luna, a pro se Kentucky prisoner, petitions the court to rehear en banc its order
denying him a certificate of appealability. The petition has been referred to this panel, on which
the original deciding judge does not sit, for an initial determination on the merits of the petition for
rehearing. Upon careful consideration, the panel concludes that the original deciding judge did
not misapprehend or overlook any point of law or fact in issuing the order and, accordingly,
declines to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-5746

-------- FILED-------

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

May 18,2021
DEBORAH S. HUNT, Clerk

GEORGE A. LUNA,
Petitioner-Appellant,
v.
ANNA VALENTINE, WARDEN,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

ORDER

Before: GRIFFIN, KETHLEDGE, and MURPHY, Circuit Judges.

George A. Luna petitions for rehearing en banc of this court’s order entered on
February 11, 2021, denying his application for a certificate of appealability. The petition was
initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 5:18-cv-00068-TBR-LLK Document 34 Filed 06/17/20 Page 1 of 1 Page ID #: 742

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
PADUCAH DIVISION
CIVIL ACTION NO. 5:18-CV-00068-TBR-LLK
GEORGE A. LUNA,

PETITIONER

v.

SCOTT JORDAN

RESPONDENT
JUDGMENT

In accordance with the Order of the Court, it is hereby ORDERED AND ADJUDGED
as follows:

j

(1) Petitioner’s petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 [DN1]
is DISMISSED with prejudice, and judgment is entered in favor of Respondent;
(2) A Certificate of Appealability is DENIED; and
(3) This is a FINAL judgment, and the matter is STRICKEN from the active docket of
the Court.

Thomas B
Senior Judge
United States District Court
June 16, 2020

cc: George A. Luna
222876
KENTUCKY STATE REFORMATORY
3001 W. Highway 146
LaGrange, KY 40032
PRO SE

Case 5:18tCV-00068-TBR-LLK Document 33 Filed 06/17/20 Page 1 of 24 PagelD #: 718

----- PMTED-S-TA-TES-D18T-RieT-eeijRT----WESTERN DISTRICT OF KENTUCKY
PADUCAH DIVISION
CIVIL ACTION NO. 5:18-CV-00068-TBR-LLK
GEORGE A. LUNA,

PETITIONER

v.
SCOTT JORDAN

RESPONDENT
MEMORANDUM OPINION AND ORDER

This matter is before the Court on Petitioner George Luna’s Petition for Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2254. [DN 1.] A response was filed by previous Respondent Aaron
Smith. [DN 12.] Scott Jordan is now the Warden. The Magistrate Judge filed Findings of Fact and
Conclusions of Law and Recommendation. [DN 25.] Luna filed objections thereto. [DN 31.] This
matter is now ripe for adjudication. Having conducted a de novo review of the portions of the
Magistrate Judge’s report to which Luna objected,1 the Court ADOPTS the Magistrate Judge’s
Report and Recommendations.

I. BACKGROUND
Following a jury trial, Petitioner was convicted of first-degree murder and first-degree
arson and was sentenced to life imprisonment. Luna v. Commonwealth, No. 2008-SC-00Q652-MR,
2010 WL 4683564 (Ky. Nov. 18,2010). The Kentucky Supreme Court reversed and remanded for
“retrial or other proceedings consistent with this opinion,” Id. at 10.

i >
‘It is well-established that the failure to object to any portion of a magistrate judge's report results in a waiver of
both district-court and appellate review of that portion.” See Smith v. Detroit Fed'n of Teachers, Local 231, 829 F.2d
1370,1373 (6th Cir. 1987) (“[0]nly those specific objections to the magistrate's report made to the district court will
be preserved for appellate review; making some objections but failing to raise others will not preserve all the
objections a party may have.”).

1

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 2 of 24 PagelD #: 719

Upcm-remand,.fol lowing a new trial. Luna was convicted of the same offenses and imposed
a life sentence for murder and a 20-year sentence for arson “to be served consecutively with the
life imprisonment sentence.” Luna v. Commonwealth, 460 S.W.3d 851, 886 (Ky. 2015). On
February 19, 2015, the Kentucky Supreme Court reversed Petitioner’s arson conviction, finding .
that he was entitled to a directed verdict on that charge. Zt/r at 884.The Court remanded for “entryof a new judgment consistent with this opinion.” Id. at 889. On June 11, 2015, the Court denied a
rehearing. Id.
On August 27, 2015, in the Trigg Circuit Court, Petitioner filed a Motion in Vacatur of
Judgment of Conviction and Sentence, which was essentially a motion to set aside his conviction
pursuant to Kentucky Rules of Criminal Procedure (RCr) 11.42. Luna v. Commonwealth, No.
2015-CA-001730-MR, 2017 WL 2492589, at *1 (Ky.App., June 9,2017). The trial court denied
the motion, and, on June 9,2017, the Kentucky Court of Appeals affirmed. Id. The present petition
was filed on May 9, 2018. [DN 1.]
As this Court agrees with the Magistrate Judge’s findings, this Court will only address
Luna’s objections.
II. LEGAL STANDARD
The purpose of the writ of habeas corpus is “to ensure that individuals are not imprisoned
in violation of the Constitution-not to correct errors of fact.” Herrera v. Collins, 506 U.S. 390,400
(1993). “Federal courts are not forums in which to relitigate state trials.” Barefoot v. Estelle, 463
U.S. 880, 887(1983).
The Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. No. 104-132,110 Stat.
1214 (April 24, 1996) (“AEDPA”) amended the habeas statute, 28 U.S.C. § 2254, and applies to
all habeas cases filed after April 25, 1996. The petition in this case was filed after that date, and

2

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 3 of 24 PagelD #: 720

therefore, the amendments to § 2254 are applicable. See Walker v. Smith, 360 h.3d 561, 563 (6th
Cir. 2004). “The Antiterrorism and Effective Death Penalty Act of 1996 modified a federal habeas
court’s role in reviewing state prisoner applications in order to prevent federal habeas ‘retrials’
and to ensure that state-court convictions are given effect to the extent possible under law.” Bell v.
Cone, 535 U.S. 685, 693 (2002) (citing Williams v. Taylor, 529 U.S. 362, 403-404 (2000)). The
habeas statute provides:
An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
§ 2254(b)(1). Section 2254(d), as amended by the AEDPA, states:
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
§ 2254(d). Section 2254(d) “bars relitigation of any claim ‘adjudicated on the merits’ in state court,
subject only to the exceptions in §§ 2254(d)(1) and (2)” above. Harrington v. Richter, 562 U.S.
86, 98 (2011).
Following the modifications set forth by the AEDPA, the Sixth Circuit has explained that
a state court decision may only be overturned if:

3

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 4 of 24 PagelD #: 721

_1-_-Tt-L[appJies]-a-xuJ£-thatxQntr.adicts-the-gQy-emingJaw-set-£Qrth-in[Supreme_Court
of the United States] cases,’ or; 2. the state-court decision ‘confronts a set of facts
that are materially indistinguishable from a decision of [the Supreme Court] and
nevertheless arrives at a result different from [Supreme Court] precedent;’ or 3. ‘the
state court identifies the correct governing legal rule from [the Supreme] Court's
cases but unreasonably applies it to the facts of the particular state prisoner's case;’
or 4. the state court ‘either unreasonably extends a legal principle from [a Supreme
Court] precedent to a new context where it should not apply or unreasonably refuses
-to extend that-principle to a new context where it should applyA----------"-------Bailey v. Mitchell, 271 F.3d 652, 655 (6th Cir. 2001) (internal citations omitted); see also
Williams, 529 U.S. at 406-409; 412-13.
When performing analysis of a state court decision pursuant to § 2554(d), the first
requirement is that state courts be tested only against “clearly established Federal law, as
determined by the Supreme Court of the United States.” In order to be clearly established law, the
law relied on by the petitioner must be law that was clearly established at the time the state court
decision became final, not afterward. Williams, 529 U.S. at 380. The federal court is also limited
to law “as determined by the Supreme Court” only. Id. at 381-82.
Second, the Court must determine whether the state court decision was “contrary to, or
involved an unreasonable application of’ that clearly established law. Id. at 384. In order to find a
state court’s application of Supreme Court precedent unreasonable under § 2554, the state court’s
decision must have been objectively unreasonable. Wiggins v. Smith, 539 U.S. 510, 520 (2003);
Williams, 529 U.S. at 409 (explaining, “[s]tated simply, a federal habeas court making the
“unreasonable application” inquiry should ask whether the state court’s application of clearly
established federal law was objectively unreasonable”). An unreasonable application of federal
law is distinct and different from an incorrect application of federal law. Id. at 410; see also Macias
v. Makowski, 291 F.3d 447, 545 (6th Cir. 2002) (holding “the relevant question is not whether the

4

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 5 of 24 PagelD #: 722

state court's decision was wrong, but whether ii was -an Unreasonable applicatioTi-of‘-ciearly
established federal law”).
Therefore, “a federal habeas court may not issue the writ simply because that court
concludes in its independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly. Rather, that application must also be
unreasonable.” Williams, 529 U.S. at 411. The Supreme Court has further explained that “[a] state
court’s determination that a claim lacks merit precludes federal habeas relief so long as ‘fairminded
jurists could disagree’ on the correctness of the state court’s decision.” Harrington, 562 U.S. at
101 (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). Stated differently, petitioners
for habeas relief “must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Id. at 103. The AEDPA
standard additionally provides that “a determination of a factual issue made by a State court shall
be presumed to be correct.” § 2254(e)(1). Factual determinations by State courts will not be
overturned unless objectively unreasonable. § 2254(d)(2). The applicant, or petitioner, bears the
burden of rebutting the presumption of correctness by clear and convincing evidence. Id.; see also
Lancaster v. Adams, 324 F.3d 423, 429 (6th Cir. 2003) (holding “[ujnder AEDPA, primary or
historical facts found by state courts are presumed correct and are rebuttable only by clear and
convincing evidence” (internal quotation marks omitted)). The findings of state appellate courts
are also accorded the presumption of correctness. Sumner v. Mata, 449 U.S. 539, 546 (1981)
(holding “[sjection 2254(d)... makes no distinction between the factual determinations of a state
trial court and those of a state appellate court”).

5

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 6 of 24 PagelD #: 723

“But there are exceptions to the requirement of AEDPA deference.” Montes v. Trombley,
599 F.3d 490, 494 (6th Cir. 2010). Specifically, the “substantially higher threshold” set by the
AEDPA only applies to “claim[s] that w[ere] adjudicated on the merits in State court proceedings.”
Schriro v. Landrigan, 550 U.S. 465, 473 (2007); § 2254(d)(1). When a petitioner for habeas relief
seeks review of claims that were not adjudicated on the merits in state court, “then the pre-AEDPA
standards of review apply.” Montes, 599 F.3d at 494 (citing Cone, 556 U.S. at 472). Under the preAEDPA standard, “questions of law, including mixed questions of law and fact, are reviewed de
novo, and questions of fact are reviewed under the clear-error standard.” Id. (citing Brown v. Smith,
551 F.3d 424,430 (6th Cir. 2008)). See also Robinson v. Howes, 663 F.3d 819, 823 (6th Cir. 2011)
(“Claims that were not ‘adjudicated on the merits in State court proceedings’ receive the preAEDPA standard of review: de novo for questions of law (including mixed questions of law and
fact), and clear error for questions of fact.”)
“Under Harrington v. Richter, ‘ [w]hen a federal claim has been presented to a state court
and the state court has denied relief, it may be presumed that the state court adjudicated the claim
on its merits in the absence of any indication or state-law procedural principles to the contrary.”’
Barton v. Warden, S. Ohio Corr. Facility, 786 F.3d 450,460 (6th Cir. 2015), cert, denied sub nom
(quoting Harrington, 562 U.S. at 99). In situations “when a state court makes clear that it is
deciding a claim both on the merits and on procedural grounds, [the Sixth Circuit has] held that a
federal habeas court may nonetheless review that court’s merits analysis and, if appropriate, apply
AEDPA deference to that adjudication.” Id. at 461 (citing Brooke v. Bagley, 513 F.3d 618, 624
(6th Cir. 2008)).
III. DISCUSSION
A. Ground One: Improper admission of testimony by Bill Compton

6

\

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 7 of 24 PagelD #: 724

in addressing Luna’s argument ot improper admission ot testimony by Bill Compton, the
Magistrate Judge found that the admission of testimony was not improper on three different
grounds.
First, the Magistrate Judge held that even if the trial court did err, the error was not of
constitutional magnitude. [DN 25 at 8.] Luna argues that Compton’s testimony was a violation
of Daubert. Daubert held that, under the Federal Rules of Evidence, “the trial judge must ensure
that any and all scientific testimony or evidence admitted is not only relevant, but reliable.”
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993). There is no constitutional
requirement that evidence be screened through Daubert standards. Bojaj v. Berghuis, 702 F. App’x
315, 321 (6th Cir. 2017). Rather, “state rules of evidence are the primary safeguard against
unreliable expert testimony being put before the jury, and the Due Process Clause serves as a
distant backstop to these rules.” Id.
Luna argues that the testimony of Compton violated Daubert because it was not relevant
i,

or reliable. [DN 31 at 4.] The admission of Compton’s testimony was based on the Kentucky
Rules of Evidence. Luna v. Commonwealth, 260 S.W. 3d 85L 864 (Ky. 2015). “It is not the
province of a federal habeas court to reexamine state-court determinations on state-law questions.”
Ege v. Yukins, 485 F.3D 364, 375 (6th Cir. 2007) (citing Estelle v. McGuire, 502 U.S. 62, 68
(1991)). However, that does not preclude a Court from finding a due process violation. The
evidentiary rujing must be “so egregious that it results in a denial of fundamental fairness.” Bugh
v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). The “denial of fundamental fairness turns upon
whether the evidence is material in the sense of a crucial, critical highly significant factor.” Brown
v. ODea, 227 F.3d 642‘, 645 (6th Cir. 2000).

7

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 8 of 24 PagelD #: 725

-The; Court Hops not find the admission of Compton’s testimony to be so egregious.
Compton did not solely rely on accelerants to label the fire “incendiary.” Luna, 260 S.W. 3d 851
at 864). Compton testified to relying on the “debris, the path traveled by the fire, the lack of
significant fire load...and the severe and localized damage to the floor where Hendrickson’s body
------ was found.” Id. at 866. Luna also had the opportunity to cross-examineand-presentwitnesses—
challenging Compton’s testimony. The Court does not find Compton’s statement labeling the fire
“incendiary” was a “crucial, critical highly significant factor.” Therefore, Luna was not denied
fundamental fairness. The Court adopts the Magistrate Judge’s finding on this matter.
Second, the Magistrate Judge held that the federal court is bound by the state court’s
holding of no Due Process error. A district court must give deference to a state court finding unless
the presumption of correctness is refuted by clear and convincing evidence.

§ 2254(e)(1).

“Deference does not by definition preclude relief.” Miller-El v. Dretke, 545 U.S. 231, 240 (2005)
(quoting Miller-El v. Cockrell, 537 U.S. 322, 340 (2003)).
Luna argues that he has met his burden of clear and convincing evidence. He states that it
was an unreasonable determination of the facts for Compton to testify that the fire was incendiary
[DN 31 at 6.] When making its determination, the trial court had access to the arson investigator’s
report, Luna’s witnesses, and could also rely on affidavits, deposition testimony and existing
precedent. Luna, 460 S.W. 3d 851, 865 (Ky. 2015) (citing Com v. Christie, 98 S.W.3d 485, 488489 (Ky. 2002). The arson investigator’s report and Luna’s own witnesses provided sufficient
evidence that Compton used “valid science” for his methodology. Luna, 469 S.W.3d 851, 865.
The Court does not find that Luna has met his burden of clear and convincing evidence. The Court
is satisfied with the amount of evidence present for the trial court to base its determination of
reliability. Therefore, the Court adopts the Magistrate Judge’s finding.

8

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 9 of 24 PagelD #: 726

-Thirdr

GFr-or—of-

constitutional magnitude, it was harmless. The Court agrees with Luna that it must first apply
Chapman and determine whether the error was “harmless beyond a reasonable doubt.” Chapman
v. California, 368U.S. 18,24(1967). InChapman, the Court foundthe error harmful to petitioners
because the “the state prosecutor’s argument and the trial judge’s instruction to the jury
continuously and repeatedly impressed the jury”. Id. at 829 (emphasis added). It does not appear
that the statements made by Compton were so pervasive. Further, there was testimony offered that
refuted the statements made by Compton. Direct testimony and Luna’s cross-examination of
Compton elicited testimony about the deficiencies and limitations of the hydrocarbon detector
used. Luna, 460 S.W. 3d 851, 867. The possible error of Compton’s testimony did not go
unchecked.
Further, Luna states in his objections that this error “prevented the jury from giving
credence not only to Luna’s explanation” about how the fire started. [DN 31 at 7.] He further
reasoned that this was “indicative of the fact that they found Luna guilty of Arson First.” [Id.]
However, the Kentucky Supreme Court reversed Luna’s arson conviction. Luna, 460 S.W. 3d
851, 889. Any error that led to Luna’s arson conviction has been remedied by the Kentucky
Supreme Court reversing the conviction and is now moot. Luna does not argue that the testimony
of Compton influenced the jury to find him guilty of first-degree murder. The Court need not
expound on whether the error was harmless beyond a reasonable doubt. Luna’s argument that he
is entitled to summary judgment on this claim is moot as well. Even if this Court was inclined to
grant relief to Luna there is no relief to be granted. Therefore, the Court adopts the holding of
Magistrate Judge but for different reasoning.
BJ Ground Two: Improper admission of hearsay statements of Hendrickson

9

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 10 of 24 PagelD #: 727

In—address!
Hendrickson, the Magistrate Judge found that Luna’s claim was without merit for three reasons.
First, the Magistrate Judge found that even if the admission of testimony was an error, it
was not one of constitutional magnitude. The Kentucky Supreme Court found that the statements
by Hendrickson were not hearsay because they were not admitted-for-the-truth of the matter
asserted. Id. at 872. Luna argues that it was improper for the Kentucky Supreme Court to affirm
on different grounds than argued. However, this argument ignores clearly established Kentucky
law. “Yet, it is well settled that we are not bound by the analysis of the Court of Appeals and may
affirm on any grounds supported by the record.” S. Fin. Life Ins. Co. v. Combs, 413 S.W.3d 921,
926 (Ky. 2013).
The Court starts with the premise that “[0]ut of court statements that are testimonial in
nature are barred by the Sixth Amendment Confrontation Clause unless the witness is unavailable,
and the defendant had a prior opportunity to cross-examine the witness.” Johnson v. Renico, 314
F.Supp.2d 700, 706 (E.D. Mich. 2004) (citing Crawford v. Washington, 541 U.S. 36 (2004). This
is an issue of state law under the Kentucky Rules of Evidence. As such, this Court is bound by that
finding. See Renico, 314 F.Supp. 2d at 706 (“Any claim that the trial court improperly admitted
this evidence as an exception to the hearsay rule is therefore noncognizable in federal habeas
review.”).
Second, the Magistrate Judge found Luna’s argument that the Confrontation Clause was
violated does not warrant relief. More specifically, he asserts that the state court did not address
the issue of specific intent for the forfeiture by wrongdoing exception. [DN 31 at 10.] However,
the Kentucky Supreme Court did address this issue—albeit not extensively.

10

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 11 of 24 PagelD #: 728

nontestimonial statements are at issue is permissible. Id. (citing Parker v. Commonwealth, 291
S.W.3d 647 (Ky. 2009)): Due to the amount of evidence—multiple statements to different
people—there was enough evidence for the trial court to infer intent. In order for the evidence to
be admitted under the forfeiture exception, the proponent only need to establish a basis by a
preponderance of the evidence. Id. at 871. This burden was met.
Luna argues this inference of intent is not permitted under Giles v. California, 554 U.S.
353 (2008). Under Giles, specific intent is required. However, the Giles Court only decided
specific intent is necessary for testimonial statements. Id. at 358. The Kentucky Supreme Court
seemingly found Hendrickson’s statements to be nontestimonial as it allowed an inference of
intent. Luna, 460 S.W.3d at 872. (“Our evidentiary rule operates for nontestimonial statements
and, as such, could be interpreted to allow an inference Of intent.”). The Court, however, did not
address this issue at length because it deemed the evidence admissible because it is not hearsay.
Id. Therefore, even if it was error to admit these statements under the forfeiture by wrongdoing
exception, the evidence was still admissible as it was not hearsay.
Finally, the Magistrate Judge found the Court’s finding that Luna received a fair trial to be
reasonable. The Court agrees. The Court in Luna stated, “Luna did not receive a fundamentally
unfair trial as a result of the admission of Hendrickson’s statements.” Id. at 873. Based on the
weight of the evidence the Court considered, this Court agrees that this was a reasonable finding.
As such, Luna is not entitled to relief.
C. Ground Three: Improper admission of prior bad acts
Luna argues the trial court erred in admitting evidence of his prior bad acts at the police
station following his arrest. The Magistrate Judge found Luna’s argument was without merit.

11

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 12 of 24 PagelD #: 729

. He stood up
from his chair and approached a seated trooper. Id, The trooper turned around, found Luna standing
over him, and pushed Luna away. Id. Luna fell and hit his head on a bench. Id. Luna stood up and
demanded to be bonded out and even threatened the trooper and the trooper’s family if he was not
bonded-out. Id. He was later-taken-to-the hospital to receive staples-to-elose the wound. Id. The
Kentucky Supreme Court found the “trial court abused its discretion in allowing the evidence to
be admitted into evidence at trial.” Id. at 874.
The Magistrate Judge found this error was not of constitutional magnitude. “[H]abeas relief
[is] warranted, only if an evidentiary ruling is “so egregious that it results in a' denial of
fundamental fairness.” Ege v. Yukins, 485 F.3d 364, 375 (6th Cir. 2007) (quoting Bugh v. Mitchell,
329 F.3d 496, 512 (6th Cir. 2003)). “Whether the admission of prejudicial evidence constitutes a
denial of fundamental fairness turns upon whether the evidence is material in the sense of a crucial,
critical highly significant factor.” Id. (quoting Brown v. O ’Dea, 227 F.3d 642,645 (6th Cir. 2000)).
This Court is to give deference to the findings of the state court. Id.
Here, the Kentucky Supreme Court found the admission of this evidence was harmless
error because “Luna’s statement to police and Luna’s own trial testimony included mentions of
the police-station altercation”. Luna, 460 S.W.3d at 874. The Court further stated, “we do not
believe this prior-bad-acts evidence substantially swayed the jury to convict Luna of first-degree
murder or first-degree arson.” Id. Luna correctly states the Court reversed his conviction for firstdegree arson. However, that does not necessarily mean the admission of this evidence contributed
substantially to sway the jury. Furthermore, if this evidence swayed the jury to convict Luna of
arson, relief has already been granted for that conviction. Based on the other evidence available to

12

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 13 of 24 PagelD #: 730

the jury,4tbis
critical as to substantially sway the jury to find Luna guilty of first-degree murder.
D. Ground Four: Improper Cross-examination of Luna
Luna argues his Sixth and Fourteenth Amendment rights were violated when the
Commonwealth cross-examined him on previous fires. At trial, the Commonwealth questioned
Luna about three fires that occurred at his previous residence in Illinois. Id. at 875. The
Commonwealth also questioned Luna bout an apartment fire in the early 90s. Id. Luna denied any
involvement with these fires except for a garage fire he admitted to accidentally starting. Id. He
also acknowledged he received insurance proceeds from the fires. Id. The Kentucky Supreme
Court found it was improper to mention these prior bad acts but was harmless error. Id. at 877.
The Magistrate Judge also found Luna was not entitled to relief because there was no error of
constitutional magnitude.
In Luna’s objections, he states this evidence prevented the jury from considering he acted
in self-defense. “[T]he proper standard by which to gauge the injurious impact of the admission of
constitutionally infirm evidence is to consider the evidence before the jury absent the
constitutionally infirm evidence.” Brumley v. Wingard, 269 F.3d 629, 646 (6th Cir. 2001). If the
Court found that the admission of this evidence rose to a constitutional violation—which it does
not—Luna still would not be entitled to relief. Without considering the cross-examination about
the fires, the jury had evidence that Hendrickson had “skull fractures, subdural hemorrhaging, and
bruises to the brain away from the location of the skull fractures. There was no disagreement in
the evidence that blunt-force trauma, not fire, caused Hendrickson’s death.” Luna, 460 S.W.3d at
885. As the Kentucky Supreme Court stated, if the evidence “improperly influenced the jury, it
caused the jury to convict [Luna] of first-degree arson.” Id. at 877. Hendrickson’s cause of death

13

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page'14"of 24 PagelD #: 731

-wasconstitutionally sound. The Kentucky Supreme Court already granted Luna relief from the errors
causing the arson conviction by vacating it.
E. Ground Five: Admission of Illinois Civil Judgment
----- Luna argues his Sixth and Fourteenth Amendment rightswere violated whenthe trial-court
allowed the Commonwealth to admit evidence of an Illinois civil judgment against Luna.
Progressive Insurance paid under Luna’s policy after a fire at his residence. Id. at 878. Progressive
obtained a judgment against Luna and his then fiancee on July 13, 2007 for $11, 527.72. Id. The
entry of this judgment was one day before “Luna’s Firebird burned, for which Luna fraudulently
attempted to recover insurance proceeds.” Id. The Kentucky Supreme Court held the admission of
this judgment was proper because it points to motive for murder. Luna objects to this finding
because “Luna was not the only party found liable pursuant to this judgment”. [DN 31 at 19.]
“Generally, state-court evidentiary rulings cannot rise to the level of due process violations
unless they offend some principle of justice so rooted in the traditions and conscience of our people
as to be ranked as fundamental.” Bugh, 329 F.3d at 512 (internal quotations omitted). Luna argues
this evidence was admitted in violation of Michelson v. U.S., 335 U.S. 469 (1948). However, the
Court in Michelson, considered whether it was permissible for the prosecution to cross-examine
character witnesses. Id. at 473-475. Character evidence is not at issue here.
The outstanding judgment against Luna is relevant to his motive. The Commonwealth’s
theory against Luna was Luna burned the Firebird vehicle and attempted to file a fraudulent claim
with Progressive Insurance. Luna, 460 S.W.3d at 869. Luna asked Hendrickson to help with the
fraudulent claim and she initially helped. Id. Hendrickson later wanted no part of Luna’s insurance
scheme and turned Luna into investigators. Id. at 870. “The judgment and its associated financial

14

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 15 of 24 PagelD #: 732

''. III. al 878rfcuna,5"aTgument'thatthis evidence is not connected to the murder because he was not the only liable party holds no
weight. Therefore, he is not entitled to relief.
F. Ground Six: Improper Cross-examination
Luna has withdrawn consideration of this issue. [DN 31 at 21.] The Court recognizes
Luna’s withdrawal and adopts the Magistrate Judge’s reasoning on this issue.
G. Ground Seven: Alternative Perpetrator Defense
Luna argues his Sixth and Fourteenth Amendment rights were violated when the trial court
denied Luna’s motion to. present evidence of an alternate perpetrator. The Kentucky Supreme
Court found the trial court properly denied Luna’s motion because the evidence did not indicate
both opportunity and motive as required by Kentucky law. Id. at 881. Luna attempted to admit
evidence that one of Hendrickson’s ex-boyfriends murdered her. Id. Hendrickson and her exboyfriend ended their relationship a few months before Luna moved in with Hendrickson. Id. Luna
asserted the ex-boyfriend abused and threatened Hendrickson’s life. Id. The Kentucky Supreme
Court held Luna could not present the theory because he was not “entitled to parade before the
jury every person who bore some dislike for the victim, and that is all Luna did here.” Id. (internal
quotations omitted).
Luna cites to McCoy v. Louisiana, 38 S.Ct. 1500 (2018) to support his position. In McCoy,
the Court restated its position that “the right to defend is personal, and a defendant’s choice in
exercising that right must be honored out of that respect for the individual which is the lifeblood
of the law.” Id. at 1507 (internal quotations omitted). However, this does not give a defendant
complete control over the way a trial proceeds and the evidence admitted. A holding to the contrary
would render the Rules of Evidence meaningless. “Although prevailing notions of fundamental

15

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 16 of 24 PagelD #: 733

Tairness^reguire that criminal defendants be afforded a meaningful opportunity to present a
complete defense..a defendant's right to present relevant evidence is not unlimited, but rather is
subject to reasonable restrictions”. Miller v. Brunsman, 599 F.3d 517, 525 (6th Cir. 2010). Here,
the Kentucky Supreme Court did not err in finding Luna had not presented a sufficient nexus
- between Hendrickson’s murder and her ex-boyfriend. Without more evidence,—buna-was-not
entitled to present this theory to the jury. Luna has not pointed to any evidence that the state court’s
decision was an unreasonable determination of the facts, nor an unreasonable application of clearly
established federal law. As such, Luna is not entitled to relief.
H. Ground Eight: Intoxication and Extreme Emotional Disturbance
Luna argues his Sixth Amendment and Fourteenth Amendment rights were violated when
the trial court did not instruct the jury on the defense of intoxication and extreme emotional
disturbance. In order to receive an instruction on the affirmative defense of intoxication and
extreme emotional disturbance, Kentucky courts require a defendant to assert “some evidence
justifying a reasonable inference of the existence of a defense”. Luna, 460 S.W. 3d at 882.
The defense of intoxication requires evidence that “[negates] the existence of an element
of the offense.” Id. However, Kentucky courts also requires “evidence reasonably sufficient to
prove that the defendant was so drunk that he did not know what he was doing.” Id. “Simple
drunkenness is not sufficient; instead, a more advanced degree of drunkenness is required.” Id.
(internal quotations omitted). The Kentucky Supreme Court found Luna did not submit any proof
indicating an advanced degree of drunkenness. “[T]he findings of a state court are presumed to be
correct and can only be contravened if [the petitioner] can show by clear and convincing evidence
that they are erroneous. Bowling v. Parker, 344 F.3d 487, 497 (6th Cir. 2003). In his objections,
Luna repeats the evidence that the Kentucky Supreme Court addressed. The Kentucky Supreme

16

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 17 of 24 PagelD #: 734

this was partly due to alcohol he continued to drink after Hendrickson was killed and he drove
away. Id. The Court also found Luna was able to provide a detailed account of what occurred
between him and Hendrickson and therefore was not under an advanced degree of drunkenness.
Id. Luna has not presented this Court with any clear and convincing evidence that he presented
clear and convincing evidence that he was in an advanced degree of drunkenness. Therefore, he is
."99

not entitled to relief.
In order to prove extreme emotional disturbance, “a defendant must offer evidence that he
suffered a temporary state of mind so enraged, inflamed, or disturbed as to overcome one’s
judgment, and to cause one to act uncontrollably from an impelling force of the extreme emotional
disturbance rather than from evil or malicious purposes.” Id. at 883. Luna stated, after Hendrickson
stabbed him and retrieved a handgun, he thought about his children and the possibility that they
would grow up without their dad. Id. The Court found that Luna had not presented evidence that
he was enraged, inflamed, or disturbed at any moment. Id. Here, Luna presents the same evidence.
He has not provided clear and convincing evidence that the trial court and state Supreme Court’s
findings were unreasonable. As such, he is not entitled to relief.
I. Ground Nine: Directed Verdict on Arson
Luna argues he was entitled to a directed verdict on arson in the first degree and his
conviction violates due process. The Kentucky Supreme Court talked at length about Luna’s arson
conviction. The Court found he was in fact entitled to a directed verdict because the evidence
clearly pointed to Hendrickson dying prior to the fire started and therefore was not occupying the
trailer. Id. at 884-886. Luna now asks for relief because he argues his murder conviction was
equally affected.

17

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 18 of 24 PagelD #: 735

J-unaJ.s-nnl-entitled to habeas relief because the state court has already granted him relief
from the arson conviction. Further, Luther has not provided any evidence that that the murder
conviction is unreasonable or contrary to established Federal law. As the Kentucky Supreme Court
stated, Luna’s sentence is not altered by the directed verdict on the arson charge because the jury
made a recommendation of life imprisonment for the murder convietion.Thatconvietionisnot
disturbed by the Court’s finding and Luna has not presented sufficient evidence to hold otherwise.
Therefore, he is not entitled to relief.
J. Ground Ten: Prosecutorial Vindictiveness
Luna argues the prosecution improperly engaged in prosecutorial vindictiveness by seeking
aggravators after Luna successfully appealed. The Kentucky Supreme Court acknowledged there
are two methods to prove prosecutorial vindictiveness—actual and presumptive vindictiveness. Id.
at 887. The Court found Luna did not argue actual vindictiveness, but rather presumptive. Id. The
Court found there was no presumptive vindictiveness for several reasons. First, the prosecution in
the second trial was different from the first. Id. Second, the jury convicted on the statutory
aggravators. Id. at 888. Third, Luna was indicted and tried for a capital crime at both trials. Id.
Finally, the Court found the extra time the prosecution had due to the granted continuance allowed
the prosecution more time to exercise its discretion. Id.
The Magistrate Judge found the Commonwealth did not file the notice of intent to seek
aggravators until Luna moved to continue his second trial date—not immediately after his appeal.
The Commonwealth informed Luna on August 23, 2011 that if he withdrew his motion for a
continuance, he would receive a sentence of no more than life imprisonment with the possibility
of parole. If he continued with the motion, however, the Commonwealth would look into
aggravating factors. One week later, the Commonwealth made an official plea offer to Luna and

18

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 19 of 24 PagelD #: 736

toJudge’s finding that the Commonwealth’s statements were during plea negotiations because an
offer was not made until a week later. However, plea negotiations are not limited to the moment
the official offer is made.
The Magistrate Judge cited to Reese v. Warden London Correctional Inst., 2011 WL
3353850 (S.D. Ohio, July 14, 2011) and this Court finds the case persuasive. In Reese, Reese was
initially indicted on two counts of aggravated assault. Id. at 1. Reese filed for a continuance which
was granted. Id. Subsequently, Reese was re-indicted for felonious assault and attempted
aggravated murder. Id. Reese argued this was due to prosecutorial vindictiveness. The Court found
Reese had not shown vindictiveness because “after reviewing the evidence...the prosecutor
concluded that [Reese] had been undercharged.. .and now that speedy trial time requirements were
no longer a problem due to [Reese’s] requested continuance, this case should be returned to the
Grand Jury and re-charged.” Id. at 7. The Court further stated, “[t]hat does not give rise to
presumption or affirmatively demonstrate that the prosecutor re-indicted Defendant on more
serious charges in order to punish him for exercising his rights”. Id.
The same is true here. The prosecution was within its rights to seek the aggravators.
Without more evidence, Luna has not shown evidence of actual or presumptive vindictiveness.
Therefore, he is not entitled to relief.
K. Ground Eleven: Directed Verdict on Robbery Aggravator
Luna argues there was a laclc of evidence to prove he killed Hendrickson in order to steal
her truck. The Kentucky Supreme Court found Luna did not preserve this issue. Further, Luna
himself admitted this issue was unpreserved. [DN 12-3 at PagelD 220.] However, the state

19

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 20 of 24 PagelD #: 737

error standard. Luna, 460 S.W.3d at
888. The Court found no error of any kind. Id.
Even if this Court found Luna’s claim was not procedurally defaulted—which it does not—
and evaluated the merits of Luna’s argument, he still is not entitled to relief. The Court found that
although-the-evidence was notoverwhelming, therewassufficient evidence toreachajury.------The prosecution presented evidence that Luna needed to obtain a vehicle to travel to
different job locations. Id. A friend of Hendrickson also testified that Hendrickson told her Luna
kept trying to get her vehicles. Id. Hendrickson owned two vehicles at that time but one of them
was wrecked, leaving only the truck. Id. at 889. The Court found that based on all the evidence, a
reasonable jury could determine the aggravator applied. Here, this Court finds the same. Luna has
not provided evidence that it was unreasonable for the Court to allow this argument to proceed to
the jury. Luna states he had permission to use the truck but does not provide more evidence. His
bare assertion is not enough. Therefore, he is not entitled to relief.
/

ft f

L/ Ground Twelve: Reversal of Murder Conviction

\J

Luna argues his conviction for first degree murder cannot stand because it is prejudiced by

m

the evidence presented on the arson charge. This Court has previously addressed the evidence

4 jy

conviction is distinct from the evidence of the fire. As previously stated, there is no evidence that

l.$A
^/

ki

presented to the jury for the murder conviction. The evidence that supports Luna’s murder

the fire contributed to Hendrickson’s death at all. A reversal of the arson conviction has no bearing
on Luna’s murder conviction. Luna correctly states the standard the Supreme Court set forth in
Fahy v. State of Conn., 375 U.S. 85 (1963). The Court stated the appropriate question is “whether
there is a reasonable possibility that the evidence complained of might have contributed to the

20

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 21 of 24 PagelD #: 738

■conviction?11

ie e.vJdence of the fire

contributed to Luna’s murder conviction. As such, Luna is not entitled to relief.
Ground Thirteen: Ineffective Assistance of Trial Counsel
Luna argues the trial court erred in allowing, and trial counsel was ineffective for not
objecting to, the Commonwealth’s pursuit of a murder conviction with a first-degree robbery
aggravator because Luna had not been indicted for first-degree robbery. Additionally, Luna claims
that the jury should have been instructed on first-degree robbery during the guilt/innocence phase
of trial.
In Kentucky, it is well-established that an aggravating circumstance need not be listed in
the indictment. See Luna, 2017 WL 2492589 at 2 (citing St. Clair v. Commonwealth, 140 S.W.3d
510, 560 (Ky. 2004). Therefore, under Kentucky law, it was not error for Luna’s counsel not to
object to the aggravator. Strickland v. Washington, 466 U.S. 668 (1984) sets for the standard for
ineffective assistance of counsel. Luna must first show “counsel made errors so serious that
counsel was not functioning as the “counsel” guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance prejudiced the defense.” Id. at
687. Here, Luna has not shown either. Luna has not shown his counsel made any error and
therefore cannot show he was prejudiced. As such, Luna is not entitled to relief.
N. Ground Fourteen: Ineffective Assistance of Appellate Counsel
Luna’s argument here is almost identical to the previous ground. Here, he argues his
appellate counsel was ineffective for not presenting his argument in Ground Thirteen to the
Kentucky Supreme Court on appeal. Again, an error must be present, and the error must prejudice
the defendant in order to show ineffective assistance. As stated above, there was no error
committed at the trial level. Without an error on the trial level, Luna’s appellate counsel was not

21

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 22 of 24 PagelD #: 739

ineffective hy not presenting this issue on appeal. Therefore, Luna is not entitled to relief on these
grounds.
round Fifteen: Ineffective Assistance of Counsel: Self-Defense
Finally, Luna argues his counsel was ineffective by failing to argue he was immune from
criminal prosecutionunderKRS§S03.085(l).KRS§503.085(-l)statesinrelevantpart,-“Aperson
who uses force as permitted in KRS 503.050, 503.055, 503.070, and 503.080 is justified in using
such force and is immune from criminal prosecution and civil action for the use of such force,
unless the person against whom the force was used is a peace officer”. “Because immunity is
designed to relieve a defendant from the burdens of litigation, it is obvious that a defendant should
be able to invoke KRS 503.085(1) at the earliest stage of the proceeding.” Rodgers v. Com., 285
S.W.3d 740, 755 (Ky. 2009). The Commonwealth has the burden to prove probable cause exists
to proceed with prosecution. Id.
Here, even if Luna’s counsel moved for a Rodgers hearing pre-trial there is not a reasonable
probability that the Commonwealth would not have proven probable cause. “Probable cause is not
a high bar.” D.C. v. Wesby, 138 S. Ct. 577, 586 (2018). The evidence presented at trial certainly
would have been enough to meet the probable cause standard.
If this Court determined Luna’s counsel committed an error by failing to move for a
Rodgers hearing pre-trial, he still is not entitled to relief. Strickland requires the defendant be
prejudiced by the error. Here, Luna still would have faced trial because the probable cause standard
was met. It cannot be said that he was prejudiced in his defense by not having a hearing. Further,
the jury was instructed on the theory of self-defense and rejected Luna’s argument. As such, Luna
is not entitled to relief.
P. Certificate of Appealability

22

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 23 of 24 PagelD #: 740

28 U.S.C. § 2253(c)(1)(A); Fed. R. App. P. 22(b). A certificate of appealability (COA) may issue
“only if the applicant has made a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 483 (2000).
“Where a district court has rejected the constitutional claims on the merits, ... [t]he
petitioner must demonstrate that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong.” Slack, 529 U.S. at 484. This Court finds that no
reasonable jurist would find it debatable that Luna’s claims have merit. As such a COA is denied.

23

Case 5:18-cv-00068-TBR-LLK Document 33 Filed 06/17/20 Page 24 of 24 PagelD #: 741

IV. Conclusion
The above matter having been referred to the United States Magistrate Judge, who has
filed his Findings of Fact and Conclusions of Law, objections having been filed thereto, and the
Court having considered the same,
IT IS HEREBY ORDERED that the Court ADOPTS the Findings of Fact and
Conclusions of Law as set forth in the report submitted by the United States Magistrate Judge.
IT IS FURTHER ORDERED that Petitioner's petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254 [DN 1] IS DISMISSED.
IT IS FURTHER ORDERED that a Certificate of Appealability is DENIED as to each
claim asserted in the petition.
IT IS SO ORDERED.

[/

Thomas B. Russell, Senior Judge
United States District Court
June 16,2020

cc: George A. Luna
222876
KENTUCKY STATE REFORMATORY
3001 W. Highway 146
LaGrange, KY 40032
PROSE

24

;irefox

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

Document: Luna v. Commonwealth, 460 S.W.3d 851

♦ Luna v. Commonwealth, 460 S.W.3d 851
Supreme Court of Kentucky
February 19, 2015, Rendered
2013-SC-000173-MR
Reporter
460 S.W.3d 851 * | 2015 Ky. LEXIS 64 **

GEORGE A. LUNA, APPELLANT v. COMMONWEALTH OF KENTUCKY, APPELLEE

Subsequent History: Released for Publication June 11, 2015.
.

Rehearing denied by Luna v. Commonwealth, 2015 Ky. LEXIS 1688 (Ky., June 11, 2015)
Post-conviction relief denied at Luna v. Commonwealth, 2017 Ky. App. Unpub. LEXIS 416 (Ky. Ct.
App., June 9, 2017)

Prior History: ON APPEAL FROM TRIGG CIRCUIT COURT. HONORABLE DENNIS R.
FOUST [**1] , SPECIAL JUDGE. CASE NO. 12-CR-00042.
Luna v. Commonwealth, 2010 Ky. Unpub. LEXIS 103 (Ky., Nov. 18, 2010)

Core Terms
trial court, first-degree, arson, murder, questioning, fires, trailer, arson investigator, sentence,
witnesses, aggravators, retrial, law-of-the-case, hearsay, first trial, truck, cross-examination,
harmless, forfeiture-by-wrongdoing, vindictiveness, hydrocarbon, convicted, emotional
disturbance, directed verdict, prior-bad-acts, probation, motive, burn, life imprisonment,
intoxication

of 35

7/7/7.071. 10:37 AM

https://doc-advance.lexis.com/documentprinl/documentprintcirclc/...

'irefox

Counsel: COUNSEL FOR APPELLANT: Molly Mattingly, Assistant Public Advocate, Department of
Public Advocacy.

COUNSEL FOR APPELLEE: Jack Conway, Attorney General of Kentucky, Gregory C. Fuchs,
Assistant Attorney General.

Judges: OPINION OF THE COURT BY CHIEF JUSTICE. Minton, C.J.; Abramson, Cunningham,
Keller, Noble, and Venters, JJ., sitting. All concur.

Opinion by: MINTON

Opinion

[*860] AFFIRMING. IN PART: REVERSING. IN PART: AND REMANDING
A circuit court jury convicted George A. Luna of first-degree murder and first-degree arson for
killing Debra Hendrickson and burning the trailer where she lived. The jury also found as a
statutory aggravator that Luna murdered Hendrickson in the commission of first-degree robbery.
As a result, Luna was sentenced to imprisonment for life without the possibility of probation or
parole. Appealing the resulting judgment as a matter of right,! 1*1 Luna now presents a host of
arguments for this Court's consideration. We reverse Luna's first-degree arson conviction and
sentence but affirm Luna's first-degree murder conviction and his sentence of life imprisonment
without possibility of probation or parole.

I. [**2] FACTUAL AND PROCEDURAL BACKGROUND.
A neighbor arrived home around 8:00 on the evening of September 8, 2007, to find Debra
Hendrickson's trailer on fire. By the time firefighters arrived, the flames were so widespread they
could not enter until water was applied, a situation known in firefighting parlance as a fully
involved fire. The neighbor observed that Hendrickson's [*861] truck was gone and assumed
she was not at home at the time. But Hendrickson lay dead inside. After the fire, her body was
recovered from the debris.
A few months before the fire, Luna had taken up residence with Hendrickson, rent-free. The two
had become acquainted several months earlier. A journeyman bricklayer by trade, Luna traveled
as jobs required, returning to Hendrickson's home and staying with her between jobs. As a
result, Luna's tenancy with Hendrickson was fairly sporadic, primarily on weekends.
Hendrickson and Luna, despite their living arrangement, and, according to Luna, Hendrickson's
repeated advances, were not romantically linked. Their relationship was reportedly filled with
conflict. Hendrickson's family and friends described various instances of physical abuse inflicted
upon Hendrickson by Luna. Likewise, [**3] during his testimony at trial, Luna recounted
examples of her physical abuse of him, including inflicting a gunshot and stab wound. And, as
we will discuss in more detail below, Luna and Hendrickson engaged in various insurance-fraud
schemes.
Earlier in the afternoon before the fire, Luna accompanied Hendrickson into Paducah, about 30
minutes from Hendrickson's trailer in Marshall County, Kentucky. The two visited a couple of

2 of 35

7/7/2021, 10:37 AM

https://doc-advance.lexis.com/documentprint/documentprintclick/...

;irefox

bars, ate, and drank beer. Before returning home, they stopped at a liquor store. According to
Luna, Hendrickson encountered a potential boyfriend, and she told Luna the man would be
coming over later that night. Hendrickson drove Luna home in her truck, a truck that Luna was
allegedly in the process of buying from Hendrickson.
_________________ _____________
According to Luna, he was eager to see his daughter in Illinois, so upon returning home he
began packing his clothes and tools to get on the road. Hendrickson waved from the front porch,
beer in hand, as Luna pulled out of the driveway. Luna reached Paducah before he realized he
had left his level in Hendrickson's garage, so he turned around and drove back to Hendrickson's
trailer.
Upon arrival, Luna did not enter the trailer but went directly [**4] to retrieve the level from the
garage. As he returned to his vehicle, Luna thought he saw flames through a window in the
trailer. According to Luna, he thought little of the flames. Supposing he was drunk and sensing
things that were not there, he drove away. But while driving to Illinois, he called 911 several
times to report a potential fire. While on the phone with the 911 dispatcher, Luna was unable to
provide Hendrickson's address or even her surname, claiming he did not know it. Eventually,
Luna hung up on the dispatcher, but then became belligerent with her when she called him back
seeking more information.
At 7:34 on the evening of the fire, In Illinois State Trooper clocked Luna traveling through
southern Illinois at 100 miles per hour. Luna was arrested there.
Following a short investigation and his extradition to Kentucky, Luna was indicted on charges of
first-degree murder and first-degree arson. A jury trial conducted in 2008 resulted in Luna's
conviction of all charges and a sentence of life imprisonment. On appeal, we reversed that
judgment and remanded for a new trial.! 2 A| On retrial, Luna was again tried for and convicted of
first-degree murder and first-degree [*862] arson. Unlike [**5] the first trial, the
Commonwealth sought a finding of statutory aggravators on retrial. The jury found aggravating
circumstances and sentenced Luna to life imprisonment without possibility of probation or
parole. The trial court entered judgment accordingly.

II. ANALYSIS.
Luna presents for our consideration on appeal twelve issues, each of which we discuss in
turn.|3&l

A. We Reject the Commonwealth's Assertion that the Law-of-the-Case Doctrine Bars
Consideration of a Number of Luna's Issues on Appeal.
Before reaching Luna's substantive attacks on his conviction, we address the Commonwealth's
-attempt to rebut several-of-Luna's-arguments with the-law-of-the-case doctrine—As a general----matter, when referring to the law of the case, we are describing "a handful of related rules giving
substance to the general principle that a court addressing later phases of a lawsuit should not
reopen questions decided by that court or by a higher court during earlier phases of the
litigation."[4A] Within this handful of rules, one is of primary relevance for this case: "issues
decided in earlier appeals should not be revisited in subsequent [**6] ones."[si]To this end,
our case law has extended the law-of-the-case doctrine from only previously decided appellate
issues to "decisions of the trial court which could have been but were not challenged in a prior

appeal."[6*]
This extension of the doctrine is the gravamen of the Commonwealth's response to Luna's
arguments. The Commonwealth's view, taken to its end, would essentially preclude appellate
review of any issue that was not objected to in Luna's first trial. Our law-of-the-case

nf 35

7/7/7071. 10:37 AM

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Firefox

jurisprudence, primarily Commonwealth v. Schaefer,|7 at one point perhaps supported the
Commonwealth's position in the present case. But with our later decision in Brown, our
jurisprudence clearly no longer stands for such a proposition.
With regard to earlier trial court rulings, the law-of-the-case doctrine only applies "where a
ruling of law is made based on existing law and that ruling has gone unchallenged during the
original appeal."[i&] The issue must be presented to the trial court and the trial court must
affirmatively rule [**7] in order to trigger the law-of-the-case doctrine. Here, of course, Luna
has been before this Court previously, so the law-of-the-case doctrine is certainly potentially
applicable. Fatal to the Commonwealth's law-of-the-case argument, however, is its failure in the
present appeal to direct us to the record of Luna's original trial where the trial court ruled on the
merits of issues Luna now presents.l9±[ [*863] Because the Commonwealth is attempting to
use the-law-of-the-case as a shield against Luna's arguments, the Commonwealth bears-the----v hi#
burden of showing its applicability.(lOil
To apply successfully the law-of-the-case doctrine and bar Luna's present issues, the
Commonwealth must show that Luna's present issues were not only presented to the trial court
in the earlier proceeding but received an affirmative ruling from the trial court in that
proceeding. Potential errors that passed unpreserved by contemporaneous objection and ruling
in the earlier trial are not automatically cleansed by the law-of-the case doctrine for a reprise on
retrial. Simply stated, if inadmissible evidence came in without objection and a ruling by the trial
court in a first trial, a party opposing its [**9] admission at retrial must make an objection.
Thus, the Commonwealth's reliance On Schaefer is misplaced. While nearly all of the issues
presented by Luna involve evidence or issues that were present in the first trial, we are not
provided with any indication that the trial court ruled on them in the first trial. We can appreciate
the efficiency of the law-of-the-case doctrine in situations like the instant case where the
evidence presented on retrial is substantially similar and nearly identical in the case of some
witnesses. But we should not promote reliance on the law-of-the-case doctrine out of simple
convenience. Accordingly, we conclude that the law-of-the-case doctrine is not a bar to the
consideration of Luna's issues in the present appeal.

B. The Trial Court Properly Denied Luna's Daubert Challenge to the Commonwealth's
Arson Investigator.
We must admit to a degree of confusion regarding Luna's argument on this issue. Luna
seemingly vacillates between arguing the science behind the arson investigator's testimony is
faulty to focusing on the conduct undertaken by the arson investigator in compiling his report to
focusing solely on the conduct of the trial court. We are certain, however, [**10] that any error
in the admission of the arson investigator's testimony was harmless.
Luna's argument seems to be presented on two fronts: (1) the trial court's hearing conducted
under Daubert v. Merrell Dow Pharmaceuticals, Inc.,\lli.\ was unfair because the
Commonwealth did not produce its witness and (2) the hearing was cut short. In both the retrial
and the original trial, the Commonwealth presented testimony from the same fire-and-explosives
investigator from Kentucky's Office of the State Fire Marshal. This testimony, built upon
observations and analysis performed at the scene of the fire close in time to the fire's
extinguishment, centered on the arson investigator's conclusion that the fire [*864] was
"incendiary," i.e. intentionally set.|12&
When faced with the prospect of expert testimony under Kentucky Rule of Evidence (KRE) 702,
the general outline of the trial court's gatekeeping[l3role is to ask whether the expert
proposes to testify to scientific, technical, or other specialized knowledge that will assist the facttrier in understanding or determining a fact in issueJl4£l This requires the trial court to discern
whether the proposed testimony is both relevant and reliable. Relevancy, in this context, has
been repeatedly described as one of "fit":

4 of 35

7/7/2021,10:37 AM

:irefox

https://doc-advance.lexis.com/documentpririt/documentprintclick/...
'Fit' is not always obvious, and scientific validity for one purpose is not necessarily
scientific validity for other, unrelated purposes.... The study of the phases of the
moon, for example, may provide valid scientific[, technical, or other specialized]
issue, the knowledge will assist the trier of fact. However, (absent
creditable [**12] grounds supporting such a link), evidence that the moon was full
on a certain night will not assist the trier of fact in determining whether an__
individual was unusually likely to have behaved irrationally on that night.[l5Ji
Reliability, on the other hand, focuses on the "validity of the reasoning and methodology upon
which the expert testimony is based."fl6jfc] Taken together then, a trial court's overall inquiry is
"whether the reasoning or methodology underlying the testimony is scientifically valid and []
whether that reasoning or methodology properly can be applied to the facts in issue."[l7i
Whether a witness properly qualifies as an expert is within the scope of the trial court's
discretion. Accordingly, we review for an abuse of that discretion.|l8A Any factual
determinations made when reviewing an expert's reliability, however, we review for clear
error.! 19 A
While there is no immutable rule that a trial court conduct a hearing on the admissibility of a
potential expert's testimony, [**13] [20 a] rare is the situation where a hearing is not necessary.
A trial court should refrain from ruling without the benefit of a hearing except in the narrow
[*865] instance "when the record before it is complete enough to measure the proffered
testimony against the proper standards of reliability and relevance."[21i] Determining the
admissibility of expert testimony on an inadequate record is an abuse of discretion.
Before the retrial, Luna filed a motion challenging the reliability of the arson investigator's
testimony under the requirements of Daubert. The trial court conducted a Daubert hearing to
receive testimony on the science and methodology at issue.
First, Luna argues the Daubert hearing was improper because the Commonwealth was not forced
to produce the arson investigator and the burden was effectively shifted to Luna because he was
forced to produce witnesses first. Luna's argument is both meritless and a mischaracterization of
the record. At the Daubert hearing, counsel for the Commonwealth noted that he and Luna's
counsel had agreed to allow the Commonwealth to wait until the close of Luna's proof before
producing any witnesses. Practicality was the basis [**14] for this agreement: The
Commonwealth wanted to avoid bringing lab technicians and the arson investigator to Trigg
County from Frankfort until their physical presence in the trial court was necessary. Whether this
was an appropriate agreement of counsel is of little meaning. The point is, Luna's counsel agreed
to conduct the hearing in the order Luna now contends was erroneous. We obviously reject this
notion.
Second, Luna contends the trial court abused its discretion by ending the hearing before
mandating the Commonwealth produce witnesses. This argument is likewise meritless. Toward
the end of Luna's proof regarding the science used by the Commonwealth's arson investigator,
the trial court interrupted and inquired pointedly into Luna's goal for the Daubert hearing. The
trial court then concluded that there had been no proof put forward by Luna that called into
doubt the science underlying the report of the Commonwealth's arson investigator. In fact, all of
Luna's witnesses recognized the arson investigator used valid science, albeit riot their preferred
method. Luna now argues that without requiring the Commonwealth to produce the arson
investigator to testify at the hearing, there [**15] was no way for the trial court to make a
determination of whether the arson investigator had reliably applied his methodology to the facts
of this case
We remind Luna that a Daubert hearing is not required. Of course, a trial court making a finding
on an inadequate record abuses its discretion. But, important here, it is worth re-emphasizing
that "the record upon which a trial court can make an admissibility decision without a hearing
will consist of the proposed expert's reports, affidavits, deposition testimony, existing precedent,
and the like."[22A| The trial court has more than just the testimony at a Daubert hearing at its
disposal to determine the admissibility of expert testimony. Given the record, the trial court did
not find it necessary to hear live testimony from the arson investigator himself.) 23 A| The arson
investigator's report, detailing his findings and methodology, was available to the trial court.
That may have been sufficient to indicate the arson investigator [*866] reliably applied his

of ^

nnnm i in.n \\x

Firefox

https://doc-advance.lexis.com/documentprint/docuinentprintclick/...

methodology to the facts of this case, especially given the fact that no witnesses were produced
challenging the arson investigator's science as "junk science." Most, if not all, of the issues
Luna [**16] raises with regard to the trial court ending the hearing involve weight not
admissibility.!24 Al Furthermore, the trial roiirtnateriJlialUj.m.a^.ay-qtiti-tove-arHarqufnent------under KRE 403—exclusion of otherwise relevant information substantially outweighed by danger
of undue prejudice or confusing or misleading the jury—he just had not presented a sufficient
argument under KRE 702.
Because controlling the order of a Daubert hearing rests within a trial court’s discretion, great
leeway is warranted to allow the trial court to develop the record it needs to make a sound
determination. The instant Daubert hearing may be considered unorthodox, but it cannot be
considered arbitrary, unfair, or unsupported by sound legal principles, in light of the record and
evidence-125 Al
In any event, even if, for the sake of argument, we found, error in the Daubert hearing conducted
by the trial court here, that error would undoubtedly be harmless. To reach his "incendiary”
conclusion, the arson investigator used a hydrocarbon detector, often called a "sniffer," in an
attempt to detect the presence of any accelerants, e.g. gasoline, kerosene. The problem,
according to Luna, is a hydrocarbon detector is unreliable for purposes of Daubert. Luna's
witnesses at the Daubert [**18] hearing testified that while a hydrocarbon detector is a valid
scientific device or technique, it reacts to far too many substances to provide any meaningful
results. As one of Luna's witnesses put it, the device is merely a gross survey tool. All involved
agree that the hydrocarbon detector is not the gold standard in accelerant detection. That award
seems to go to gas chromatography-mass spectrometry. But*the arson investigator
acknowledged at trial the device's limitations—including the likelihood of false positives—and
identified the hydrocarbon detector as only one factor in labeling the fire "incendiary."
In fact, the Commonwealth's arson investigator relied on a great deal of physical indicators at
the scene, wholly outside the results he received from the hydrocarbon detector, to reach his
conclusion. During his testimony, the arson investigator looked at the debris, the path traveled
by the fire, the lack of significant "fire load"! 26 A| in the area where Hendrickson's body was
found, and the severe and localized damage to the floor where Hendrickson's body was found.
He acknowledged that the hydrocarbon detector was incapable [*867] of indicating what
hydrocarbon was detected, but rather, [**19] only that a hydrocarbon was present. For him,
the device was only used to determine where to gather samples and send to the lab for better
testing, i.e. gas chromatography-mass spectrometry. Finally, the arson investigator gave a
detailed rundown of the steps he goes through in investigating fires.[27; Aj These responses were
elicited through both the Commonwealth's direct and Luna’s cross-examination. Put simply,
allowing the arson investigator to give an opinion as an expert—a status not actually disclosed to
the jury—did not substantially sway the jury. We understand that labeling the fire "incendiary"
was prejudicial to Luna, especially in light of the fact that no accelerants were ultimately found.
But in light of the arson investigator's testimony that acknowledged the limits of the
hydrocarbon detector and identified various other reasons for labeling the fire incendiary,
coupled with Luna's cross-examination and presentation of witnesses tending to discredit the
arson investigator, any Daubert error by the trial court was harmless.

C. Because Hendrickson's Prior Statements Were not Hearsay, They Were Admissible.
The Commonwealth sought the admission of various statements made by Hendrickson to others
regarding Luna's abusing her and forcing her to participate in various schemes to defraud her
insurance company. Luna argued the statements were inadmissible hearsay. Following a pre-trial
hearing spanning two days, the trial court allowed the proffered statements to be admitted into
evidence at trial, despite Luna's objection. The ground for allowing [**21] these hearsay
statements into evidence was the little-used exception to hearsay's general rule of exclusion:
KRE 804(b)(5), forfeiture-by-wrongdoing.
The various statements the Commonwealth sought to admit were discussed in detail at the twoday hearing on admissibility and are summarized below:

6 of 35

7/7/2021,10:37 AM

;irefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
• Janice Level, Hendrickson's sister, testified that Hendrickson informed her of
various problems Hendrickson as having with Luna, that he had threatened her, and
was just overall abusive to her.
• Bridget Dehart, a friend of Hendrickson’s, testified that Hendrickson told her Luna
wanted Hendrickson to report v the Firebird on her insurance, that Luna forced her
to drive him to Illinois at knifepoint, and that Luna assaulted her by pushing her
into a coffee table and potted plant.
• Jeriy Dehart, a friend of Hendrickson's, testified that Hendrickson told him about
Luna pushing her into the coffee table and potted plant. Jeriy also testified he
worked on Hendrickson's truck once after she told him Luna had driven it, and he
found that the fuses had been removed.
• Judy Brown, Hendrickson's friend and co-worker, testified that Hendrickson told
her Luna was dangerous and scared her. Hendrickson also told [*868]
Judy, [**22] on the Friday before her death, that she wanted to buy Judy's truck
so Luna would stop trying to get her vehicles and just go back to Illinois and leave
her alone.
• Progressive Insurance agent Caleb McGrath testified that he initially talked to
Hendrickson when she called about pursuing a theft and fire claim on her Pontiac
Firebird. The next day, Hendrickson called him crying so much he could barely
understand what she was saying. Hendrickson told McGrath that she. wanted to
come clean—Luna had coached to tell McGrath the car was stolen and to report the
claim to Progressive. According to Hendrickson, Luna got her insurance information
and reported the claim without her knowing after she told Luna she did not want to
lie about the claim.
• Progressive Insurance agent Will Purdue testified that Hendrickson told him Luna
told her to tell the police she was driving the Chrysler at the time of the wreck.
• Gary Seiavitch, a Progressive employee, worked on Hendrickson's Chrysler claim.
Hendrickson told Seiavitch that Luna had physically abused her and forced her to
drive him to Illinois at knifepoint. Seiavitch also testified that Hendrickson showed
him a bruise and indicated Luna hit her. [**23]
• Deputy Jason Ivey, Marshall County Sherriffs Department, asked Hendrickson
about filing charges on the Firebird, which was allegedly stolen and burned.
Hendrickson refused and told Deputy Ivey she was scared.
• Officer Kelly Drew testified that he went to Hendrickson's trailer looking for Luna
for an unrelated matter. He observed injuries on Hendrickson and asked about how
she got them. Hendrickson told him that she had been assaulted by Luna and
claimed to have already reported it.
• Deputy Brett Edwards testified that on August 30, 2007, he called Hendrickson to
follow up on a previous 911 call by Hendrickson. On the phone, Hendrickson told
Edwards that if her trailer were to burn, Luna would be the one who did it.
Hendrickson told Edwards Luna had threatened to bum her trailer down and had
made threats to kill her and burn her up in the trailer.
• The 911 call that served as the purpose for Edwards's call to Hendrickson was
played for the jury. In it, Hendrickson states that while not emergency, she called
just in case something happened to her trailer while she was at work the next day.
The general theme of the Commonwealth's evidence was Luna's pursuit of various insurancefraud [**24] schemes in which Hendrickson was at most a reluctant participant. Furthermore,
Luna was a convicted felon in Illinois and the terms of his probation prohibited him from leaving
Illinois. Yet, Luna came.to Kentucky regularly where he was involved in various crimes. Luna
involved Hendrickson by coercion—sometimes physical coercion—all the while violating terms of

nf IS

-rnnm\ in-n am

https://doc-advance.lexis.com/documentprint/documentprintclick/...

rirefox

his felony probation. According to the Commonwealth then, Luna faced the possibility of multiple
criminal sanctions or initiation of criminal proceedings as a direct result of Hendrickson's
to
the authorities, which, perhaps along with Luna's desire to acquire Hendrickson's tmck,
motivated him to kill her.
In support of this theory, the Commonwealth put on a large amount of proof, [*869]
summarized in the following timeline from the trial court's order:
• In 2007, Luna was in the final stages of his involvement in an arson of his
residence in Illinois, which occurred4n-Deeember-2O04—the-same-fire-for-whieh-----Progressive Insurance later obtained a civil judgment against Luna on July 13,
2007. The next day, Luna set fire to his Firebird in Marshall [**25] County in order
to collect on it from Progressive Insurance.
• Luna proceeded to pursue a claim on the Firebird through Hendrickson, who he
was residing with at the time. Luna specifically enlisted her in the effort by having
her falsely state to an insurance claims adjustor that she was, in fact, the owner of
the Firebird and the car had been stolen from her. Her insurance was Progressive
Insurance. Progressive, however, was suspicious and engaged in a closer
investigation of the claim.
• During the entire time period of July 2006 through September 7, 2007, when
Luna ultimately murdered Hendrickson, Luna was under an order of probation
supervision from Franklin County, Illinois. Among other things, the conditions of the
order required him to not violate any criminal statutes and to remain within the
State of Illinois. Luna did seek an exception for employment in June 2007.
• On July 17, 2007, Luna called Progressive to file a claim that his Firebird had
been stolen. On the same day, Hendrickson reported to Progressive that the
Firebird had been stolen from her garage the previous weekend.
• On July 18, 2007, Hendrickson, crying and upset, contacted Progressive. She told
the agent she [**26] was so upset that she could not go to work that day.
Hendrickson informed the agent that the Firebird had not been stolen; in fact, Luna
had taken it from her home on Saturday, July 14, 2007, and returned the same day
without it, claiming the car caught on fire. Hendrickson then told the agent that
Luna had coerced her into filing a claim with Progressive by stating she was
purchasing the Firebird from Luna. Hendrickson said she did not want to pursue the
claim, but Luna had taken her insurance card and reported it. Finally, Hendrickson
told the agent that Luna was present while she made the original call to Progressive
on July 17, but had left midway through the conversation. In a subsequent call on
July 18, Hendrickson informed a Progressive agent that Luna had taken her
Chrysler 300M to Illinois and she did not wish to pursue the claim on the Firebird.
The notes taken by the agent during the call reflect Hendrickson's fear for her life
and recount Hendrickson informing the agent that Luna had physically assaulted
her.
• On August 8, 2007, Luna was pulled over in Illinois while driving Hendrickson's
Chrysler 300M and charged with driving on a suspended license. As a result, Luna
was [**27] ordered to appear in court on September 11, 2007; and, based on this
charge, the Franklin County (Illinois) prosecutor sought revocation of Luna's felony
probation and an arrest warrant on August 28, 2007.
• August 15, 2007: Luna contacted Progressive to pursue the fraudulent claim
relating to the Firebird. According to the agent, Luna then put Hendrickson, who
was audibly upset and uncontrollably crying, on the phone. Hendrickson told the
agent she was uncertain about what to do.
• [*870] Luna then stole Hendrickson's Chrysler 300M, wrecked it, and
proceeded to enlist her in pursuing a false insurance claim for that damage;
specifically, Luna attempted to have Hendrickson inform the insurance company she

8 of 35

7/7/2021,10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
was driving the car by herself when she wrecked it. Hendrickson went along with
this plan at first, but quickly had misgivings and informed both Progressive and the
Marshall County. Sheriffs Office that Luna had instructed her to lie. Luna was aware
of Hendrickson's disloyalty.
• August 29, 2007: an officer with the Marshall County Sheriffs Office visited
Hendrickson's trailer to speak with Luna on an unrelated matter. While there, he
observed visible injuries on Hendrickson, which were apparently [**28] inflicted by
Luna according to Hendrickson. Hendrickson also told the officer Luna had ordered
her to vacate her home.
• September 7, 2007: Luna heard Hendrickson tell how Luna had enlisted her in the
insurance fraud schemes and that she had turned him into investigators. This was
the day of Hendrickson's murder.
The Commonwealth's arrangement of a timeline documenting Luna's activity, both with
Hendrickson and without, helped illustrate more clearly the schemes undertaken by Luna and
Hendrickson. His partner through it all, Hendrickson was the only individual who could implicate
Luna in any of these crimes. It nearly goes without saying that her betrayal would have weighed
heavily on Luna.
Hearsay is an out-of-court statement offered to prove the truth of the matter asserted.[28*]
Contrary to the overarching lean toward admission throughout our evidence law, hearsay is
generally not admissible unless the. statement fits within an exception provided in our rules.
Forfeiture-by-wrongdoing is one such exception based upon the timeless concept that an
individual should not be permitted to profit or gain from improper conduct.
We have had little opportunity to mold the scope of the forfeiture-by-wrongdoing [**29]
exception. In Parker v. Commonwealth, our most extensive treatment of KRE 804(b)(5) to date,
we declared it was "no longer sufficient [] simply to show that a defendant caused the
declarant's absence; rather, the forfeiture-by-wrongdoing exception to the confrontation clause is
applicable 'only when the defendant engaged in conduct designed to prevent the witness from
testifying."'] 29*| And we mandated trial courts to hold an evidentiary hearing before ruling on
the admission of hearsay under the forfeiture-by-wrongdoing exception. At such a hearing, the
proponent of the evidence bears the burden to show "good reason to believe that the defendant
has intentionally procured the absence.of the witness, after which the burden then shifts to the
opposing party to offer credible evidence to the contrary."(30*]
Our decision in Parker relied heavily on Giles v. California,\31*1 in which the Supreme Court
interpreted the boundaries of the forfeiture-by-wrongdoing exception when dealing with
testimonial statements under the confrontation clause. According to the Supreme Court, when
dealing with testimonial statements, the proponent of the [*871] evidence must prove the
defendant intended to prevent the witness from testifying. [**30] This, of course, begs the
question: what is required for nontestimonial statements?
Luna spent much ink attempting to highlight the distinction between nontestimonial and
testimonial statements for purposes of the forfeiture-by-wrongdoing exception. In the end, the
distinction is of no real importance because of the language of KRE 804(b)(5).|32*| Hearsay will
only be admissible under the rule if offered "against a party that has engaged in or acquiesced in
..wrongdoing that was intended, to, and did, procure the unavailability of the declarant as a
witness."
Recently, Michigan reached this same conclusion because of substantially similar language. In
People v. Bums, the Michigan Supreme Court held that while "the United States Constitution
does not prevent the states from crafting a forfeiture-by-wrongdoing exception for
nontestimonial hearsay that does not require any proof of a defendant's specific intent[,] but the
plain language of our court rule in fact incorporates [**31] the specific intent requirement at
issue in Giles."[33*] The Giles Court even recognized this point with the federal rule's language:
"Every commentator we are aware of has concluded the requirement of intent [in FRE
804(b)(6)] means that the exception applies only if the defendant has in mind the particular
purpose of making the witness unavailable."[34*]
Of great importance to our review of the trial court's analysis is the fact that the

of 35

7/7/2021. 10:37 AM

-irefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Commonwealth's burden to establish a basis for application of the exception was a
preponderance of the evidence: "evidence which is of greater weight or more convincing than
the evidence which is offered in opposition to it."|354j Luna's opposition evidence attempted to

diighlighit-holes-in.the-CommoR-wealthis-grand-Vjew-of-Luna!s-crimeT-essentially-creating-------------reasonable doubt. But reasonable doubt can exist at this portion of the trial.[364] The
Commonwealth is not required to disprove all possible alternative theories or doubts that may
exist; rather, it is only required to produce enough evidence to outweigh the evidence produced
in opposition.
We will grant, though, that the Commonwealth's presentation of evidence does seem to require
intent to be inferred from Luna's conduct. In Parker, we allowed this inference: "[T]he trial
court—and later the jury—could certainly have reasonably [*872] inferred from all of the
unique facts and circumstances [**33] of this case that Parker was motivated to kill Stephenson
in order to prevent him from testifyingf.]"|374 While we also noted in Parker that this inference
satisfied the requirements of Giles, we must admit that Giles is not clear on that point. In fact,
the discussion between the majority and dissent in Giles seems to pivot on whether intent can
be inferred from the defendant's conduct, with the majority requiring evidence of specific intent
and the dissent arguing intent can be inferred—so called knowledge-based intent] 38 4
Perhaps this context is where the distinction between testimonial and nontestimonial becomes
real. Giles and its specific-intent requirement govern only testimonial statements protected by
the confrontation clause of the United States Constitution. Our evidentiary rule operates [**34]
for nontestimonial statements and, as such, could be interpreted to allow an inference of intent.
This inference has long been recognized in our law: "Whether a defendant actually has an intent
to kill is a subjective matter[, but a] defendant may be presumed to intend the natural and
probable consequences of his act[;] and thus a jury is entitled to findjin intent to cause death
from an act of which death is a natural and probable consequence."(394
This discussion is largely philosophical in this case, however, because even if we assume that the
Commonwealth has not shown the specific intent of murder for the forfeiture-by-wrongdoing
exception, the evidence is admissible because it is not hearsay. Indeed, no hearsay exception,
forfeiture by wrongdoing or otherwise, is necessary as Hendrickson's statements were not
offered for the truth of the matter asserted, e.g. whether Luna actually abused her or made her
drive him to Illinois at knifepoint. By introducing the statements, the Commonwealth was not
seeking to prove Luna actually did abuse Hendrickson. The statements were offered, instead, to
paint a picture of why Luna may have been motivated to kill Hendrickson or how he planned
to [**35] commit insurance fraud. As a result, the statements are less like hearsay and more
akin to prior-bad-acts evidence offered for "some other purpose" as allowed under KRE 404(b).
KRE 404(b) operates to exclude "[e]vidence of other crimes, wrongs, or acts" which is admitted
in an attempt "to prove the character of a person in order to show action in conformity
therewith." It is important to be vigilant with this type of evidence because it can be highly
prejudicial, effectively convicting the defendant because of who he is rather than what he is
charged with doing.|404] Our rules recognize a narrow set of circumstances where prior-badacts evidence is admissible: (1) when offered for "some other purpose, such as proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or absence of mistake or accident";
or (2) if the prior-bad-acts evidence is "so [*873] inextricably intertwined with other evidence
essential to the case that the separation of the two [] could not be accomplished without serious
adverse effect on the offering party.j4l4
Here, the statements made by Hendrickson prior to her murder were offered for the purpose of
motive, preparation, or plan. That does not end our inquiry, however. We must [**36] still make
the general relevancy and probative—value determinations required of other evidence admitted
at trial.[424 The trial court did not make explicit findings on the record, but we find that error to
be harmless, to the extent that it is error. First of all, the evidence is certainly relevant—the
evidence makes the existence of Luna's mental state and motive, a fact of consequence to the
determination of the action more probable than it would have been without the evidence. 434[
The question then becomes, under KRE 403, whether the probative value of the evidence is
substantially outweighed by the danger of undue prejudice. The simple answer is no. The
evidence is, of course, prejudicial to Luna as all ^/idence of culpability is in a criminal
proceeding. The evidence is not, however, unduly prejudicial because it is not unnecessary or

10 of 35

7/7/2021, 10:37 AN

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
unreasonable. 44sfe
Before both this Court and the trial court, Luna and the Commonwealth have disputed the issue
tmder-the forfeiture-by-wrunyduing exception. Neither party has argued Hendrickson's
statements were not hearsay. Of course, we can affirm [**37] a lower court's decision on any
g rounds.[45±| Luna did not receive a fundamentally unfair trial as a result of the admission of
Hendrickson's statements.

D. Luna's Conduct at the Illinois Police Station was Improperly Admitted.
At trial, the Commonwealth was permitted to introduce the following detailed account of an
altercation Luna had with police while awaiting booking after being arrested. While handcuffed,
Luna arose from his chair and began approaching a trooper who was seated in front of his
computer. Another trooper.noticed Luna's advance and yelled, "Get back!" The seated trooper,
much to his surprise, turned around to find Luna standing over him. In what can be considered
an instinctual reaction/the trooper shoved Luna away from him. Luna lost his balance as a result
of the trooper's shove and tumbled backward, striking his head on a nearby bench. As Luna
arose from the floor, he was highly agitated and began demanding to be bonded out, going so
far as to threaten both the trooper and the trooper's family if he were not bonded out. [**38]
He was later transported to the hospital where he received four staples in his head to close his
wound.
Luna challenges this account as highly prejudicial and irrelevant prior-bad-act evidence under
KRE 404(b). Specifically, Luna asserts that the admission of the [*874] story characterized
him as a dangerous and violent person prone to outbursts. The Commonwealth, on the other
hand, counters that the evidence cannot be unduly prejudicial because it was admitted at the
first trial without objection; and the evidence is not irrelevant because Luna's being combative
and aggressive is probative of his guilt. Furthermore, the Commonwealth compares the evidence
of Luna's altercation with Illinois police with evidence of flight, which is probative of guilt and
admissible. We cannot accept any aspect of the Commonwealth's argument.
We have already rejected the Commonwealth's attempt to use the law-of-the-case doctrine so
we will not discuss it further. And the Commonwealth's attempt to analogize this altercation to
flight is specious. Taken to its conclusion, the Commonwealth's argument would essentially have
us support the ridiculous notion that a defendant who flees from a crime into a neighboring state
is [**39] in "flight" until the moment he is delivered into the hands of Kentucky authorities.
Luna was not on the run when the altercation occurred; instead, he was sitting in an Illinois
police station, handcuffed. It is of no import that it was an out-of-state police station and the
charged crime occurred in Kentucky. It cannot be argued that a defendant, under arrest, is
fleeing from a crime simply because he demands to be released on bail. Moreover, the evidence
of the altercation is riot inextricably intertwined with the Commonwealth's other evidence. The
Commonwealth desired to introduce the altercation in order to explain why Luna was in the
hospital when he made an incriminating statement to police. The details of the altercation,
especially the threats made by Luna, are not necessary to provide that context.[46&| The trial
Gourt abused-its discretion-in allowing the-evidence to be admitted into evidence at trial.[47&]
But admitting this evidence was harmless error. Luna's statement to police and Luna's own trial
testimony included mentions of the police-station altercation, admittedly in less detail.
Considering the amount of evidence supporting Luna's role in Hendrickson's murder, we do not
believe this prior-bad-acts evidence substantially swayed the jury to convict Luna of first-degree
murder or first-degree arson.

B. The Commonwealth's Cross-Examination of Luna was Improper but not Reversible
Error.

I of 35

•

\ r\.^n

aw

;irefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

In our 2010 opinion, we held that the mention of various fires in Luna's past was erroneous
because there was no evidence indicating that Luna was responsible for the fires. Specifically, we
held the mention of three previous fires at Luna's residence in Illinois was erroneous. However,
■we
and knowledge of how to start a fire. At the instant trial, during cross-examination the
Commonwealth asked Luna about these past fires.
[*875] During cross-examination of Luna, the Commonwealth [**41] asked Luna about three
fires that occurred at Luna's former residence in Illinois. In addition, the Commonwealth asked
Luna about an apartment fire that occurred in the early 90s. That fire occurred at Luna's building
but Luna denied having anything to do with it. Likewise, Luna denied having anything to do with
the previous fires at his home, with the exception of a fire in his garage, which he admitted to
starting accidentally with a cigar after spilling some gasoline. Luna did acknowledge receiving
insurance proceeds from the previous fires. The Commonwealth did not present any evidence
Luna was responsible for the fires.
With regard to this issue, the record of the present trial presents two key facts that are different
from the trial record we faced in 2010: (1) the Commonwealth did not call Robert Davis as a
witness in the retrial; and (2) Luna took the witness stand in the retrial and testified on his own
behalf. The former is noteworthy because Davis is the witness through which the Commonwealth
introduced the Illinois fires we held to be erroneously admitted. The latter is noteworthy because
Luna was given the opportunity to present his side of the story about not only what [**42]
happened that fateful night, but also his history and his relationship with Hendrickson. But those
differences aside, the fact remains that in our 2010 opinion we said unequivocally that the
Illinois fires were irrelevant because the Commonwealth could not present sufficient evidence to
allow the jury to conclude reasonably that Luna was responsible for them.)48&
That we are now dealing with the same Illinois fires) 49&) we previously held were inadmissible
under KRE 404(b) is astounding. The Commonwealth is right in one—and only one—regard: our
holding in 2010 did not prohibit the Commonwealth from cross-examining Luna on retrial or
from mentioning the word "fire." But the Commonwealth appears to believe that the only
problem with the Illinois-fire evidence was that it was admitted in the first trial through Davis
and that by not calling him on retrial any error is somehow eliminated.lso&l
The Commonwealth's arguments miss the point entirely. It was not simply the manner in which
the Illinois-fire evidence was admitted, but the content.[si&] Indeed, KRE 404(b) is not designed
to police how evidence is admitted, but rather what that evidence says about the defendant.
Whether it is admitted through cross-examination or through Robert Davis, this evidence is
inadmissible under KRE 404(b) because the evidence is insufficient for a jury to conclude
reasonably that Luna set [*876] the past fires. We were clear, so we thought, in 2010 that the
Commonwealth needed to introduce more evidence relating to Luna's involvement in past fires.
In a truly remarkable response to our directive, the Commonwealth has actually introduced less.
Because of this, the evidence remains inadmissible and should not have been allowed.
Luna's counsel made no timely objection during the Commonwealth's questioning of Luna, with
the exception of a single instance in response to the Commonwealth's comment about the
apparent irony of Luna formerly living on Coai Street in Illinois. Following that objection, the
Commonwealth withdrew the question and Luna did not request a jury admonition.|52±j As a
result, Luna relies primarily on a pre-trial objection for preservation of the admission of the
prior-bad-acts evidence at trial.
We have recently observed that pre-trial objections are sufficient to preserve an issue for
appellate review.j53itj And our evidence rules mandate this view: "A motion in limine resolved
by order of record is sufficient to preserve error for appellate review.")54&) Here, the
Commonwealth presented notice of its intent to introduce prior-bad-acts evidence and Luna filed
an objection. The basis for Luna's objection [**45] was essentially what we held in 2010—the
Commonwealth's evidence linking Luna to the prior fires was insufficient. In its initial order, the
trial court ruled the evidence admissible after appropriately going through the Bel(55 i] test and
weighing the probativeness, relevancy, and prejudice of the evidence. Luna then filed a motion
seeking reconsideration of the order and requesting more specific findings of fact. This
subsequent order, in all candor, raises a degree of confusion regarding whether Luna's allegation
of error is properly preserved. The trial court essentially delayed ruling on the admission of the

12 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
proposed evidence, noting that "this issue, like the rest of the issues before the court, will
ultimately be determined at trial based upon the evidence presented." Going further, the trial
court held:
me court's ruling on January 20, 2012 does not give the Commonwealth a free
hand presenting its case with no constraints. The ruling simply puts defendant on
notice that if the Commonwealth meets its burden based on the Supreme Court's
opinion from the first trial, it may then introduce evidence of the . trailer and house
fires. The prior ruling of the Supreme Court said the Commonwealth [**46] failed
to meet its burden in the first case, but that does not serve to prohibit the
Commonwealth from seeking to meet that burden in this trial. As for the court
making specific findings, the court will do its job at the trial. The court does not
believe defendant is entitled to such at this point.
The trial court's reasoning unnecessarily engenders confusion because it is not readily apparent
if the trial court has truly resolved a motion in limine with an order of record as required by KRE
103(d). Rather, it seems the trial court has only postponed resolution of the motion. In [*877]
light of our procedural and evidentiary rules this action makes little sense.
It is certainly within a court's discretion, pending the introduction of more evidence, to delay
ruling on a motion. That said, the delay of a ruling until the middle of trial is problematic and
should be discouraged. As this case illustrates, it is difficult to link the prior bad acts to a party
without essentially disclosing the prior bad acts. In nearly all material aspects, a delayed ruling
becomes no ruling. Here, the trial court forbade the Commonwealth from introducing "evidence
of the trailer and house fires" without first [**47] meeting its burden, which, of course, begs
the question: how does the Commonwealth meet its burden without introducing some evidence
of the trailer and house fires? It seems to us difficult to link a defendant to a prior bad act
without mentioning the prior bad act.
Best practice, in our opinion, dictates that a trial court conduct a hearing and make an
affirmative ruling before trial.f56 A] The proponent of prior-bad-act evidence under KRE 404(b)
should be prepared to present sufficient evidence at the hearing to allow a jury to conclude
reasonably that the opposing party—defendant, here—was the actor. A delayed ruling in this
instance does little to promote the purpose of KRE 404(b), KRE 103(d), or motions in limine in
general. Of course, if new evidence comes to light after the trial court’s ruling, a party may
always request a trial court reconsider its ruling in light of the new evidence. This accomplishes
the same objective the trial court sought here, but does so within the procedural framework we
have built to protect parties' rights.
An objection at trial would have made preservation more clear, of course, but its absence is not
fatal in this particular instance. In any event, whether we consider Luna's s pre-trial objection
sufficiently preserved for appellate review is largely immaterial because the error is harmless for
a several reasons. At most, the prior-bad-act evidence indicated that Luna had the knowledge
necessary to start fires. But, Luna repeatedly denied association with the fires and gave
reasonable explanations for his lack of participation. Evidence of Luna's fire knowledge was not
overly prejudicial given Luna's admission that he did start the fire in his [**49] garage. The
evidence at issue here, moreover, pertained primarily, if not solely, to Luna's first-degree arson
charge—a charge which we resolve in Luna's favor later in this opinion. Mentioning previous fires
has little, if anything, to do with murdering Hendrickson by striking her in the head with a blunt
object.
Given the totality of the evidence indicating Luna's guilt and the short period of questioning at
issue, we do not find the Commonwealth's cross-examination affected the judgment or the trial's
underlying fairness to a degree warranting reversal.

F. The Illinois Civil Judgment Against Luna was Properly Admitted.
Luna next challenges as error the trial court's decision to allow the Commonwealth's [*878]

3 of 35

innm\ inv7

aivi

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

"irefox

introduction of a civil judgment against Luna. The judgment, obtained by Progressive Insurance,
stemmed from a prior fire at Luna's residence in Illinois. Progressive paid under the policy
shortly after the fire, but later filed a civil action against Luna and his then-fiancee. Eventually,
—on-July-4-37-2Q07T-Progr-ess4ve-obtained-a
were not entitled to coverage because of a misrepresentation during the policy application. The
misrepresentation [**50] was made by Luna's then-fiancee. The date of the judgment is
important because it is the day before Luna's Firebird burned, for which Luna fraudulently
attempted to recover insurance proceeds.
Luna's singular focus on the fact that he was not responsible for the misconduct that led to the
civil judgment is misguided. Liability is not why the judgment is relevant. The judgment is
relevant for what it orders, and, more specifically, the financial implications of what it orders.
Simply put, the judgment placed a financial burden on Luna. And we have acknowledged in
various contexts that "the state of [a defendant's] finances'is relevant to whether he had a
motive"! 57 &1 to commit the crime for which he is charged. That holds true with Luna. The
judgment and its associated financial burden bolster Luna and Hendrickson's insurance-fraud
scheme, which we have already discussed in detail as being relevant to Luna's motive for
murder.
Luna challenges the judgment's relevance by arguing that he did not receive a copy of the
judgment until discovery during trial for Hendrickson's murder, so he could not have burned the
Firebird with that judgment debt in mind. That may be true, but Luna's [**51] purported lack of
knowledge does not affect the admissibility of the judgment. Instead, the possibility that Luna
may not have known of the judgment goes to the weight the jury may decide to afford the
judgment during its deliberation. Furthermore, the entry of the judgment did not serve to
mislead the jury as Luna argues. The insurance fraud scheme, while complex at times, was a
central point in the Commonwealth's theory. Rarely will evidence directly pertaining to the
central point of a theory in issue at trial mislead the jury. The opposite will virtually always be
true. This case does not present one of those rare situations. There was no error in the trial
court's admission of the judgment.

G. Luna was Improperly Asked to Characterize the Testimony of Other Witnesses, but
this Error was Harmless.
During cross-examination, the Commonwealth asked Luna a series of questions revolving around
whether Luna believed the other witnesses at trial were lying. Luna argues he was deprived of a
fair trial because of this line of questioning. We agree that the questioning was improper, to a
degree, but find any associated error to be harmless to the extent it drew an objection. Of
course, we [**52] do not find the error to be palpable.
We have consistently recognized as improper questioning that asks the witness to characterize
another witness's ostensibly divergent testimony as being untruthful.(ssaJ "Such a
characterization places the witness in such an unflattering light as to potentially undermine his
entire testimony."!59 A| [*879] Because of the Commonwealth's mode of questioning here, it
bears emphasizing again that "[c]ounsel should be sufficiently articulate to show the jury where
theTestirriony of the "witnesses diffeFwithout resort toblurit force"."[Soi] Admittedly, we have not
yet found such a characterization to rise to palpable error under our RCr 10.26.
At trial, the following exchange between the Commonwealth and Luna took place:
Luna: I went to hand her the phone, and Deb was upset about the fact that her car
had just been wrecked and about the fact that you know I was - my leg was
infected and I was going to have to go, or had gone to the doctor, going to have to
go.
Commonwealth: Go on. You can go on.
Luna: Oh, I'm done.

14 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
Commonwealth: So, she's uncontrollable, she's crying, she's sobbing, you put her Luna: No, she wasn't uncontrollable, but, he writes that in his notes that it was, he
can [**53] tell that story if he wants.
Commonwealth: All right, well, between Caleb McGrath and the guy who's on trial
for murder, I think the guy on trial for murder has an incentive to kind of bend
things his way, would you agree with that? Luna: Urn, shoot. I'll tell you maybe
Caleb McGrath has a reason, he's a Progressive agent, I've had problems with
Progressive they Commonwealth: It's amazing.
Luna: Maybe they have a biased opinion, maybe there's some bias Commonwealth: It's amazing.
Luna: As a matter of fact, in his policy they said they ha a previous with me, with
Progressive, which is the one that I was sued over, so he did know about this Commonwealth: Right, you're
Luna: So -

i

Commonwealth: You're a suspicious person because you keep filing fraudulent
claims with Progressive, it’s a reasonable assumption.
Luna: I've never filed a fraudulent claim with Progressive.
Commonwealth: You filed a claim on the shed fire after lying on their policy.
Luna: I never lied on anything. I never - you have the paperwork, you know Commonwealth: Marcia lied, everybody lies, everybody is lying but you.
Luna: Yeah, well you know I didn't speak with people. You have the paper Commonwealth: Is everybody lyint [**54] but you?
Luna: I don't know what everybody's doing.
Commonwealth: The Deharts, Bobby Davis, these officers, Detective Hilbrecht,
everybody coming in this courtroom At this point, the defense roused to offer an objection to the questioning. The Commonwealth
argued at the ensuing bench conference that Luna had opened the door to this line of
questioning by testifying that Caleb McGrath was lying when he stated, "he can tell that stoiy if
he wants." The trial court agreed and overruled the objection. Following the objection, the
Commonwealth asked Luna: "So, everybody, all of these witnesses, I mean we [*880] have
had over I don't even know how many witnesses, over thirty witnesses, came in here and
testified about their experience with you, and poor Deb Hendrickson. And every one of them is
out to get you? Is that right?" Luna replied, "That's your story."
We consider it fairly debatable whether Luna's testimony that Caleb McGrath was telling a
"story” constituted a comment on another witness's veracity. But the defense failed to object in a
timely fashion, rendering the issue unpreserved—at least the majority of the issue. Although we
are troubled by the Commonwealth's conduct of the cross-examination [**55] of Luna and
cannot emphasize enough that blunt force is never an acceptable trial strategy, the error does
not rise to the level of palpable, as we recognized in Moss.
The Commonwealth's questioning did not create a palpable error. In fact, the error was harmless

5 of 35

7/7/9091 1(VT7 AM

nrefox

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

in light of Luna's testimony. Haying reviewed the trial, we believe there is not a "substantial
possibility that the result would have been any different"!61 ■&,[ if the Commonwealth's
questioning as to the other witnesses' testimony would not have occurred. On cross—examination, Luna was a combative witness and repeatedly retorted an iteration of "that's your
story" to questions from the Commonwealth rather than providing a substantive answer and
repeatedly battled with the Commonwealth. Essentially, Luna challenged the majority of the
Commonwealth's questions as inaccurate, false, or simply theoretical. The general prohibition
outlined in Moss of this type of questioning was designed to prevent a witness from being
presented in an unflattering light from which he could not recover in the eyes of the jury. But,
where a defendant places himself in an unflattering light with an overall combative tone, the
impact of such questioning by the [**56] Commonwealth is somewhat mitigated. It becomes
difficult to say with any reliability whether the Commonwealth's questioning or the defendant's
own recalcitrance contributed to the jury's verdict.[62&| Accordingly, we conclude that the
Commonwealth's conduct of the cross-examination, while improper, was not palpably erroneous.
The Commonwealth's questioning can be considered harmless in this context. Nor did the
Commonwealth's questioning "so infect[] the trial with unfairness as to make [Luna's] conviction
a denial of due process."[634

H. The Trial Court Properly Rejected Luna's Alleged Alternative Perpetrator Theory.
Before trial, Luna filed a motion requesting permission to present evidence in support of an
alleged alternate perpetrator (aaltperp). The trial court denied Luna's motion, but Luna
preserved the issue by offering avowal testimony. Luna now asserts the trial court erroneously
denied his motion and denied his right to present a complete defense. We disagree.
Ingrained in both our law and recognized concepts of fundamental fairness is [**57] a
defendant's "rightjto introduce evidence that another person committed the offense with which
he is charged."[64jt| [*881] So important is this right that a trial court may only interfere with
it if the defense's aaltperp theory is "unsupported, speculative, and far-fetched[, which] could
thereby confuse or mislead the jury.65 &] To be sure, the ability to present an aaltperp theory
of the crime is a critical tool in the defense toolbox. But it is not so important that any mention
of an aaltperp is sufficient to allow the evidence to come before the jury. As we have stated,
"evidence is not automatically admissible simply because it tends to show that someone else
committed the offense."[(564| The possibility of confusing or misleading the jury is very real and
must be closely monitored by the trial court.
To strike the balance between the defendant's rights and presenting evidence in a manner in
which the jury can digest, we have consistently demanded that, at the very least, opportunity
and motive should be shown before evidence of an aaltperp theory comes before the jury.|67A[
And that is the problem with the aaltperp evidence proffered by [**58] Luna. There was no
substantive evidence indicating both opportunity and motive. Instead, Luna sought to admit
evidence that one of Hendrickson's former boyfriends committed the crime. Hendrickson's
relationship with this boyfriend ended a few months before Luna moved in with her. According to
the evidence, the former boyfriend physically abused Hendrickson and even threatened her life
at one point. Luna's evidence tends to create more questions than answers. "In a homicide case,
a defendant is not entitled to parade before the jury every person who bore some dislike for the
victimf,]"l68&l and that is all Luna did here. The trial court appropriately exercised its discretion
in denying Luna's aaltperp theory.[694|

I. Luna did not Present Sufficient Evidence to Warrant an Intoxication or Extreme
Emotional Disturbance Instruction [**59] .
Throughout this trial, we acknowledge the common thread of alcohol consumption. According to

16 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintcIick/...
the evidence conflict coincided with alcohol consumption. In light of that, Luna now argues the
trial court erroneously denied his request for an intoxication instruction. And considering Luna's
account of the struggle between him and Hendrickson before the fire, no doubt alcohol-fueled,
Luna requested an
request as well, and Luna now challenges that denial as error.|70&]
As an initial matter, "[a] trial court is required to instruct on every theory of the case reasonably
deducible from the evidence."[71A The trial court, in other words, has a duty to instruct on the
whole [*882] law; that is, law "applicable to every state of the case covered by the indictment
and deducible from or supported to any extent by the testimony."[72*] With regard to an
affirmative instruction, however, as voluntary intoxication and extreme emotional disturbance
are, "some evidence justifying a reasonable inference of the existence of a defense"! 73&1 must
be [**60] introduced. An affirmative instrucfion must be“rejected if the'evidence does not .
warrant it.
Dealing with Luna's intoxication request first, KRS 501.08.0(1) states voluntary intoxication is
only a defense if the intoxication "[negatives the existence of an element of the offense." Of
course, in the instant case, Luna seeks a voluntary intoxication instruction to negate the intent
element of both first-degree murder and first-degree arson. Luna argues the jury could have
reasonably believed he was too intoxicated to form the requisite intent and, accordingly, he was
entitled to instructions for lesser charges.[74A|
Our case law requires more than mere evidence of alcohol consumption. Instead, a voluntary
intoxication instruction is appropriate "where there is evidence reasonably sufficient to prove
that the defendant was so drunk that he did not know what he was doing."[75&] Simple
drunkenness is not sufficient; instead, a "more advanced degree of drunkenness"|76±| is
required.
Luna's characterization of the events leading to Hendrickson's murder [**61] presents no
evidence he was so drunk that he did not know what he was doing. The evidence certainly
indicates that Luna consumed an impressive amount of alcohol on the night in question; indeed,
his blood alcohol content hours after Hendrickson's murder was .209. To be sure, that reading
was taken after Luna finished off a bottle of liquor when unable to find Hendrickson's pulse and
continued to drink alcohol during his getaway to Illinois; and, more importantly, it indicates little
with regard to Luna's level of intoxication at the time of the murder. Luna offers no evidence of
blacking out or otherwise succumbing to alcohol in a manner that makes him seem unaware of
his conduct.|77&l The evidence points to the contrary, in fact. At trial, Luna provided a detailed
account of the events leading up to Hendrickson's murder and the alleged physical clash
between him and Hendrickson. That account, discussed below, did not indicate intoxication to
the point of negating an intentional mental state. To the contrary, Luna appeared in control of his
mental faculties. Even though his testimony was filled with comments that he was drunk, we
reiterate that without evidence of a more advanced [*883] drunkenness, [**62] a voluntary
intoxication instruction is not warranted.
Similarly, Luna's attempt to obtain an extreme-emotional-disturbance instruction is not
warranted based on the evidence. To prove adequately extreme emotional disturbance, a
defendant must offer evidence that he "suffered a temporary state of mind so enraged,
inflamed, or disturbed as to overcome one's judgment, and to cause one to act uncontrollably
from an impelling force of the extreme emotional disturbance rather than from evil or malicious
purposes."|78*J Extreme emotional disturbance may have its roots in the common law concept
of heat of passion, but it long ago outgrew the stricture of that historic principle. Our
jurisprudence now recognizes that "it is possible for any event, or even words, to arouse
extreme mental or emotional disturbance."l79&| While what constitutes the triggering event may
be broadly construed, its impact on the defendant is not. The event must be so dramatic as to
render [**63] the mind temporarily uncontrollable and provoke "an explosion of violence."[soil
In short, Luna presents no evidence indicating an explosion of violence as a result of some
triggering event. The absence of any indication Luna was temporarily unable to control his
conduct is also fatal to Luna's argument. The narrative Luna presented at trial may have
supported a self-defense theory, but it certainly did not support extreme emotional disturbance:

7 of 35

nn/'irvn 1

1 n.nn

a\m

-irefox

https://doc-advance.lexis.com/documentprint/documentprintcliclc/...

Hendrickson became upset when Luna refused to go along with her plan to burn
the trailer down. She then stabbed him in the leg with a paring knife, after which
Luna retreated to the bathroom, applied a bandage to the wound, and changed
bathroom, Hendrickson had been looking through his cell phone and was now
enraged over what she found. Hendrickson struck Luna in the face, bloodying his
nose, and grabbed him by the hair. Luna was able to get free and returned to the
bathroom to clean up blood yet again. Luna then heard Hendrickson yelling she
would burn the place down and the click of a lighter. Hendrickson lit
candles, [**64] wrapped them in an afghan, and dumped vodka all around. This is
when she snapped. Hendrickson retrieved a handgun and attempted to fire at Luna,
but the gun did not fire. Luna went toward her and they struggled over the gunboom!—nothing but ringing in Luna's ears. All Luna could think of "was not being
with [his] kids, [and] them growing up without their dad." As he continued to
struggle with Hendrickson, Luna grabbed a nearby whiskey bottle Hendrickson had
thrown at him earlier. She rose up, yelling "I'm going to kill you!" The gun went off
again. Luna swung the whiskey bottle and connected with the back of
Hendrickson's skull. She collapsed to the floor, motionless.
At no point in Luna's narrative does he describe his own temporary state of mind so .enraged,
inflamed, or disturbed as to overcome his judgment. In fact, Luna did not seem enraged,
inflamed, or disturbed at all. If anything, he had complete control over his judgment as he
[*884] notes all he could think of was dying and his children growing up fatherless. To prevent
this outcome, Luna makes a decision, visceral perhaps, to fight back and get Hendrickson off of
him and calmed down. In no way does this fall within the scope of [**65] extreme emotional
disturbance. Accordingly, Luna did not present sufficient evidence to warrant an instruction on
extreme emotional distress. The trial court did not abuse its discretion.
Finally, the defense Luna offered at trial seemingly undercuts an intoxication or extreme
emotional disturbance instruction being warranted. As Luna's narrative illustrates, his primary, if
not sole, theory of defense was selfdefense, i.e. hitting Hendrickson with the whiskey bottle was
justified because he feared for his life. That is consistent with his mind becoming filled with
thoughts of his children and dying. If anything, Luna acted with intention in protecting his life.
He did not lose his mind because of some dramatic event and he was not so drunk that he did
not know what he was doing. Luna's testimony indicates, rather, he knew exactly what he was
doing.

J. Luna was Entitled to a Directed Verdict on the First-Degree Arson Charge.
To be convicted of first-degree arson, codified in KRS 513.020, a person must start a fire or
cause an explosion with "intent to destroy or damage a building" and the building must be
"inhabited or occupied or the person has reason to believe the building may be inhabited
or [**66] occupied" or "[a]ny other person sustains serious physical injury as a result of the fire
or explosion or the firefighters as a result thereof."
Luna's argument is simple: Hendrickson was dead from blunt force trauma to the head before
the fire started, so Luna cannot be convicted of first—degree arson because Hendrickson was not
"occupying" the trailer. The Commonwealth, in return, argues the evidence as to whether
Hendrickson was dead before the fire or, perhaps more accurately, whether Luna had reason to
believe she was dead is inconclusive, rendering a directed verdict inappropriate. Considering the
evidence offered at trial, we must agree with Luna.
Our standard and method of review regarding a motion for directed verdict is deeply rooted and
well understood. At trial, the court "must draw all fair and reasonable inferences from the
evidence in favor of the Commonwealth. If the evidence is sufficient to induce a reasonable juror
to believe beyond a reasonable doubt that the defendant is guilty, a directed verdict should not
be given."[81*] In making this determination, the trial court "must assume that the evidence for
the Commonwealth is true, but reserv[e] to the jury questions as to the credibility [**67] and
weight to be given such testimony."j82&j On appellate review, however, a defendant is only
entitled to a directed verdict "if under the evidence as a whole, it would be clearly unreasonable

18 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
for a jury to find guilt[.]j83&l Faced with a directed-verdict motion, the Commonwealth must
produce "more than a mere scintilla of evidence"!84&i to satisfy its burden.
-Not-e-singte-witness-offered-anytestimony at trial to suggesrt'fiat'Hendrickson was alive at the
time of the fire. The [*885] Marshall County Coroner testified that he noticed compression
skull fractures—different from heat fractures caused by fire—almost immediately upon entering
the burned-out trailer. At the scene, he surmised the cause of Hendrickson's death was bluntforce trauma to the head. The medical examiner that performed the autopsy bolstered that
conclusion. Hendrickson's body had several indicators of bluntforce trauma: skull fractures,
subdural hemorrhaging, and bruises to the brain away from the location of the skull
fractures. 85A There was no disagreement in the evidence that blunt-force trauma, not fire,
caused Hendrickson's death. More importantly, though, the autopsy revealed a notable absence
of soot deposition in.Hendrickson's [**68] airways. The medical examiner testified
unequivocally: there was no evidence Hendrickson was breathing when the fire was in close
proximity for her to be breathing in smoke.
On this point, even if we assume the Commonwealth's evidence to be true and draw all fair and
reasonable inferences in the Commonwealth's favor, we are constrained to reach the same
conclusion: Hendrickson was dead before the fire. And the primary witnesses to prove that point
were the Commonwealth's own witnesses. Luna's testimony was consistent with the findings of
the coroner and medical examiner. He checked Hendrickson's [**69] pulse several times, both
at her neck and at her wrist, and was unable to find a pulse. The Commonwealth disputes this
aspect of Luna's testimony and attempts to diminish it by placing find in scare quotes. This
evidence is important because it would seem axiomatic that in order for an individual to be
considered occupying a building for purposes of first-degree arson, that individual must be alive.
Finally, the Commonwealth argues that the evidence is inconclusive because the exact time of
the fire is unknown, so while Hendrickson may have been dead before the fire was around her,
she may have been alive at the start of the fire. Luna testified that Hendrickson lit some candles
and wrapped them in an afghan before they engaged in their violent struggle, obviously
indicating that Hendrickson was alive at the start of a fire. Whether that fire grew to become the
fire is unknown.j86&[ In support of this argument, the Commonwealth directs our focus to Bray
v. Common wealth,] 87 <&! an arson case involving inconclusive evidence and rejecting the
defendant's directed-verdict motion.
The problem with the Commonwealth's position is that it has the burden of proof.!88&] To be
sure, the fire's timeline [*886] is ambiguous, and, as can be typical with homicide cases,
perhaps the only person who could provide insight into that timeline is the victim. But it is the
Commonwealth's burden to produce evidence indicating Hendrickson was alive at the start of the
fire and Luna set the fire aware of that fact. And the Commonwealth has produced no evidence
to shed light on when the fire was started, not even a scintilla.
Perhaps highlighting the Commonwealth's lack of evidence, the jury convicted Luna of firstdegree arson but did not find that Hendrickson's murder was [**71] committed during the
commission of first-degree arson, the ostensible hand-in-glove statutory aggravator given the
charges. For these reasons, Luna was entitled to a directed verdict on the first-degree arson
charge.
This directed verdict does not, however, alter Luna's sentence because the jury recommended a
sentence of life imprisonment without benefit of probation or parole not for first-degree arson,
but for first-degree murder committed in the commission of first-degree robbery. The jury
recommended twenty years' imprisonment for the first-degree arson conviction, to be served
consecutively with the life imprisonment sentence. Clearly then, a directed verdict on firstdegree arson has no impact on Luna's life imprisonment sentence.

$
K. Luna's Trial was not Unfair Because of Cumulative Error.
Even if we find all the errors argued above by Luna to be harmless, Luna contends he is entitled
to a new trial because the errors, when combined, render his trial unfair. The doctrine of

9 of 35

7/7/2021. 10:37 AM

https://doc-advance.lexis.com/documentprint/documentprintclick/...

3irefox

cumulative error has been cautiously applied by this Court, reserving it only for situations
"where the individual errors were themselves substantial, bordering, at least, on the
prejudicial."[89*] But, "[w]here as in this [**72] case, . . . , none of the errors individually
raised any real question of prejudice, we have declined to hold that the absence or prejudice plus
the absence of prejudice somehow adds up to prejudice."[90*] While we must say that Luna's
trial was not error-free, at the same time, we cannot say any of the errors, "either.individually or
cumulatively, render the trial unfair."[91*1 Consequently, we reject Luna's cumulative-error
. argument.

L. The Commonwealth did not Exhibit Prosecutorial Vindictiveness by Seeking
Statutory Aggravators in Luna's Second Trial.
Luna next contends that the Commonwealth exhibited prosecutorial vindictiveness by seeking .
statutory aggravators on remand when statutory aggravators were not sought for the first trial.
This decision, according to Luna, effectively punished him for exercising his constitutional rights
and appealing his conviction. We disagree.
The United States Supreme Court first recognized prosecutorial vindictiveness under the broad
concept of due process in North Carolina v. Pearce.[92*1 In Pearce, the Court held that if a judge
imposes a more severe sentence on a defendant after winning a new trial, "the reasons for his
[*887] doing so must affirmatively appear" [**73] and "be based upon objective information
concerning identifiable conduct on the part of the defendant occurring after the time of the
original sentencing proceeding."[93Jfc] It is worth mentioning that Pearce involved sentencing by
a judge. The Pearce holding was later narrowed in both Alabama v. Smith\9AA\ and Blackledge
v. Perryj95&l In Blackledge, the Court held that a defendant's right to due process is "not
offended by all possibilities of increased punishment upon retrial after appeal, but only by those
that pose a realistic likelihood of vindictiveness."[96 A
Generally speaking, there exist two methods through which prosecutorial vindictiveness may be
shown: actual and presumptive. "Actual vindictiveness" requires "objective evidence that a
prosecutor acted in order to punish the defendant for standing on his legal rights."[97*1 Luna
does not argue that the Commonwealth acted with actual vindictiveness, but rather
presumptive. In those situations where objective evidence of vindictiveness is lacking, as here,
prosecutorial vindictiveness can be presumed depending on the apparent likelihood of
vindictiveness. "Given the severity of such a presumption, however—which [**74] may operate
in the absence of any proof of an improper motive and thus may block a legitimate response to
criminal conduct—the court has done so only in cases in which a reasonable likelihood of
vindictiveness exists."|98*
We do not find the current situation to present a reasonable likelihood of vindictiveness. No
doubt, the prosecution has a sizable stake in obtaining a conviction and appropriately punitive
sentence. But, the circumstances presented here do not indicate any reason for this Court to
presume vindictiveness. First of all, the prosecution was different for Luna's first trial and the
trial at issue. A special prosecutor from the Attorney General's office tried the case on remand.
Looking at the case with fresh eyes and having the advantage of a prior trial, more time to
review the record and prepare for the matter, the prosecutor in the retrial chose to proceed with
statutory aggravators. The Commonwealth alleges that statutory aggravators were not sought in
the first trial because of time restraints.[99*] Luna filed a series of motions for continuance
before the instant trial because his representation was in flux. Given the extra time, the
Commonwealth decided [**75] to seek a conviction on statutory aggravators. Based on some
statements by the Commonwealth before trial, Luna attempts to weave a conspiracy theory by
arguing that the Commonwealth punished Luna for seeking the continuances and winning on
appeal. The evidence does not support this argument, at least not to a degree that warrants a
presumption of vindictiveness.
[*888] Second, the Commonwealth did make the choice to pursue statutory aggravators, but

20 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
did not make the choice to convict on them. As the Supreme Court of Mississippi noted:
Each aggravating circumstance had to be proven beyond reasonable doubt, and the
jury was required to weigh the aggravating circumstances against the mitigatinq
Circumstances, i he jury was not informed as to the long rocky road of Jordan's
trials, retrials and resentencings. Therefore, any possible prosecutorial
vindictiveness that Owen had as the result of Jordan's obtaining yet another
resentencing was rendered impotent because it was the jury which decided that
Jordan should be sentenced to death rather than life imprisonment [**76] without
parole. The statutory safeguards in place in capital cases assured that the jury
operated without the taint of prosecutorial vindictiveness.! 100 A
And as the Supreme Court has pointed out: "The potential for such abuse of the sentencing
process by the jury is, we think, [de minimis] in a properly controlled retrial."jlbj.&| The
distinction between judge sentencing and jury sentencing is an important one. Statutory
aggravators have been a possibility in this action from the time Luna was indicted. The
Commonwealth exercised its discretion in the first trial and did not pursue aggravators; but, on
remand, counsel and deadlines changed, giving the Commonwealth both new perspective and
more time to prepare its case. At bottom, though, Luna was indicted for a capital crime and was
tried for a capital crime both times.
We see little evidence of vindictiveness in the Commonwealth's conduct on remand.

M. Luna was not Entitled to a Directed Verdict on the Robbery Aggravator.
Finally, Luna contends the Commonwealth did not present sufficient evidence to convict Luna of
murdering Hendrickson in the commission of first—degree robbery. The evidence presented,
according to Luna, required impermissible [**77] inferences built upon inferences for the jury
to convict. We admit the evidence is was not overwhelming, but we disagree with Luna that the
Commonwealth failed to satisfy its burden for the charge to reach the jury. The issue is
unpreserved, and Luna requests we engage in palpable error review; but we find no error of any
kind.
The Commonwealth introduced various pieces of evidence highlighting Luna's need to acquire
Hendrickson's truck. Primarily, Luna's employment dictated a method of transportation was
critical. Luna testified that he drove to nearly all of his jobs, but did fly to some, depending, of
course, on the jobs' locations. The nature of his trade was such that he needed to be mobile so
that he could respond quickly to the demands of the market, essentially going where the work
was.
A friend of Hendrickson's testified that Hendrickson wanted to buy her truck so that Luna would
stop trying to get her vehicles. Luna seizes on this bit of testimony, alleging it demands the jury
pile inference on top of inference. This allegation is centered on the fact Hendrickson's friend^
used the word "vehicles" in her testimony instead of "truck." According to Luna, the jury waS;
then forced [**78] to infer that Hendrickson meant "truck."
We recently detailed our inference-on-inference jurisprudence in Southworth [*889] v.
Common wealth .[l02 ±1 Our rule barring a string of inferences is not absolute, "despite being
stated in absolute terms. If that were the case, then the exercise of logic, which frequently
employs inference-derived inferences, would not be allowed to the’jury."[l03&l Instead, our rule
is "intended to condemn inferences that build upon inferences in an unreasonable
manner"] 104 A| Luna is unable to direct our attention to any unreasonable strings of inferences.
Yes, Hendrickson's friend did say "vehicles" instead of "truck," but, considering the evidence
presented at trial that the Firebird was burned by Luna and Hendrickson's Chrysler was wrecked

1 of 35

7/7/9091 1M7 AM

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

Firefox

by Luna, it is certainly not unreasonable for the jury to infer "vehicles" included "truck." Notably,
no evidence was put forth that Hendrickson owned more vehicles than the Chrysler 300M and
the truck.
When we assume the Commonwealth's evidence to be true and view the evidence in a light most
favorable to the Commonwealth, it is clear more than a mere scintilla of evidence was presented.
There was no error, palpable or otherwise. [**79]

III. CONCLUSION.
The Commonwealth failed to present sufficient evidence indicating Hendrickson was alive,
thereby occupying the .trailer, before the start of the fire. Luna's first-degree arson conviction,
consequently, is reversed. Finding no error requiring reversal of the judgment, we affirm Luna's
first-degree murder conviction, however. Luna's sentence for first-degree murder committed
during the commission of first-degree robbery, life imprisonment without possibility of parole or
probation, is likewise affirmed. This matter is remanded to the trial court for entry of a new
judgment consistent with this opinion.
Minton, C.J.; Abramson, Cunningham, Keller, Noble, and Venters, 33., sitting. All concur.

Footnotes

[i*1

Ky. Const. § 110(2)(b).

12*1

See Luna v. Commonwealth, 2010 Ky. Unpub. LEXIS 103, 2010 WL 4683564 (No.
2008-SC-000652-MR Nov. 18, 2010).

[3*1

Unless otherwise noted, all issues are properly preserved for our review.

4¥
Brown v. Commonwealth, 313 S.W,3d 577, 610 (Ky. 2010).

5¥
Id.

6V
Id.
)

22 of 35

in12021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

7?
639 S.W.2d 776, 111 (Ky. 1982) (noting that this Court is without "power on a
second appeal to correct an error in thp original judgment- which pii-hpr was, or might
have been relied upon in the first appeal.").

8?
Brown, 313 S.W.3d at 611 (internal quotation marks omitted).

9?
For example, the Commonwealth argues Luna's challenge to the admissibility of his
altercation with a state trooper while in custody in Illinois is governed by the law of the
case because (a) Luna did not object to the admission of this evidence at the first trial
and (b) this Court included the altercation in our recitation of the facts in our 2010
opinion. This stretches the law-of-the-case doctrine beyond recognition, at least as we
recognize it post-Brown. The Commonwealth fails to mention a previous objection or
pre-trial motion or anything of the like ruled on by the trial court. And, [**8] it almost
goes without saying that our mere mention of testimony or factual allegations now
alleged to be inadmissible does not constitute an affirmative ruling of any sort and does
not invoke the law-of-the-case doctrine. Again, the law-of-the-case doctrine requires
more than the mere opportunity for a trial court to rule; it requires that the trial court
did rule.

10?j
See, e.g., Commonwealth v. Jones, 283 S.W.3d 665, 670-71 (Ky. 2009). We, of
course, are not now labeling the law-of-the-case doctrine as an affirmative defense but
drawing a simple analogy. The party arguing the law-of-the-case applies bears the
burden of proving its applicability.

11?
509 U.S. 579, 113 S, Ct. 2786, 125 L. Ed. 2d 469 (1993).

12?
We note that the law-of-the-case might apply to this situation if the Commonwealth
showed us that the trial court made a ruling under Daubert in the original trial on the
reliability or qualifications of the arson investigator. But the Commonwealth has shown
us nothing on this point from the original trial and our examination of the record of the
original trial has failed to unearth a Daubert motion or hearing regarding this potential
expert witness. Of course, [**11] the arson investigator did testify as an expert in the
original trial, so we might presume the trial court's tacit approval under Daubert. But
lacking a clear indication in the record of the original trial, we are hesitant to extend the
law-of-the-case to a point where it would apply to the present case.

3 of 35

.iSsilir-'

nnnm\ m-T7 am

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

137
Daubert, 509 U.S. at 597.

i

14 ¥
Toyota Motor Corp. v. Gregory, 136 S.W.3d 35, 39 (Ky. 2004).

15T
Goodyear Tire & Rubber Co. v. Thompson, 11 S.W.3d 575, 578 (Ky. 2000)
(alterations in original).

167
Toyota Motor Corp., 136 S.W.3d at 39.

177
Daubert, 509 U.S; at 592-93.

187
Goodyear Tire, 11 S.W.3d at 577-78.

197
Hyman & Armstrong P.S. C. v. Gunderson, 279 S.W.3d 93, 101-02 (Ky. 2008) ("An
appellate court's standard of review relative to a ruling on the reliability of scientific
evidence under Daubert is whether the ruling is supported by substantial evidence.")
(citing Miller v. Eldridge, 146 S.W.3d 909, 917 (Ky. 2004)).

207
Commonwealth v. Christie, 98 S.W.3d 485, 488 (Ky. 2002).

[217]
Id. (quoting John v. Equine Srvs. P.S.C., 233 F.3d 382, 393 (6th Cir. 2000))
(alteration omitted).

227
Id. at 488-89.

24 of 35

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

23 7
We note that the trial court had heard this same witness testify live about the same
report in the original trial.
-

24 7
Luna claims he was "unable to adequately challenge the reliability of [the arson
investigator's] conclusions based on his knowledge and handling of the device and any
samples." And, Luna complains that the trial court was unable to "make a ruling on the
reliability of the detector device, the particular device at issue,, or its actual jjsejnjthis
case." Per Luna's constitutional rights, the lab technicians who handled the samples
obtained by the arson investigator from Hendrickson's trailer were required to testify at
trial and did so. Any mishandling of those samples or what those results indicate about
the arson investigator's chosen methodology does not go to whether the arson
investigator should be qualified as [**17] an expert; instead, that evidence goes to the
weight the jury may afford the arson investigator's testimony.

251’
Moreover, there was "substantial evidence" to support the trial court's rejection of
Luna's challenge to the arson's investigator. The trial court, accordingly, was not clearly
erroneous in making that determination.

267
Essentially the "fuel" of the fire, i.e. how much material is available for the fire to
consume and grow.

277
This rundown is important because part of Luna's [**20] argument seems to be a
challenge to how the arson investigator worked the scene of the fire with the
hydrocarbon detector. More than just a challenge to the reliability of the hydrocarbon
detector, Luna is challenging the manner in which the arson investigator used the
hydrocarbon detector. Of course, all that is required is that the trial court be presented
with enough evidence to make a ruling—with regard to reliability, that is "substantial
evidence." Here, given all the information the trial court possessed, we have no trouble
finding substantial evidence supporting the trial court's ruling. The arson’s investigator's
process was calculated to lead to reliable results.

)287
See KRE 801(c).

297

X

291 S.W.3d 647, 668 (Ky. 2009) (quoting Giles v. California, 554 U.S. 353, 359,

5 of 35

7/7/2021. 10:37 AM

https://doc-advance.lexis.com/documentprint/documentprintclick/...

;irefox

128 S. Ct. 2678, 171 L. Ed. 2d 488 (2008)).

30V
Id. 668-69 (internal quotations omitted).

3lV
554 U.S. 353, 128 S. Ct. 2678, 171 L. Ed. 2d 488 (2008).

32V
In certain situations, the distinction could still cany weight because harmless-error
review for constitutional violations, e.g. confrontation-clause violation with testimonial
evidence, is a step above the general concept of harmless error.

33 V
494 Mich. 104, 832 N.W.2d 738, 744-45 (Mich. 2013).

34 V
Giles, 554 U.S. at 367 (internal quotation marks omitted).

35V
BLACK'S LAW DICT. (6th ed.). A more detailed definition is offered in Black's, 9th
edition: "The greater [**32] weight of the evidence, not necessarily established by the
greater number of witnesses testifying to a fact but by evidence that has the most
convincing force; superior evidentiary weight that, though not sufficient to free the mind
wholly from all reasonable doubt, is still sufficient to incline a fair and impartial mind to
one side of the issue rather than the other."

36V
~—-~-VVe note that the Commonwealth's failure to prove this theory of the crime at trial
or its reliance on the alternative theory that Luna killed Hendrickson to steal her truck
does not affect our determination regarding forfeiture-by-wrongdoing. As we pointed out
in Parker, "the Commonwealth need [] only to satisfy the preponderance of the evidence
standard in order for the evidence to be admissible, [therefore] the jury's inability to find
Parker guilty beyond a reasonable doubt of killing Stephenson does not alter our
analysis!.]1' Parker, 291 S.W.3d at 670 n.63.

[l7J\

26 of 35

7/7/2021, 10:37 AM.

%efox

https://doc-advance.lexis.com/documentprint/documentprintclick/...
Parker, 291 S.W.3d at 670.

38¥
Compare Giles, 554 U.S. at 359 ("The terms used to define the scope of the
forfeiture rule suggest that the exception applied only when the defendant engaged in
conduct designed to prevent the witness from testifying.") with Giles, 554 U.S. at 386
(Breyer, J., dissenting) ("With a few criminal law exceptions not here relevant, the law
holds ah individual responsible for consequences known likely to follow just as if that
individual had intended to achieve them........This principle applies here.").

39 ¥
Smith v. Commonwealth, 737 S.W.2d 683, 6.89 (Ky. 1987).

|40f|
See O'Bryan v. Commonwealth, 634 S.W.2d 153, 156 (Ky. 1982).

r

4 if
KRE 404(b)(l)-(2).

142*1
See KRE 401-04.

43 ¥
KRE 401. Under KRE 404(b), the evidence is relevant for another purpose, i.e.,
motive, preparation, plan, or knowledge.

44 ¥
See Peacherv. Commonwealth, 391 S.W.3d 821, 838 (Ky. 2013) (citing Romans v.
~~ Commonwealth, 547-SZW72d 128 (Ky. 1977)).

45¥
So. Fin. Life Ins. Co. v. Combs, 413 S.W.3d 921, 926 (Ky. 2013) ("[I]t is well settled
that we are not bound by the analysis of the Court of Appeals and may affirm on any
grounds supported by the record.") (citing McCloud v. Commonwealth, 286 S.W.3d 780,
786 n. 19 (Ky. 2009)).

7 of 35

mnm\ \n--xi am

https://doc-advance.lexis.com/documentprint/documentprintclick/...

-irefox

146Tl Generally speaking, we have repeatedly noted that evidence of prior threats or
violence against some third party is the type of inadmissible character evidence KRE
404Cbl seeks to avoid. See Driver v. Commonwealth. 361 S.W.3d 877, 886-87 (Ky.
2012); Davis v. Commonwealth, 147 S.W.3d 709, 722 (Ky. 2004).

47 ¥
Bell v. Commonwealth, 875 S.W.2d 882, 889-91 (Ky. 1994), outlines the three­
pronged test trial courts must conduct in reviewing KRE 404(b) evidence. Trial
courts [**40] must evaluate the proposed evidence in terms of: (1) relevance; (2)
probativeness; and (3) its prejudicial effect. This evidence fails that test.

48¥
Luna v. Commonwealth, 2010 Ky. Unpub. LEXIS 103, 2010 WL 4683564 at *9 (No.
2008-SC-000652-MR Nov. 18, 2010).

49 ¥
By "Illinois fires," we refer to three previous fires involving one of Luna's prior
residences.

SOT
The trial court noted that it would remain vigilant and our 2010 opinion did not
prohibit the evidence if the Commonwealth could present more evidence regarding
Luna's participation in the fires. This is a correct characterization [**43] of the 2010
opinion. The problem is, the Commonwealth introduced no additional evidence to show
Luna set these prior fires.

51T
~~
Regardless of how the evidence was admitted at Luna's original trial, this point we
made in 2010 rings true: "[I]n the case at bar, the only evidence connecting Luna to the
prior trailer and house fires in Illinois was that the fires occurred on his property.
Accordingly, it was error [**44] to allow evidence of these two prior fires to be admitted
in this trial.” Luna, 2010 Ky. Unpub. LEXIS 103, 2010 WL 4683564 at *9. Clearly, it was
not the manner in which the evidence came in, but the evidence itself that was
problematic.

\
78 of 3S

7/7/2021, 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

52*
"Failing'to request an admonition is generally regarded as trial strategy, and
theicfuie waives, the issue orrappeal." Sufllvan-v—Commonwealth, 2tr08"Ky.' Unpub.—
LEXIS 47, 2008 WL 4691944 (No. 2006-SC-000930-TG Oct. 23, 2008) (citing Ernst v.
Commonwealth, 160 S.W.3d 744, 759 (Ky. 2005); Hall v. Commonwealth, 817 S.W.2d
228, 229 (Ky. 1991)).

S3?
See, e.g., Lanham v. Commonwealth, 171 S.W.3d 14, 19-23 (Ky. 2005).

54 ¥
KRE 103(d).

55¥
Bell, 875 S.W.2d at 882.

56 ¥
We should note that Luna's counsel is unable to avoid a degree of blame in this
scenario. The propriety of the trial court's order aside, Luna's counsel should have, in the
very least, [**48] insisted upon a ruling from the trial court upon reading the trial
court's apparent indication it would reserve its ruling until trial. It nearly goes without
saying, but, as a practical matter, it is essential to obtain a ruling on a motion. This piece
of wisdom is even more apparent when the ruling is ambiguous or unclear, as it was
here. The ruling was not ambiguous, however, as a signal for Luna's counsel to be alert
at trial. Luna's counsel, instead, sat idle as the evidence he had fought to exclude was
repeatedly referenced before the jury.

57¥

.y

Emerson v. Commonwealth, 230 S.W.3d 563, 570 (Ky. 2007); see also Adkins v.
Commonwealth, 96 S.W.3d 779, 793 (Ky. 2003).

58¥
See, e.g., Moss v. Commonwealth, 949 S.W.2d 579, 583, 44 6 Ky. L. Summary 22
(Ky. 1997).

59 ¥
Id.

)nf3S

"irefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

60?
Id.

61?
Commonwealth v. McIntosh, 646 S.W.2d 43, 45 (ky. 1983).

t

62?

Though unpublished, we noted this difficulty in Stratton v. Commonwealth, 2007 Ky.
Unpub. LEXIS 2, 2007 WL 188998 (No. 200.5-SC-000307 Ky. Jan. 25, 2007). On appeal
for habeas, our decision in Stratton was affirmed by the Eastern District of Kentucky.
Stratton v. Hall, 2010 U.S. Dist. LEXIS 141788, 2010 WL 5922110, Civil No. 10-107KKC-CJS (E.D.Ky. Dec. 28, 2010).

63?
Darden v. Wainwright, 477 U.S. 168, 181, 106 S. Ct. 2464, 91 L. Ed. 2d 144

(1986).

164?
Beaty v. Commonwealth, 125 S.W.3d 196, 207 (Ky. 2003) (quoting Eldred v.
Commonwealth, 906 S.W.2d 694, 705, 41 11 Ky. L. Summary 20 (Ky. 1994)).

65?
Id. (internal quotation marks and alteration omitted).

66?
Id.

67?
See Hedgepath v. Commonwealth, 441 S.W.3d 119, 132 (Ky. 2014) (citing Beaty,
125 S.W.3d at 208).

68?[
Beaty, 125 S.W.3d at 208.

69?

VI nf ^

7/7/2021. 10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick/...

We should note that Luna alleged other individuals may have committed the crime. The
evidence linking these individuals—"Phillip" and the unknown man Hendrickson met in
Paducah—was even more tenuous than the evidence relating to Hendrickson's exboyfriend. We reject any notion that an aaltperp defense was warranted on the basis of
these individuals as well.

70 ¥
Both allegations of error are properly preserved by Luna. As such, we review under
an abuse-of-discretion standard.

IzH Manning v. Commonwealth, 23 S.W.3d 610, 614 (Ky. 2000).
72?
Callison v. Commonwealth, 706 S.W.2d 434, 437 (Ky. 1986) (quoting Lee v.
Commonwealth, 329 S.W.2d 57, 60 (Ky. 1959)) (alteration and emphasis omitted).

73 ¥
Fredline v. Commonwealth, 241 S.W.3d 793, 798 (Ky. 2007) (quoting Grimes v.
McAnulty, 957 S.W.2d 223, 226, 44 11 Ky. L. Summary 26 (Ky. 1997)).

74¥
The trial court instructed the jury on lesser charges for both arson and murder.

75¥
Harris v. Commonwealth, 313 S.W.3d 40, 50 (Ky. 2010) (internal quotation marks
omitted).

76¥
Foster v. Commonwealth, 827 S.W.2d 670, 677, 38 13 Ky. L. Summary 20 (Ky.
1991).

77¥
See, e.g., Colyer v. Commonwealth, 2009 Ky. Unpub. LEXIS 34, 2009 WL 736001
(No. 2007-SC-000195-MR March 19, 2009) ("Appellant's testimony that he drank heavily
and used drugs on the day of the assault alone would not entitle him to an intoxication
instruction if not for his testimony that he blacked out during the commission of the

1 of 35

7/7/2021. 10:37 AM

https://doc-advance.lexis.com/documentprint/documentprintcliclc/...

:irefox

assaults.").

78 ¥
Greene v. Commonwealth, 197 S.W.3d 76, 81 (Ky. 2006) (quoting McClellan v.
Commonwealth, 715 S.W.2d 464, 468-69 (Ky. 1986)) (alteration and internal quotation
marks omitted).

79?
Spears v. Commonwealth, 30 S.W.3d 152, 155 (Ky. 2000).

[so yj
Baze v. Commonwealth, 965 S.W.2d 817, 823, 44 4 Ky. L. Summary 10 (Ky. 1997).

8l¥[
Commonwealth v. Benham, 816 S.W.2d 186, 187 (Ky. 1991).

[82 ¥
Id.

83 ¥
Id.

[84¥i
id-

85 ¥
According to the medical examiner, the location of the bruises was consistent with
being struck in the skull with significant force while the head was free to move, i.e.
Hendrickson was not lying on the floor when struck. After being struck, physics takes
over and the head continues to move as a result of the strike's force. Eventually the
head's motion comes to an abrupt end; the brain, however, continues its movement until
encountering the skull. This is why the bruises to the brain are away from the skull
fractures—the force was to the back right side and the bruises were in the front of the
brain.

32 nf 35

7/7/2021,10:37 AM

Firefox

https://doc-advance.lexis.com/documentprint/docurnentprintclick/...

86?
Of note on this point, the Commonwealth's arson investigator discredited Luna's
ignition source for a fire of this magnitude. According to the arson investigator, candles
in that situation would most likely have burned in a small area and burned out because
they ran out of fuel, causing localized damage rather than the conflagration that
engulfed the home.

87?
68 S.W.3d 375 (Ky. 2002).

88?
It is axiomatic that "the burden is on the government in a criminal case to prove
every element of the charged offense beyond a reasonable doubt and that the failure to
do so is an error of Constitutional magnitude." Miller v. Commonwealth, 77 S.W.3d 566,
576 (Ky. 2002).

I

89?
Brown, 313 S.W.3d at 631.

90?
Id.

91?
Id.

92?
395 U.S. 711, 89 S. Ct. 2072, 23 L. Ed. 2d 656 (1969).

O

93?
Id. at 726.

94?
490 U.S. 794, 109 S. Ct. 2201, 104 L. Ed. 2d 865 (1989).

3 of 35

mnm\ iM7

am

https://doc-advance.lexis.com/documentprint/documentprintclick/...

:irefox

[9S¥|417 U.S. 21, 94 S. Ct. 2098, 40 L. Ed. 2d 628 (1974).

96 ¥
Id. at 27 (internal quotation marks omitted).

97 ¥
United States v. Poole, 407 F.3d 767, 774 (6th Cir. 2005) (quoting United States v.
'
-.......Dupree, 323 F.3d 480, 489 (6th Cir. 2003)).

98¥
Commonwealth v. Leap, 179 S.W.3d 809, 813 (Ky. 2005) (quoting United States v.
Goodwin, 457 U.S. 368, 373, 102 S. Ct. 2485, 73 L. Ed. 2d 74 (1982)).

99¥
It is worth pointing out that statutory aggravators must be proven beyond a
reasonable doubt so may require more time than is readily apparent.

100 ¥
Jordan v. State, 786 So. 2d 987, 1001-02 (Miss. 2001).

10l¥
. Chaffin v. Stynchcombe, 412 U.S. 17, 26, 93 S. Ct. 1977, 36 L. Ed. 2d 714
(1973),

102¥
435 S.W.3d 32 (Ky. 2014).

103 ¥
Id. at 45.

104¥
Id. at 46 (emphasis added).

34 of 35

7/7/2021, 10:37 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Document: People v. Quintanilla, 2020 Cal. App. LEXIS 177

O People v. Quintanilla, 2020 Cal. App. LEXIS 177
Court of Appeal of California, Fourth Appellate District, Division One
March 3, 2020, Opinion Filed
D076549
Reporter
45 Cal. App. 5th 1039 * | 259 Cal. Rptr. 3d 431 ** | 2020 Cal. App. LEXIS 177 *** | 2020
WL 1023119

THE PEOPLE, Plaintiff and Respondent, v. RENE QUINTANILLA, JR., Defendant and Appellant.

Prior History:

APPEAL from a judgment of the Superior Court of Riverside County, No.

RIF1602869, Charles J. Koosed, Judge.

Disposition: Reversed and remanded.

Core Terms
killed, domestic violence, trial court, deliberation, out-of-court, shooting, girlfriend, Aunt,
premeditation, wrongdoing, unavailability, declarant, murder, shot, authorities, strangled, ex­
girlfriend, forfeiture, witnesses, proceedings, reporting, bedroom, bruises, shotgun, domestic
violence case, supporting evidence, testifying, gate, nose, gun

"j Case Summary

Overview

of 26

7/7/2021, 10:39 AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/.

HOLDINGS: [1]-In a first degree murder case, the trial court abused its discretion in
admitting the victim's out-of-court statements pursuant to Evid. Code, § 1390. That section
requires the trial court to find that the defendant intended to procure the unavailability of
the victim as a witness as a prerequisite to admission of the victim's out-of-court
statements under that provision. However, in this case, substantial evidence did not
support a finding that defendant killed the victim with the intent, at least in part, to make
her unavailable as a witness; [2]-The error in admitting the victim's out-of-court statement
was prejudicial. It was reasonably probable that defendant would have obtained a more
favorable result at trial on the issue of premeditation and deliberation had the trial court
excluded the victim's out-of-court statements from evidence.

Outcome
|

Judgment reversed; matter remanded.

▼ LexisNexis® Headnotes
i
s

!
!
|
Evidence > ... > Statements as Evidence-* > Hearsay-* > Exceptions•*
Evidence > ... > Statements as Evidence-*- > Hearsay-* > Unavailability-*
HNlak, Hearsay, Exceptions
Evid. Code, § 1390, outlines an exception to the hearsay rule for statements that are
offered against a party involved in causing the unavailability of the declarant as witness. ^
More like this Headnote
Shepardize® - Narrow by this Headnote (0)

!

Evidence > ... > Statements as Evidence-* > Hearsay-* > Exceptions-*

i Evidence > ... > Statements as Evidence-* > Hearsay-* > Unavailability ■*

r

HN2& Hearsay, Exceptions
The hearsay exception set forth in Evid. Code, § 1390, is satisfied by a finding that at least
one of the defendant's reasons for committing the wrongdoing that made the declarant
unavailable was to make the declarant unavailable as a witness, although the defendant
may also have had other reasons for the wrongdoing. ^ More like this Headnote
Shepardize® - Narrow by this Headnote (1)

2 of 26

7/7/2021, 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Criminal Law & Procedure > ... > Standards of Review* > Abuse of Discretion* >
Evidence *
Evidence > ... > Statements as Evidences > Hearsay-*- > Exceptions*
:
!

I

Criminal Law & Procedure > ... > Standards of Review-*- > Substantial Evidence-*- >
Findings of Fact-*Evidence > Admissibility-* > Procedural Matters*- > Rulings on Evidence*
Evidence > ... > Statements as Evidence-* > Hearsay-* > Unavailability*
HN3& Abuse of Discretion, Evidence
In general, an appellate court reviews claims regarding a trial court's ruling on the
admissibility of evidence for abuse of discretion. However, when the admission of evidence
depends on a determination of preliminary facts by the trial court, such determinations will
be upheld if supported by substantial evidence. Thus, where the central disputed issue is
whether the trial court erred in finding that a defendant engaged in wrongdoing that was
intended to, and did, procure the unavailability of the declarant as a witness, the appellate
court applies a substantial evidence standard in reviewing the trial court's finding regarding
the defendant's intent. Although the appellate court applies a substantial evidence standard
of review to the trial court's factual finding, it reviews for abuse of discretion the ultimate
decision whether to admit the evidence. H More like this Headnote
Shepardize® - Narrow by this Headnote (2)

Constitutional Law > ... > Fundamental Rights* > Criminal Process* >
Right to Confrontation *
Criminal Law & Procedure > ... > Reviewability* > Preservation for Review* >
Constitutional Issues *
Criminal Law & Procedure > Trials ▼ > Defendant’s Rights ▼ > [=) Right to Confrontation ▼
HN4& Criminal Process, Right to Confrontation
Even if a case does not involve any testimonial out-of-court statements that would
implicate the Confrontation Clause of the Sixth Amendment to the United States
Constitution,-a similar-legal standard to Evid. Code, § 1390, applies when a court
determines whether a declarant's out-of-court testimonial statements subject to the
Confrontation Clause may be admitted under the forfeiture by wrongdoing doctrine. Under
the forfeiture by wrongdoing doctrine, a defendant forfeits his or her Sixth Amendment
right to confront a witness against him or her when, by a wrongful act, the defendant
makes the witness unavailable to testify at trial. As is the case with evidence admitted
under § 1390, unconfronted testimony will not be admitted under the forfeiture by
wrongdoing doctrine without a showing that the defendant intended to prevent a witness
from testifying. Thus, under both the forfeiture by wrongdoing doctrine and § 1390, it is
not sufficient that the defendant caused the declarant to be unavailable; the defendant
must also have intended that result when engaging in the wrongdoing that caused the
unavailability. Because of the similarity of the legal standards, case law developed under
the forfeiture by wrongdoing doctrine is helpful in applying § 1390. Q. More like this
Headnote

of 26

7/7/2021. 10:39 AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177
I

|

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Shepardize® - Narrow by this Headnote (0)

' f

Constitutional Law > ... > Fundamental Rights* > Criminal Process* >
Right to Confrontation *
:

Criminal Law & Procedure > Trials-*- > Defendant's Rights-*- >

Right to Confrontation *

Evidence > ... > Exceptions-*- > Residual Exception-*- >
Confrontation Clause Requirements ▼
HN5& Criminal Process, Right to Confrontation
In general, admission of testimonial statements of a witness who was not subject to crossexamination at trial violates a defendant's Sixth Amendment right of confrontation, unless
the witness is unavailable and the defendant had a prior opportunity for cross-examination.
A statement cannot fall within the Confrontation Clause unless its primary purpose was
testimonial - that is to say, unless the statements are given in the course of an
interrogation or other conversation whose primary purpose is to establish or prove past
events potentially relevant to later criminal prosecution. ^ More like this Headnote

i

Shepardize® - Narrow by this Headnote (0)

Evidence > ... > Statements as Evidence*- > Hearsay*- > Exceptions*

S
I

!

Evidence > ... > Statements as Evidence*- > Hearsay*- > Unavailability*
HN6JL Hearsay, Exceptions
Acts of domestic violence often are intended to dissuade a victim from resorting to outside
help, and include conduct designed to prevent testimony to police officers or cooperation in
criminal prosecutions. Where such an abusive relationship culminates in murder, the
evidence may support a finding that the crime expressed the intent to isolate the victim
and to stop the victim from reporting abuse to the authorities or cooperating with a criminal
prosecution - rendering the victim's prior statements admissible under the forfeiture
doctrine. Earlier abuse, or threats of abuse, intended to dissuade the victim from resorting
to outside help would be highly relevant to this inquiry, as would evidence of ongoing
criminal proceedings at which the victim would have been expected to testify. ^ More like
this Headnote

I

Shepardize® - Narrow by this Headnote (0)

Criminal Law & Procedure > Appeals*- > Standards of Review*- > Substantial Evidence*
Evidence > Types of Evidence* > Testimony* > Expert Witnesses*
HN7lk. Standards of Review, Substantial Evidence
When an expert bases his or her conclusion on factors that are speculative, remote pr
conjectural, or on assumptions not supported by the record, the expert's opinion cannot
rise to the dignity of substantial evidence. 0. More like this Headnote
Shepardize® - Narrow by this Headnote (0)

4 r>f

11112021. 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

■Evidence-^.

https://doc-advance.lexis.com/documentprint/documentprintclick/...■

■^-Statements as Evidence * > Hearsay * > Exceptions *

Evidence > ... > Statements as Evidence* > Hearsay * > Unavailability*
HN8&. Hearsay, Exceptions
Where an abusive relationship culminates in murder, the evidence may support a finding
that the crime expressed the intent to isolate the victim and to stop the victim from
reporting abuse to the authorities or cooperating with a criminal prosecution. Earlier abuse,
or threats of abuse, intended to dissuade the victim from resorting to outside help would be
highly relevant to this inquiry, as would evidence of ongoing criminal proceedings at which
the victim would have been expected to testify. Q* More like this Headnote
Shepardize® - Narrow by this Headnote (0)

Evidence > ... > Statements as Evidence* > Hearsay* > Exceptions*
Evidence > ... > Statements as Evidence-*- > Hearsay* > Unavailability*

!

HN9& Hearsay, Exceptions
Evid. Code, § 1390, requires the trial court to find that the defendant intended to procure
the unavailability of the victim as a witness as a prerequisite to admission of the victim's
out-of-court statements under that provision. ^ More like this Headnote
Shepardize® - Narrow by this Headnote (0)

Criminal Law & Procedure > Appeals-*- > Reversible Error* > Evidence-* .
Evidence > ... > Statements as Evidence* > Hearsay* > Exceptions*
Evidence ^Admissibility* > Procedural Matters* > Rulings on Evidence*
Evidence > ... > Statements as Evidence* > Hearsay* > Unavailability*
HN10& Reversible Error, Evidence
The trial court's erroneous admission of evidence pursuant to Evid. Code, § 1390, requires
reversal of the judgment only if the error was prejudicial under the standard set forth in
People v. Watson. Under that standard, the appellate court determines whether it is
' reasonably probable the verdict would have been more favorable to the defendant absent
the error. There is a reasonable probability of a more favorable result when there exists at
least such an equal balance of reasonable probabilities as to leave the court in serious
doubt as to whether the error affected the result. Under this standard, review focuses not
on what a reasonable jury could do, but what such a jury is likely to have done in the
absence of the error under consideration. In making that evaluation, an appellate court
may consider, among other things, whether the evidence supporting the existing judgment
is so relatively strong, and the evidence supporting a different outcome is so comparatively
weak, that there is no reasonable probability the error of which the defendant complains
affected the result. Q. More like this Headnote
Shepardize® - Narrow by this Headnote (0)

of 26

7/7/2021. 10:39 AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

-€rimiftal-baw-&-Procedtire->-A-ppeals-y->-St-afrdef:ds-ef-R-ev-iew-^
Evidence > Admissibility^ > Procedural Matters▼ > Rulings on Evidence▼
HN11± Appeals, Standards of Review
If a judgment rests on admissible evidence it will not be reversed because the trial court
admitted that evidence upon a different theory, a mistaken theory, or one not raised below.
More like this Headnote

!

Shepardize® - Narrow by this Headnote (0)

Evidence > ... > Exceptions^ > Spontaneous Statements ▼ > Excited Utterances▼
HN12&. Spontaneous Statements, Excited Utterances
To apply the hearsay exception for an exited utterance under Evid. Code, § 1240, (1) there
must be some occurrence startling enough to produce this nervous excitement and render
the utterance spontaneous and unreflecting; (2) the utterance must have been before there
has been time to contrive and misrepresent, i.e., while the nervous excitement may be
supposed still to dominate and the reflective powers to be yet in abeyance; and (3) the
utterance must relate to the circumstance of the occurrence preceding it. H More like this
Headnote
Shepardize® - Narrow by this Headnote (0)

Criminal Law & Procedure > ... > Murder ▼ > Definitions▼ >
Deliberation & Premeditation ▼
f

(

Criminal Law & Procedure > ... > Murders > § First-Degree Murderv > Elements▼

i
!
!I

HN13& Definitions, Deliberation & Premeditation
Ligature strangulation is in its nature a deliberate act. Case law holds that killing a victim
by strangulation shows the type of premeditation and deliberation necessary to support a
conviction for first degree murder. H More like this Headnote
Shepardize® - Narrow by this Headnote (1)

j ▼ Headnotes/Summary
i

!

Summary
[*1039] CALIFORNIA OFFICIAL REPORTS SUMMARY

I

A jury convicted defendant of one count of first degree murder (Pen. Code, §§ 187, subd.

I
fiof7.fi

7/7/2021, 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.comydocumentprint/documentprintclick/...

j . (a), 189), one count of possession of a firearm by a prohibited person (Pen. Code, §
| 29815), and one count of child abuse likely to produce great bodily harm or death (Pen.
j Code, § 273a, subd. (a)). For the murder count, the jury found that defendant intentionally
—artd-per-s&naUy-dlsehar-ged-a-firearm-causing-gf-eat■ bodily injuFy-or-deat-h-fPen-CodeHs------12022.53, subd. (d)). The trial court sentenced defendant to prison for an indeterminate
term of 50 years to life, consecutive to a determinate term of six years. (Superior Court of
Riverside County, No. RIF1602869, Charles J. Koosed, Judge.)
j
!

The Court of Appeal reversed the judgment and remanded the matter for further
proceedings. The court concluded the trial court abused its discretion in admitting the
victim's out-of-court statements pursuant to Evid. Code, § 1390. That section requires the
trial court to find that the defendant intended to procure the unavailability of the victim as
a witness as a prerequisite to admission of the victim's out-of-court statements under that
provision. However, in this case, substantial evidence did not support a finding that
defendant killed the victim with the intent, at least in part, to make her unavailable as a
witness. The error in admitting the victim's out-of-court statement was prejudicial. It was
reasonably probable that defendant would have obtained a more favorable result at trial on
the issue of premeditation and deliberation had the trial court excluded the victim's out-ofcourt statements from evidence. (Opinion by Irion, J., with Huffman, Acting P. J., and
O'Rourke, J., concurring.)

Headnotes
CALIFORNIA OFFICIAL REPORTS HEADNOTES

CA(l)it (1) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant
—Victim as Witness-Defendant's Intent—Prejudicial Error.
In a first degree murder case, the trial court prejudicially erred in admitting the victim's
out-of-court statements pursuant to Evid. Code, § 1390. Substantial evidence did not
support a finding that defendant killed the victim with the intent, at least in part, to make
her unavailable as a witness. It was reasonably probable that defendant would have
obtained a more favorable result at trial on the issue of premeditation and deliberation had
the trial court excluded the victim’s out-of-court statements from evidence. The trial court's
erroneous evidentiary ruling required the Court of Appeal to reverse the judgment.
[Erwin et al., Cal. Criminal Defense Practice (2020) ch. 83, § 83.13.]

j

CA(2)i. (2) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant.
Evid. Code, § 1390, outlines an exception to the hearsay rule for statements that are
offered against a party involved in causing the unavailability of the declarant as witness.

CA(3)& (3) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant
j

!

of 7 ft

—Defendant's Reasons for Committing Wrongdoing.
The hearsay exception set forth in Evid. Code, § 1390, is satisfied by a finding that at least
one of the defendant's reasons for committing the wrongdoing that made the declarant
unavailable was to make the declarant unavailable as a witness, although the defendant
may also have had other reasons for the wrongdoing.

innvn\ m

am

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

CA(4)& (4) Criminal Law § 567—Appellate Review—Presenting and Preserving
Objections—Evidence—Testimonial Out-of-court Statements—Forfeiture by
Wrongdoing Doctrine.
Even if a case does not involve any testimonial out-of-court statements that would
implicate the confrontation clause of U.S. Const., 6th Amend., a similar legal standard to
Evid. Code, § 1390, applies when a court determines whether a declarant's out-of-court
testimonial .statements subject to the confrontation clause may be admitted under the
forfeiture by wrongdoing doctrine. Under the forfeiture by wrongdoing doctrine, a
defendant forfeits his or her Sixth Amendment right to confront a witness against him or
her when, by a wrongful act, the defendant makes the witness unavailable to testify at trial.
As is the case with evidence admitted under § 1390, unconfronted testimony will not be
admitted under the forfeiture by wrongdoing doctrine without a showing that the defendant
intended to prevent a witness from testifying. Thus, under both the [*1041] forfeiture by
wrongdoing doctrine and § 1390, it is not sufficient that the defendant caused the declarant
to be unavailable; the defendant must also have intended that result when engaging in the
wrongdoing that caused the unavailability. Because of the similarity of the legal standards,
case law developed under the forfeiture by wrongdoing doctrine is helpful in applying §
1390.

j
I
|
j
j
'
I

CA(S)A (5) Criminal Law §55—Rights of Accused—Confrontation—Testimonial
Statements—Unavailable Witness.
j
!
j
j
j
|

In general, admission of testimonial statements of a witness who was not subject to crossexamination at trial violates a defendant's Sixth Amendment right of confrontation, unless
the witness is unavailable and the defendant had a prior opportunity for cross-examination,
A statement cannot fall within the confrontation clause unless its primary purpose was
testimonial—that is to say, unless the statements are given in the course of an
interrogation or other conversation whose primary purpose is to establish or prove past
events potentially relevant to later criminal prosecution.

i

CA(6)& (6) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant
—Victim as Witness—Acts of Domestic Violence—Murder.

i
i

;
i

Acts of domestic violence often are intended to dissuade a victim from resorting to outside
help, and include conduct designed to prevent testimony to police officers or cooperation in
criminal prosecutions. Where such an abusive relationship culminates in murder, the
evidence may support a finding that the crime expressed the intent to isolate the victim
and to stop the victim from reporting abuse to the authorities or cooperating with a criminal
prosecution—rendering the victim's prior statements admissible under the forfeiture
doctrine. Earlier abuse, or threats of abuse, intended to dissuade the victim from resorting
to outside help would be highly relevant to this inquiry, as would evidence of ongoing
criminal proceedings at which the victim would have been expected to testify.

!

!

Q nfOA

CA(7)& (7) Criminal Law § 622—Appellate Review—Substantial Evidence

7/7/7071. 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

—Expert’s Opinion—Speculation or Conjecture.
When an expert bases his or her conclusion on factors that are speculative, remote or
■conjectural
rise to the dignity of substantial evidence.

CA(8)&i (8) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant
—Victim as Witness—Abusive Relationship.

!

Where an abusive relationship culminates in murder, the evidence may support a finding
that the crime expressed the intent to isolate the victim and to stop the victim from
reporting abuse to the authorities or cooperating with a criminal [*1042] prosecution.
Earlier abuse, or threats of abuse, intended to dissuade the victim from resorting to outside
help would be highly relevant to this inquiry, as would evidence of ongoing criminal
proceedings at which the victim would have been expected to testify.

i

i
1

I

CA(9)i, (9) Evidence § 39—Hearsay—Exceptions—Unavailability of Declarant
—Victim as Witness—Defendant's Intent.
Evid. Code, § 1390, requires the trial court to find that the defendant intended to procure
the unavailability of the victim as a witness as a prerequisite to admission of the victim's
out-of-court statements under that provision.

CA(10)& (10) Criminal Law § 657—Appellate Review—Harmless and Reversible
Error—Particular Errors—Admission of Evidence.
If a judgment rests on admissible evidence it will not be reversed because the trial court
admitted that evidence upon a different theory, a mistaken theory, or one not raised below.

CA(11)&, (11) Homicide § 11—First Degree Murder—Premeditation and
Deliberation—Strangulation.
Ligature strangulation is in its nature a deliberate act. Case law holds that killing a victim
by strangulation shows the type of premeditation and deliberation necessary to support a
conviction for first degree murder.

Counsel: Doris M. LeRoy, under appointment by the Court of Appeal, for Defendant and
Appellant.

of 26

1/1/707]

lO'lQAM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Xavier Becerra, Attorney General, Gerald A. Engler, Chief Assistant Attorney General, Julie L.
Garland, Assistant Attorney General, Charles C. Ragland, Scott C. Taylor and Amanda Lloyd,
Deputy Attorneys General, for Plaintiff and Respondent:----------- :— ---------------- -------------------

Judges: Opinion by Irion, J., with Huffman, Acting P. J., and O'Rourke, J., concurring.

Opinion by: Irion, J.

Opinion

:.
t-r

*

[**434] irion, J.-A jury convicted Rene Quintanilla, Jr., of one count of first degree murder
(Pen. Code, §§ 187, subd. (a), 189), one count of possession of a firearm by a prohibited person
(id., § 29815), and one count of child abuse likely to produce great bodily harm or death (id., §
273a, subd. (a)).[li] For the murder count, the jury further found that Quintanilla intentionally
and [*1043] personally discharged a firearm causing great bodily injury or death. (§ 12022.53,
subd. (d).) The trial court sentenced Quintanilla to prison for an indeterminate term of 50 years
to life, consecutive to a determinate term of six years.
Quintanilla contends that the trial court made several prejudicial errors in the admission of
evidence during trial. [***2] First, he contends that the trial court erred in concluding that the
murder victim's out-of-court statements were admissible pursuant to Evidence Code section
1390 based on a finding, after a foundational in limine hearing, that Quintanilla killed the victim,
at least in part, to prevent her from being a witness against him. According to Quintanilla, the
evidence at the in limine hearing did not support such a finding. Second, Quintanilla contends
that the trial court erred in concluding that certain items of character evidence were admissible
as prior instances of domestic violence under Evidence Code section 1109. Finally, Quintanilla
contends that the trial court should have excluded testimony from an expert witness regarding
the effects of pregnancy on domestic violence. In addition to his evidentiary challenges,
Quintanilla argues for reversal based on the prosecutor's alleged misconduct in adducing
testimony regarding the witnesses' opinions regarding Quintanilla's relationship with the victim
that the trial court excluded from evidence during an in limine hearing.
CA(lf%t (1) We conclude that the trial court prejudicially erred in admitting the victim's out-ofcourt statements pursuant to Evidence Code section 1390. Accordingly, although this case
involves a horrific [***3] and tragic killing, we conclude that the trial court's [**435]
erroneous evidentiary rulings require us to reverse the judgment and to remand for further
proceedings.

I.

FACTUAL AND PROCEDURAL BACKGROUND
Quintanilla and his girlfriend Charlene 2&j lived together in the home of Quintanilla's mother and
stepfather together with Charlene's four-year-old daughter (the Child). Charlene and Quintanilla
started dating and living together in 2015.
Around 2:00 a.m. on June 5, 2016, a sheriff’s deputy responded to a series of 911 calls from
Quintanilla, in which he falsely reported a car accident and then a burglary. When the deputy
arrived at Quintanilla's residence, Quintanilla's [*1044] mother stated that the Child told her
that Quintanilla had killed the Child's mother. Quintanilla then spoke to the deputy, stating that
he was a drug user and he had shot or killed Charlene, who was in the downstairs bedroom.|3&j

10 nf 26

7/7/2021, 10:39 AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Quintanilla also stated that child protective services should be called for the Child "because she
saw a lot," and he explained that the shotgun used in the shooting was located on the side of the
house.(4i|
Charlene's body was found lying on a bed in the downstairs bedroom, with a single gunshot
wound to her chest [***4] and blood splatter in the room. The gun used in the shooting was a
large 12-gauge pump action shotgun, which requires a user to pump it to load a round into the
chamber.[si]The shot entered Charlene's upper right chest and travelled upward and to the left.
The forensic pathologist who conducted the autopsy concluded that Charlene was likely shot
from a distance of five to 10 feet. An expended 12-gauge casing from the gun had been
manually expelled onto the bed near Charlene. Based on reports of a possible gunshot sound
from a neighbor and the state of Charlene's body when deputies arrived, the shooting likely
occurred late on the evening of June 3, 2016, which was more than 24 hours before Quintanilla
started to make the 911 calls that eventually brought law enforcement officers to the property.
Although the details of the Child's involvement during the shooting were unclear because of her
limited ability to describe the incident, the Child was apparently in the bedroom at the time and
may have been on the bed next to Charlene. Shortly after the shooting, the Child was
interviewed by a child forensic interviewer and stated that Quintanilla got a "big gun" and shot
her mother.
Quintanilla [***5] was charged with murder (§ 187, subd. (a)), possession of a firearm by a
prohibited person (§ 29815), and child abuse likely to produce great bodily harm or death (§
273a, subd. (a)). It was also alleged with respect to the murder count, that Quintanilla
intentionally and personally discharged a firearm causing great bodily injury or death. (§
12022.53, subd. (d).)
Prior to trial, the court considered and granted the People's in limine motion to [**436] admit
out-of-court statements that Charlene made to friends and family members describing
Quintanilla’s domestic violence toward her over the course of their relationship. In deciding to
admit the evidence, the trial [*1045] court heard testimony from six witnesses to determine
whether the hearsay exception in Evidence Code section 1390 applied, under which "[evidence
of a statement is not made inadmissible by the hearsay rule if the statement is offered against a
party that has engaged, or aided and abetted, in the wrongdoing that was intended to, and did,
procure the unavailability of the declarant as a witness." (Evid. Code, § 1390, subd. (a).) After
hearing the testimony, the trial court concluded that the evidence supported an inference that
Quintanilla killed Charlene, at least in part, to prevent her from "testifying" or " saying anything
at all about" the [***6] domestic violence he had inflicted on her. Accordingly, the trial court
admitted all of Charlene's out-of-court statements under section 1390 without considering
whether any other exceptions to the hearsay rule might also be applicable.
At trial, the jury heard testimony about several incidents of domestic violence perpetrated by
Quintanilla on Charlene and on a previous girlfriend, which the trial court determined was
admissible under Evidence Code section 1109.[6& Some of the testimony regarding Quintanilla's
domestic violence toward Charlene was based on Charlene's hearsay statements to friends and
family, which the trial court determined to be admissible under Evidence Code section 1390, but
some of it was based on those witnesses' own observations of Charlene's injuries.
The first witness to testify about the domestic violence was Charlene's aunt (Aunt), who lives in
Utah. Aunt testified that in November 2015, Charlene and the Child moved into her house in
Utah to start a new life and get away from an abusive relationship.
While in Utah, Charlene told Aunt about flashbacks she was having at night about Quintanilla's
domestic violence. First, Charlene described two instances in which Quintanilla strangled her.
One strangulation was with a belt around [***7] her neck, causing Charlene to black out and
lose consciousness. Charlene was rescued by Quintanilla's stepfather who intervened and
released her. The second strangulation was with Quintanilla's hands, and Charlene did not lose
consciousness. Next, Charlene told Aunt that Quintanilla tied her to a chair in a garage or shed
and put duct tape on her mouth and a bag over her head. Quintanilla then poured gasoline on
Charlene and lit a lighter. Charlene was rescued when the Child went to get Quintanilla's mother,
who intervened. Charlene stated she was scared and thought she was going to die. Finally,
Charlene told Aunt about other injuries that Quintanilla inflicted on [*1046] her, consisting of
black eyes, pulling out her hair, a broken nose, and bruises on her body, including one time
when Quintanilla pinned her against a wall and was hitting her.

of 26

7/7/2021. 10:39 AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Charlene stayed in Utah approximately two and half months, until she reunited with Quintanilla
and moved back to California. Charlene told Aunt that she thought Quintanilla had changed and
everything would be different. After Charlene returned to California with Quintanilla, Aunt spoke
Quintanilla was kicking her [**437] out of the house. Aunt heard arguing between cnariene
and Quintanilla while on the phone. After she returned to California, Charlene also told Aunt that
she was pregnant with twins, and later told Aunt that she had lost the pregnancy.
The second witness who testified about Quintanilla's perpetration of domestic violence was
Charlene's friend Maria. Maria testified that Charlene came to her house to stay with her on
three separate occasions when Quintanilla had abused her. One time, Charlene arrived with two
black eyes and a crooked nose. Charlene told Maria that Quintanilla hit her with his fists because
he was upset with her, and that her nose was broken. Another time, Charlene arrived in her
pajamas, wearing no shoes, crying, and stating that Quintanilla had strangled her in their
bedroom. Charlene stated that during the strangling she was scared, could not breath and felt
like she was going to pass out. Maria saw red marks on both sides of Charlene's neck. On both
occasions, Charlene put her car in Maria's backyard so Quintanilla would not know she was
there. Maria did not have specific details about the third incident when Charlene [***9] came
to stay with her, other than that Charlene said Quintanilla was being abusive.
The third witness who testified about the domestic violence was Charlene's friend Andrea.
Andrea saw bruises on Charlene's arm that looked like they were caused by pressure from
fingertips, but Charlene did not explain how she got them. On another occasion, Andrea ran into
Charlene at a convenience store and saw that Charlene had bruising on her nose that she was
hiding with dark glasses. A few weeks later, Charlene told Andrea that the injury occurred during
an argument with Quintanilla when he broke her nose. Charlene told Andrea other things about
Quintanilla's abuse, which Andrea described at trial. Specifically, Charlene said that when she
was intimate with Quintanilla, he would put a pillow over her face so he could not see her and
would criticize her body. On multiple occasions, Charlene told Andrea that Quintanilla had put his
hands around her neck. Charlene stated that she had a miscarriage because, when Quintanilla
knew she was pregnant, he hit or pushed her in the stomach, requiring her to go to the hospital.
According to Charlene, Quintanilla would sometimes force her to use illegal [***10]
drugs. [*1047] Charlene stated that Quintanilla would destroy her personal property, such as
pouring bleach on her clothes and purse when he was angry and breaking her phone. Charlene
told Andrea that Quintanilla had a lot of guns around the house and would bring guns into their
bedroom to use in an emergency.
The fourth witness who testified about domestic violence was Charlene's sister (Sister). Sister
twice saw injuries on Charlene. One time, when Charlene was not responding to attempts to
contact her by phone, Sister went to the house where Charlene and Quintanilla lived and stayed
outside the gate, honking and flashing her lights for a long time until the gate was opened.
When Charlene came to the gate, Sister saw that Charlene’s face was swollen and her nose was
crooked. Charlene said that Quintanilla hit her and that he would not let Charlene open the gate
because Sister would see the injuries to her face. Another time, Sister saw a mark on Charlene's
back, which was bruised and looked like a mark from a knife. Charlene stated that Quintanilla
caused the mark by trying to stab her with a knife when they were arguing, and she felt scared
for her life. Charlene also told Sister about the [***11] incident in which Quintanilla tied her
up, put a bag over her head, poured gasoline on her, and was going to "light her up" when
Quintanilla's mother intervened. Sister also confirmed that Charlene was pregnant with twins but
had miscarried, as [**438] Sister accompanied Charlene to the doctor in connection with the
miscarriage.
Next, Charlene's mother (Mother) testified about an incident of domestic violence. According to
Mother, Charlene came to stay with her because, according to Charlene, Quintanilla had
strangled her with a belt around her neck. Charlene reported that she was able to escape the
strangling when Quintanilla's stepfather intervened. Mother observed that Charlene had a red
mark on her neck, and that Charlene was complaining that her throat hurt.
The Child also testified at trial about an incident of domestic abuse. Although the Child was six
years old during the trial and her testimony was accordingly somewhat disjointed, the Child was
able to describe her personal observations during an incident in which Quintanilla tied up
Charlene. The Child stated that "[a] long time ago" "I went to the room and I saw the tape on
my mom's mouth, and he had tied up her with ropes on her [***12] legs." The Child stated,
"And I tried to get the tape, but he tied it around her back like arrest," and "[h]e put tape on her
hands and it hurt, and she had a bruise and she put cream on her." About the tape, the Child

12 of 26

7/7/2021,10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

said "I tried to take it off, but he didn’t let me." The Child testified that she told Quintanilla's
parents "that he tied the ropes," and that Quintanilla's parents then "slapped him" and untied
Charlene.
i he final witness to testily about Quintanilla's domestic violence was his former girlfriend and
mother of his two children. According to the former [*1048] girlfriend, Quintanilla was verbally
and emotionally abusive, and engaged in physical violence toward her or toward inanimate
objects on a "few" occasions, including four or five times when she called the police. One time,
when Quintanilla was angry at her, he ripped the kitchen cabinets off the wall and stabbed them.
Once, during an argument in the car, Quintanilla punched the former girlfriend's head, giving her
black eyes and welts on her head. On another occasion, Quintanilla broke down a bedroom door
and ripped the former girlfriend's purse off her arm, breaking the purse strap and leaving a mark
on the former girlfriend's [***13] shoulder. Finally, the former girlfriend testified that
Quintanilla owned guns, and she described an incident in which Quintanilla, who had been
holding their daughter, pulled a gun from his pants after learning that someone was at the gate
asking for him.
At trial, other than forensic evidence and the limited descriptions that the Child was able to
provide, there was sparse evidence of what occurred between Quintanilla and Charlene on the
night of the shooting. In closing, defense counsel argued that because of the uncertainty as to
why and how the shooting occurred, the People did not meet their burden to prove the elements
of either first degree or second degree murder.
The jury found Quintanilla guilty of first degree murder (§§ 187, subd. (a), 189) along with the
other two counts (§§ 29815, 273a, subd. (a)), and it made a true finding on the gun use
enhancement for the murder count (§ 12022.53, subd. (d)). The trial court imposed an
indeterminate sentence of 50 years to life, Consecutive to a determinate term of six years.

II.

DISCUSSION

The Trial Court Abused Its Discretion in Admitting Charlene's Out-of-court Statements Pursuant
to Evidence Code Section 1390 Because Substantial Evidence Does Not Support the Trial Court's
Finding That Quintanilla Killed Charlene, in [***14] Part, To Make Her Unavailable as a Witness
We first consider Quintanilla's contention that the trial court prejudicially erred [**439] by
determining, after holding a foundational in limine hearing, that Charlene’s out-of-court
statements to friends and family were admissible pursuant to Evidence Code section 1390.

1. Applicable Legal Standards
CA(2)*¥ (2) '""Hearsay evidence" is evidence of a statement that was made other than by a
witness while testifying at the hearing and that is offered to prove [*1049] the truth of the
matter stated/ (Evid. Code, § 1200, subd. (a).) 'Except as provided by law, hearsay evidence is
inadmissible/ (Id., subd. JL>).)" (People v. Henriquez (2017) 4 Cal.5th 1, 31 [226 Cal. Rptr. 3d
69, 406 P.3d 748].) H/Vlf- Evidence Code section 1390 outlines an exception to the hearsay rule
for statements that are offered against a party involved in causing the unavailability of the
declarant as witness. That section, which was enacted in 2010 (Stats. 2010, ch. 537, § 2)
provides, in relevant part:
"(a) Evidence of a statement is not made inadmissible by the hearsay rule if the statement is
offered against a party that has engaged, or aided and abetted, in the wrongdoing that was
i of 26

7/7/2021. 10:39 AM

'eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

intended to, and did, procure the unavailability of the declarant as a witness.
"(b)(1) The party seeking to introduce a statement pursuant to subdivision (a) shall [***15]
■aktabllsh^h-y-a preponderance of the evidence, that the elements of subdivision (a) have been
met at a foundational hearing.
"(2) The hearsay evidence that is the subject of the foundational hearing is admissible at the
foundational hearing. However, a finding that the elements of subdivision (a) have been met
shall not be based solely on the unconfronted hearsay statement of the unavailable declarant,
and shall be supported by independent corroborative evidence.
"(3) The foundational hearing shall be conducted outside the presence of the jury. However, if
the hearing is conducted after a jury trial has begun, the judge presiding at the hearing may
consider evidence already presented to the jury in deciding whether the elements of subdivision
(a) have been met.

X

"(4) In deciding whether or not to admit the statement, the judge may take into account
whether it is trustworthy and reliable." (Evid. Code, § 1390.)
C/lfS/5?1 (3) Case law has subsequently clarified that W/V2Y Evidence Code section 1390 is
satisfied by a finding that at least one of the defendant's reasons for committing the wrongdoing
that made the declarant unavailable was to make the declarant unavailable as a witness,
although the defendant may also have had other reasons for the wrongdoing. [***16] (People
v. Kerley (2018) 23 Cal.App.5th 513, 558 [233 Cal. Rptr. 3d 135] (Kerley) ["Kerley may have
had additional motives for killing [the declarant]. The question, however, is whether the evidence
showed by a preponderance that preventing [the declarant] from either reporting his assaults to
the police or testifying against him in the pending domestic violence case was one of Kerley's
motives for killing [the declarant]; it need not have been his only reason."].)
HNS?1 In general, "[w]e review claims regarding a trial court's ruling on the admissibility of
evidence for abuse of discretion." ( [*1050] People v. Goldsmith (2014) [*1050] 59 Cal.4th
258, 266 [172 Cal. Rptr. 3d 637, 326 P.3d 239].) However, when the admission of evidence
"depend[s] on a determination of preliminary facts by the trial court[,] such determinations will
be upheld if supported by substantial evidence." (People v. Brown (2003) 31 Cal.4th 518,
540-541 [3 Cal. Rptr. 3d 145, 73 P.3d 1137] [addressing preliminary factual finding,under the
spontaneous statement exception to the hearsay [**440] rule in Evid. Code, § 1240].) Thus in
this case, where the central disputed issue is whether the trial court erred in finding that a
defendant engaged in wrongdoing that was intended to, and did, procure the unavailability of
the declarant as a witness, we apply a substantial evidence standard in reviewing the trial
court's finding regarding the defendant's intent. (See Kerley, supra, 23 Cal.App.5th at p. 559
["[substantial evidence supports [***17] the trial court's implied finding that Kerley murdered
[the declarant] at least in part to keep her from ... testifying against him"]; People v. Merchant
(2019) 40 Cal.App.5th 1179, 1186 [253 Cal. Rptr. 3d 766] [in reviewing a finding of forfeiture by
wrongdoing under the confrontation clause, "[w]e evaluate whether there is sufficient evidence
from which the trial court could make its finding on a preponderance standard"].) Although we
apply a substantial evidence standard of review to the trial court's factual finding, ”[w]e review
for abuse of discretion the ultimate decision whether to admit the evidence." (People v. Phillips
(2000) 22 Cal.4th 226, 236 [92 Cal. Rptr. 2d 58, 991 P.2d 145].)
CA(4)^ (4) Although the parties are in agreement that HN4lt this case does not involve any
testimonial out-of-court statements that would implicate the confrontation clause of the Sixth
Amendment to the United States Constitution,(7&1 we note that a similar legal standard to
Evidence Code section 1390 applies when a court determines whether a declarant's out-of-court
testimonial statements subject to the confrontation clause may be admitted under the forfeiture
by wrongdoing doctrine. Under the forfeiture by wrongdoing doctrine, a defendant forfeits his
Sixth Amendment, right to confront a witness against him when, by a wrongful act, the
defendant makes the witness unavailable to testify at trial. {Giles v. California (2008) 554 U.S.
353, 355 [171 L. Ed. 2d 488, 128 S. Ct. 2678] {Giles).) As is the case with evidence admitted
under Evidence Code section 1390, unconfronted testimony will not be admitted under the
forfeiture by [***18] wrongdoing doctrine "without a showing that the defendant intended to
prevent a witness from testifying." {Giles, at p. 361, italics added.) Thus, under both the
forfeiture by wrongdoing doctrine and [*1051] Evidence Code section 1390, it is not sufficient
that the defendant caused the declarant to be unavailable; the defendant must also have
intended that result when engaging in the wrongdoing that caused the unavailability. Because of
the similarity of the legal standards, case law developed under the forfeiture by wrongdoing

14of7.fi

7/7/2021, 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

doctrine is helpful in applying Evidence Code section 1390.
CA(6)1F (6) As relevant here, the Supreme Court in Giles addressed application of the forfeiture
by wrongdoing doctrine to domestic violence cases:
"Acts of domestic violence often are
intended to dissuade a victim from resorting to outside help, and include conduct designed to----prevent testimony to police officers or cooperation in criminal prosecutions. Where such an
abusive relationship [**441] culminates in murder, the evidence may support a finding that the
crime expressed the intent to isolate the victim and to stop her from reporting abuse to the
authorities or cooperating with a criminal prosecution—rendering her prior statements admissible
under the forfeiture doctrine. Earlier abuse, [***19] or threats of abuse, intended to dissuade
the victim from resorting to outside help would be highly relevant to this inquiry, as would
evidence of ongoing criminal proceedings at which the victim would have been expected to
testify." (Giles, supra, 554 U.S. at p. 377.)

2. Testimony at the Foundational Hearing
Prior to trial, the People filed an in limine motion to admit into evidence certain out-of-court
statements that Charlene made to friends and family. Although the People's motion cited several
exceptions to the hearsay rule as grounds for admission of the various out-of-court
statements,|3 the trial court determined that instead of addressing each statement on an
individual basis, it would be more efficient to hold a foundational hearing to determine whether
the statements, collectively, fell under the hearsay exception set forth in Evidence Code section
1390. Accordingly, the trial court held a foundational hearing to determine whether Quintanilla
"engaged ... in the wrongdoing that was intended to, and did, procure the unavailability of
[Charlene] as a witness." (Evid. Code, § 1390, subd. (a).) As the trial court noted, there was no
dispute that Quintanilla shot and killed Charlene, and thus made her unavailable as a witness.
The issue in dispute was whether, as [***20] required by Evidence Code section 1390, when
Quintanilla shot and killed Charlene, he acted with the intent to "procure [her] unavailability ...
as a witness." (Evid. Code, § 1390, subd. (a).) Six witnesses testified at the foundational in
limine hearing.
First, Charlene's friend Maria testified to the same specific domestic violence incidents she later
described at trial: (1) the time Charlene came to [*1052] Maria's house with red marks on her
neck and stated that she had been strangled; and (2) the time Maria saw Charlene with black
eyes and a broken nose. Maria also testified about things that Quintanilla did to control
Charlene, such as not allowing her to use the phone and not letting her leave the house by
herself. According to Maria, Charlene stated multiple times that she thought Quintanilla was
going to kill her. Charlene also said that she did not report the abuse to the police because if
Quintanilla went to jail, he would come out and hurt her worse. Maria testified that when
Charlene came to her house after the strangling incident, she persuaded Charlene to call the
police, who escorted Charlene to collect her belongings from Quintanilla's house.
Second, Aunt testified about some of the domestic violence incidents that Charlene
told [***21] her about while staying in Utah. Specifically, Aunt testified that Charlene told her
that Quintanilla (1) strangled her with a belt; (2) tried to light her on fire after tying her up,.
covering her with gasoline and putting a bag on her head; and (3) caused her to have black eyes
and a broken nose. Aunt testified that Charlene said she was scared for her life, and that she did
not go to the police because she loved Quintanilla. Aunt also described the time after Charlene
left Utah when she called Aunt because Quintanilla was kicking her out of the house and "being
really abusive."
[**442] Third, Charlene's friend Andrea testified about the two physical injuries she observed
on Charlene that Andrea later described at trial: (1) Charlene's broken and bruised nose; and (2)
the fingerprint bruises on Charlene's arms. Andrea also testified that Charlene told her that
Quintanilla had (1) destroyed her personal property and phones; (2) had pulled a gun on her
and the Child; and (3) would not let her leave the house or stay away for long periods of time.
Fourth, Sister described the incident in which she went over to the house where Charlene was
living with Quintanilla and had to honk and flash her lights [***22] for an hour before
Charlene opened the gate, revealing a broken nose and black eyes. Sister testified that Charlene
stated Quintanilla did not want her to open the gate because Sister would see the injury to

5 of 26

7/7/2021. 10:39 AM

'eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

Charlene's face, and Charlene did not want to go to the hospital because she was afraid the
hospital would call the police to report Quintanilla. Sister also testified about Charlene's
statements that Quintanilla had tried to strangle her, had pulled her hair, and had hit her.
Fifth, the sheriff’s deputy who responded to the house after the shooting testinea tnat
Quintanilla told him that he had shot or killed Charlene.
Finally, the trial court heard testimony from an expert witness on the subject of domestic
violence, Detective Christian Vaughn, who had listened to [*1053] the testimony of the five
earlier witnesses but did not know anything else about the case, including the facts surrounding
the shooting, other than that Quintanilla had been charged with murder. Detective Vaughn
explained that, in general, abusers often dissuade victims from reporting the abuse to law
enforcement by exerting control and dominance in the relationship and by creating fear of harm
in the victim, and that [***23] abusers also isolate victims to prevent the detection of abuse.
Detective Vaughn testified that he had formed the opinion that Charlene's relationship with
Quintanilla contributed to her reluctance to call law enforcement concerning the abuse. He
explained that "everything that I heard was typical in my experience for some of the worst case
domestic violence incidents. And I believe that the person described through the testimony was
someone who had great fear for herself and her family members and she was in complete
control by the abuser." On cross-examination, Detective Vaughn was asked about whether he
believed Quintanilla killed Charlene to prevent her from going to the police.
"Q. Is there anything about what you've heard in the testimony based upon your training and
expertise where you can say as a certainty that [Charlene] was killed so that she wouldn't report
the incidents to the police?
"A. Conclusively, no. In its totality, as an opinion, I would say yes.
"Q. When you say conclusively no, what do you mean by that?
"A. I don't have any facts about that specific day or that specific time. ... So on that date, I don't
know what was going on in that bedroom. But I said the totality [***24] based on what I
heard about the ongoing abuse and the nature of the relationship, my opinion would be that that .
had to have been present, the intimidation and the fear and the act, if you will, of preventing the
victim from telling anybody, especially the police, about the true nature of the abuse that was
going on in that household.
"Q. So are you saying then it's your opinion that [Charlene] was killed so she wouldn't make a
report that day?
"A. I can't say that conclusively."
[**443] After hearing the testimony and argument from counsel, the trial court ruled that
Charlene's out-of-court statements were admissible under Evidence Code section 1390.
"[W]hen you look at the mountain of [Evidence Code section] 1109 evidence that was just
presented under the guise of [Evidence Code section] 1390, it's actually reasonable that the
intent was to keep her from testifying. [*1054] She never said through any of these witnesses
specifically anything about the defendant doing something to her specifically so that she
wouldn't tell law enforcement, but she told these other individuals that she was afraid to make
reports.
"Specifically, I think the first witness testified that she was afraid if she reported it, he would go
to jail for a little while, get out, and hurt her more. So throughout [***25] all of these
witnesses, the sentiment is sort of the same. That she’s describing this culture, this environment
which by its very nature is threatening and harming her to the point where she's afraid to report
anything. And so, you know, I—ultimately it culminates in her dying at the hands of the
defendant. So I think it's certainly a reasonable inference to make that this was done to keep
her from saying anything at all about any of the abuse. Whether it was that day about what was
going on that day or prior to, I think that it's absolutely a reasonable inference even though
there might be 15 other reasonable inferences that don't go to that point, none of the authority
says it must be to the exclusion of anything else. If that's one of the reasons among many, it's
sufficient.
"So I also think that under [Evidence Code section] 1390[, subdivision ](b)(2) that the People
have shown that this evidence is supported by independent corroborative evidence. The

1 ts nf 96

7/7/2021, 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

witnesses indicated they saw the injuries themselves firsthand. So it's just not the unconfronted
hearsay statements, but actually seeing the injuries themselves.
^Moreover under [Evidence Code section 1390, subdivision! (b)(4), I believe they also meet a
sufficient level of trustworthiness [***26] and reliability given the sheer number of witnesses,
the fact the witnesses are essentially describing either the same incident or similar incidents
involving, you know, for example, the broken nose seem to be a theme that ran throughout at
least a couple of witnesses, both indicating they saw that same type of injury, so the fact that
the standard of proof is preponderance of the evidence I think is met, so I will allow in the
statements under [Evidence Code section] 1390."

3. Substantial Evidence Does Not Support the Trial Court's Finding That Quintanilla Killed
Charlene, in Part, To Make Her Unavailable as a Witness
Quintanilla argues that the trial court improperly admitted Charlene's out-of-court statements
pursuant to Evidence Code section 1390 because insufficient evidence supports a finding that
Quintanilla killed Charlene, at least in part, to prevent her from being a witness. As we will
explain, we agree.
We begin with the observation that there was no evidence before the trial court during the in
limine hearing about what occurred between Quintanilla [*1055] and Charlene on the night of
the shooting, other than that Quintanilla shot and killed Charlene in a bedroom in the house
where they lived. Thus, to find that Quintanilla shot and [***27] killed Charlene, at least in
part, to prevent her from being a witness against him, the trial court necessarily had [**444]
to rely on an inference that because of how Quintanilla acted during earlier domestic violence
incidents described by the witnesses, one of his motives in killing Charlene was to prevent her
from being a witness. However, as we will explain, no substantial evidence supports such a
finding.
For one thing, there was no pending proceeding against Quintanilla at the time of the killing, in
which Charlene could have been a witness, and there was no evidence that Charlene had
threatened to go to the authorities to initiate any such proceeding. Indeed, as the witnesses
described, Charlene was reluctant to report Quintanilla to authorities because she loved him and
because she was afraid of what he might do to her when he got out of jail. The only time that
Charlene contacted the police, as described in Maria's testimony, was to get help in retrieving
her belongings from Quintanilla's residence, and there is no indication that any proceeding was
initiated against Quintanilla based on that contact with police or that Charlene wanted any such
proceeding to be initiated.
Second, although, [***28] as the trial court observed, Quintanilla controlled and intimidated
Charlene and did not want anyone to see the injuries he inflicted on her, it is also important
there was no evidence that Quintanilla ever made any prior threats that he would kill Charlene if
she went to the authorities or became a witness against him. The trial court described an
"environment which by its very nature is threatening and harming [Charlene] to the point where
she's afraid to report anything," based on which the court inferred that Quintanilla must have
killed Charlene, at least in part, to prevent her from being a witness against him. However, with
no evidence of a pending or threatened proceeding against Quintanilla where Charlene could be
a witness, and no evidence that Quintanilla ever threatened to kill Charlene to prevent her from
going to the authorities, it is wholly speculative to infer that Quintanilla killed Charlene, at least
in part, to prevent her from being a witness merely because of the threatening and violent
nature of the abusive environment created by Quintanilla.
CA(7j/¥ (7) Further, the testimony of Detective Vaughn did not provide substantial evidence for
the trial court^finding that Quintanilla [***29] killed Charlene to prevent her from being a
witness. HN7¥ "'[W]hen an expert bases his or her conclusion on factors that are "speculative,
remote or conjectural," or on "assumptions ... not supported by the record," the expert's opinion
"cannot rise to the dignity of substantial evidence ...
(People v. Wright (2016) 4 Cal.App.5th
537, 545 [208 Cal. Rptr. 3d 686].) As Detective Vaughn acknowledged, he knew nothing at all
about the facts of the killing, other than that [*1056] Quintanilla h*ad been charged with
murder. The most Detective Vaughn could say is that, based on the past instances of domestic

of 26

7/7/7071

1D-7Q AM

’eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

violence, in his opinion, on the day of the shooting "that that had to have been present, the
intimidation and the fear and the act, if you will, of preventing the victim from telling anybody,
especially the police, about the true nature of the abuse that was going on in that household."
—Botoctivg-Va4toto-was-than_asked whether, in his opinion, "[Charlene] was killed so she wouldn't
make a report that day." He answered, "I can't say that conclusively." i nus, alihouglrDeteetive
Vaughn opined that control, fear and intimidation was present in the relationship between
Charlene and Quintanilla, his testimony provides no basis for the trial court's inference that
Quintanilla [***30] killed Charlene, at least in part, to prevent her from being a witness.
Sparse case law exists applying the requirements of Evidence Code section 1390 [**445] or
the analogous constitutional doctrine of forfeiture by wrongdoing doctrine in the context of
domestic violence cases. The only published case to apply Evidence Code section 1390 in a
domestic violence context where the defendant killed the declarant is Kerley, supra, 23
Cal.App.5th 513. In Kerley the decomposed body of the defendant's girlfriend was found in a
remote area. {Id. at pp. 523-524.) The issue at trial was whether the defendant killed her. {Id.
at p. 528.) At trial, the court admitted extensive testimony about domestic violence between the
defendant and his girlfriend {id. at pp. 521, 533-535), as well as statements that the girlfriend
made to police officers on two occasions when they responded to domestic violence calls {id. at
pp. 522, 544-546), and out-of-court statements about the domestic violence that the girlfriend
made to friends, family and other third parties {id. at pp. 560-562).
As relevant here, Kerley concluded that the trial court properly admitted the girlfriend's out-ofcourt statements because they were admissible under Evidence Code section 1390 {Kerley,
supra, 23 Cal.App.5th at p. 563), and although some of the statements to the police officers
were testimonial, their introduction was not barred by the confrontation clause because the
forfeiture by wrongdoing doctrine [***3i] applied {Kerley, at p. 559). Reviewing the evidence,
the court focused on the following facts: "Kerley isolated [his girlfriend] from family and friends
to keep her from seeking outside help; discouraged her from calling the police, reporting her
abuse to authorities, or cooperating in a prosecution; and knew she was a likely witness in his
pending felony prosecution for beating her up on January 7, 1996." {Id. at p. 556.) Further,
Kerley "kept [his girlfriend] from seeing her family and friends. Kerley clearly communicated to
[his girlfriend] that, if she called the police, he would kill her. Kerley was facing felony domestic
violence charges for assaulting [his girlfriend] and had an impending court date when she
disappeared. [Kerley’s girlfriend] obviously would have been the key witness against him." {Id.
at p. 557.) The court therefore concluded that "[substantial evidence supports the trial court's
implied finding that Kerley murdered [his [*1057] girlfriend] at least in part to keep her from
reporting him to the police and testifying against him in his pending domestic violence case." {Id.
at p. 559.)
Thus, in Kerley the application of Evidence Code section 1390 turned on two crucial facts that
are not present in this case: (1) there was a pending domestic violence [***32] case against
the defendant with an upcoming court date; and (2) the defendant had threatened to kill his
girlfriend if she called the police. Here, in contrast, there was no pending proceeding against
Quintanilla in which Charlene might be a witness, no indication that Charlene planned to go to
the authorities to initiate any such proceeding, and no evidence that Quintanilla had ever
threatened to kill Charlene if she reported him to authorities.
In People v. Banos (2009) 178 Cal.App.4th 483 [100 Cal. Rptr. 3d 476] {Banos), which was
decided before the enactment of Evidence Code section 1390, the court applied the forfeiture by
wrongdoing doctrine in a domestic violence case resulting in murder. In Banos, the defendant
was convicted of murdering his ex-girlfriend, after he admitted to killing her by breaking into her
home and hitting her in the head with a hammer. {Banos, at pp. 485, 490.) Banos held that
testimonial [**446] out-of-court statements by the ex-girlfriend to police officers about the
defendant's domestic abuse were admissible under the forfeiture by wrongdoing doctrine
because the evidence supported a finding that the defendant killed his ex-girlfriend to prevent
her from cooperating with authorities and testifying in court. {Id. at p. 502.) In the 10 months
prior to the killing, defendant was arrested [***33] three times based on the ex-girlfriend's
complaints to police. {Id. at p. 486.) The court explained, "At the time of [the ex-girlfriend's]
death, there was pending a hearing on defendant's violation of the restraining order. That
defendant killed [the ex-girlfriend] to stop her from testifying against him at the hearing is
supported by evidence that he was arrested multiple times at [the ex-girlfriend's] apartment by
police responding to a call about violation of a court order and domestic violence. The trial court
reasonably could have found that defendant knew he would be prosecuted for these actions and
that [the ex-girlfriend] would testify at those proceedings. Substantial evidence also supports
the implied finding that once defendant broke into [the ex-girlfriend's] home on April 10th

1 R of 96

7/7/2021. 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

[where he killed her on that day], he knew that criminal proceedings would be commenced and
as she had cooperated with the police before, [the ex-girlfriend] was likely to testify at those
proceedings." (Id. at p. 503, fn. omitted.) Further, explaining the evidence supported a finding
that the defendant killed the ex-girlfriend to prevent her from reporting his abuse of her to the
authorities, the court stated, "|tjnat defghdaht [ * * *34']-kilted-[the-ex-girlfriend]-to-stop-her----from reporting his assaultive behavior to the police can reasonably be inferred from the
statements defendant is heard making on the tape of [the ex-girlfriend's] June 7, 2003 call to
911, as to which there is no evidentiary challenge: 'Do you want to [*1058] speak to the
police?' 'Are you going to talk?' 'Are you going to speak with the cops? Are you going to speak?"'
(Id. at p. 502.) Thus, as in Kerley, the court in Banos focused on (1) the existence of legal
proceedings against the defendant; and (2) the defendant's threats that the victim should not
speak with authorities. As we have explained, no such evidence exists in this case.
CA(8)+ (8) Finally, we note that in the context of the forfeiture by wrongdoing doctrine the
Supreme Court in Giles acknowledged that killings occurring in the context of a relationship
involving domestic viplence might give rise to an inference that the killing was committed to
prevent the victim from going to the authorities or being a witness. Both Banos and Kerley relied
on that discussion when conducting their analysis of whether substantial evidence supported a
finding regarding the defendant's intent. (Kerley, supra, 23 Cal.App.5th at pp. 550, 557; Banos,
supra, 178 Cal.App.4th at pp. 501-502.) Further, the People in this case [***35] cited the
Giles language to support their motion in limine to introduce Charlene's out-of-court statements
under Evidence Code section 1390. Here, however, Giles does not support the trial court's
finding because (Biles calls out certain types of evidence that is not present in this case. As Giles
explained, HN8T "Where such an abusive relationship culminates in murder, the evidence may
support a finding that the crime expressed the intent to isolate the victim and to stop her from
reporting abuse to the authorities or cooperating with a criminal prosecution......Earlier abuse, or
threats of abuse, intended to dissuade the victim from resorting to outside help would be highly
[**447] relevant to this inquiry, as would evidence of ongoing criminal proceedings at which
the victim would have been expected to testify." (Giles, supra, 554 U.S. at p. 377.) Here,
although the evidence shows that Quintanilla sought to isolate Charlene, control her, and create
fear in her, there is no specific evidence of abuse or threats of abuse "intended to dissuade the
victim from resorting to outside help" or "evidence of ongoing criminal proceedings at which the
victim would have been expected to testify." (Ibid.) All that we are left with is evidence that is
unquestionably [***36] present in many domestic violence cases, namely that Charlene and
Quintanilla's relationship was violent and included elements of control, isolation and fear. That
evidence, without more, is insufficient to satisfy the intent requirement of Evidence Code section
1390.
CA(9)f (9) In enacting Evidence Code section 1109, which allows the introduction of
propensity evidence in a prosecution for domestic violence, the legislative history points to the
Legislature's concern with domestic violence that could escalate to the point that the defendant
kills the victim. "The propensity inference is particularly appropriate in the area of domestic
violence because on-going violence and abuse is the norm in domestic violence cases. Not only
is there a great likelihood that any one battering episode is part of a larger scheme of dominance
and control, that scheme usually escalates in frequency and severity. Without the propensity
inference, [*1059] the escalating nature of domestic violence is likewise masked. If we fail to
address the very essence of domestic violence, we will continue to see cases where perpetrators
of this violence will beat their partners, even kill them, and go on to beat or kill the next intimate
partner. Since criminal prosecution is one of the [***37] few factors which may interrupt the
escalating pattern of domestic violence, we must be willing to look at that pattern during the
criminal prosecution, or we will miss the opportunity to address this problem at all.' (Assem.
Com. on Public Safety, Rep. on Sen. Bill No. 1876 (1995-1996 Reg. Sess.) June 25, 1996, pp.
3-4.)" (People v. Hoover (2000) 77 Cal.App.4th 1020, 1027-1028 [92 Cal. Rptr. 2d 208].)
Several years later, in enacting Evidence Code section 1390, the Legislature could have acted
upon its awareness that domestic violence can culminate in a killing of the victim by providing an
exception to the hearsay rule in any domestic violence case where the defendant kills the
declarant.^ A| If the Legislature had done so, a great range of evidence of the defendant's past
domestic violence against the victim would be admissible in any murder trial involving domestic ■
violence. However, the Legislature did not chose that approach in enacting Evidence Code
section 1390. Instead, HN97 Evidence Code section 1390 requires the trial court to find that
the [**448] defendant intended to procure the unavailability of the victim as a witness as a
prerequisite to admission of the victim's out-of-court statements under that provision. As we
have explained, substantial evidence does not support a finding in this case that Quintanilla
killed Charlene with the intent, [***38] at least in part, to make her unavailable as a witness.

• of 26

7/7/7021. 10:39 AM

'eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

The trial court therefore abused its discretion in admitting Charlene's out-of-court statements
under Evidence Code section 1390.

4. The Error Was Prejudicial
As the parties agree, HJVIOT the trial court's erroneous admission of evidence pursuant to
Evidence Code section 1390 requires reversal of the judgment only if the error was prejudicial
under the standard set forth in People v. Watson (1956) 46 Cal.2d 818, 836 [299 P.2d 243].
(People v. Partida (2005) 37 Cal.4th 428, 439 [35 Cal. Rptr. 3d 644, 122 P.3d 765].) Under that
standard, we determine whether it is reasonably probable the verdict would have been [*1060]
more favorable to the defendant absent the error. (Ibid.) There is a reasonable probability of a
more favorable result when there exists "at least such an equal balance of reasonable
probabilities as to leave the court in serious doubt as to whether the error has affected the
result." (Watson, at p. 837.) Under this standard, "review focuses not on what a reasonable jury
could do, but what such a jury is likely to have done in the absence of the error under
consideration. In making that evaluation, an appellate court may consider, among other things,
whether the evidence supporting the existing judgment is so relatively strong, and the evidence
supporting a different outcome is so comparatively weak, that there [***39] is no reasonable
probability the error of which the defendant complains affected the result." (People v. Breverman
(1998) 19 Cal.4th 142, 177 [77 Cal. Rptr. 2d 870, 960 P.2d 1094].)
Our analysis of whether the erroneous admission of Charlene's out-of-court statements requires
us to reverse the judgment necessarily focuses on the impact that the erroneously admitted
evidence may have had on the disputed issues at trial. The jury found that Quintanilla was guilty
of first degree murder, and thus that when he shot Charlene, he acted "willfully, deliberately, and
with premeditation." (CALCRIM No. 521.) We must therefore determine whether it is reasonably
probable, that absent the erroneous admission of Charlene's out-of-court statements under
Evidence Code section 1390, the jury would not have found Quintanilla killed Charlene willfully,
deliberately and with premeditation.jlOi
In analyzing whether it is reasonably probable that the improperly admitted evidence impacted
the jury's finding on premeditation and deliberation, we keep in mind the instruction that the
jury was given regarding first degree murder, CALCRIM No. 521, which states, in relevant part:
"The defendant is guilty of first degree murder if the People have proved that he acted willfully,
deliberately, and with premeditation. The defendant acted willfully if he intended [***40] to
kill. The defendant acted deliberately if he carefully weighed the considerations for and against
his choice and, knowing the consequences, decided to kill. The defendant acted with
premeditation if he decided to kill before [**449] completing the act[s] that caused death. [H]
The length of time the person spends considering whether to kill does not alone determine
whether the killing is deliberate and premeditated. The amount of time required for deliberation
and premeditation may vary from person to person and according to the circumstances. A
decision to kill made rashly, impulsively, or without careful consideration is not deliberate and
premeditated. On the other hand, a [*1061] cold, calculated decision to kill can be reached
quickly. The test is the extent of the reflection, not the length of time."
As we have described, there was little evidence presented at trial as to what occurred between
Quintanilla and Charlene on the night of the shooting, as the only witness was the Child, who
provided only a limited and disjointed description. Thus, to determine how and why Quintanilla
shot Charlene, and accordingly whether he was guilty of first degree murder, the jury was
required to focus on (1) [***41] the forensic evidence, including the weapon that Quintanilla
used; (2) Quintanilla's actions and statements after the shooting; and (3) the history of the
interactions between Quintanilla and Charlene.
The forensic evidence by itself was not sufficient to support a finding that Quintanilla acted with
premeditation and deliberation. The evidence suggested that Quintanilla shot Charlene at the
relatively close range of five to 10 feet, that Charlene was lying on the bed when she was shot,
that Quintanilla shot Charlene in the chest, and that Quintanilla used a shotgun that had to be
manually pumped to load a round into the chamber. However, these facts alone do not indicate
whether Quintanilla made a decision to kill "rashly, impulsively, or without careful consideration"
or, on the other hand, whether he made "a cold, calculated decision to kill." (CALCRIM No. 521.)

7/7/2021,10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

There was no evidence at trial as to when Quintanilla brought the shotgun into the bedroom, or
whether he took it out of a case.] 11 it There is also no evidence about when the shotgun was
loaded. Quintanilla may have pumped the shotgun to load a round into the chamber and taken
-that-time-to-r^Tlect43t^riat-he-was-about±o.do^J)ut-be_mav also r***421 have hastily pumped
the shotgun before shooting Charlene and quickly aimed at her chest from a range of five to 10
feet, without any premeditation and deliberation. Further, Quintanilla might have stored the
shotgun with a round already loaded in the chamber and thus could have been able to quickly
and impulsively pull the trigger without any additional time to reflect. Indeed, when deputies
located the shotgun after the shooting where Quintanilla had placed it, it was ready to be shot,
with a round already loaded in the chamber.
As for Quintanilla's actions after the shooting, the evidence showed that Quintanilla manually
expelled the expended round onto the bed near Charlene at some point after the shooting; he
moved the shotgun outside the house at some point; he waited more than a day before
contacting authorities about the shooting, which he first attempted to do by making false 911
calls; and he ultimately told authorities that he shot or killed Charlene. Quintanilla's delay in
reporting the shooting and other strange behavior after the killing could be interpreted as
showing a lack of remorse, upon which a juror could rely, [*1062] along with other evidence, to
infer that Quintanilla [***43] acted with premeditation and deliberation in killing Charlene. On
the other hand, Quintanilla's delay in reporting the killing could just as reasonably be viewed as
evidence that Quintanilla was in [**450] a state of denial, panic or shock because he had
rashly and impulsively killed Charlene without considering the consequences. We accordingly
conclude that evidence of Quintanilla's actions after the shooting do not strongly support a
finding that Quintanilla acted with premeditation and deliberation in committing the killing rather
than acting rashly and impulsively.
Because neither the forensic evidence nor Quintanilla's actions after the shooting provide strong
evidence of premeditation and deliberation, it is likely that the jury heavily relied on the third
category of evidence to determine Quintanilla's state of mind during the shooting, namely the
history of the interactions between Quintanilla and Charlene, with a particular focus on any past
instances in which Quintanilla inflicted domestic violence on Charlene under circumstances
showing that he hurt her in a deliberate and premeditated manner. We therefore turn to an
examination of whether it is reasonably probable that if the jury [***44] heard only admissible
evidence of Quintanilla's prior domestic violence toward Charlene, the jury would not have been
able to find beyond a reasonable doubt that Quintanilla acted with premeditation and
deliberation in shooting Charlene.
CA(10)+ (10) As an initial matter, we note that although Charlene's out-of-court statements
were not admissible under Evidence Code section 1390, some of them nevertheless would be
admissible under a different exception to the hearsay rule. HNliW "If a judgment rests on
admissible evidence it will not be reversed because the trial court admitted that evidence upon a
different theory, a mistaken theory, or one not raised below." (People v. Brown (2004) 33 Cal.4th
892, 901 [16 Cal. Rptr. 3d 447, 94 P.3d 574].) Under Evidence Code section 1240, "Evidence of
a statement is not made inadmissible by the hearsay rule if the statement: [H] (a) Purports to
narrate, describe, or explain an act, condition, or event perceived by the declarant; and [H] (b)
Was made spontaneously while the declarant was under the stress of excitement caused by such
perception." (Evid. Code, § 1240.) HN12W "To apply the exception ... '"(1) there must be some
occurrence startling enough to produce this nervous excitement and render the utterance
spontaneous and unreflecting; (2) the utterance must have been before there has been time to
contrive and [***45] misrepresent, i.e., while the nervous excitement may be supposed still to
dominate and the reflective powers to be yet in abeyance; and (3) the utterance must relate to
the circumstance of the occurrence preceding it/"" (People v. Lucas (2014) 60 Cal.4th 153, 269
[177 Cal. Rptr. 3d 378, 333 P.3d 587], disapproved on another ground in People v. Romero and
Self(2015) 62 Cal.4th 1 [191 Cal. Rptr. 3d 855, 354 P.3d 983].)
[*1063]
Here, Quintanilla does not dispute that one statement Charlene made to Maria was admissible as
a spontaneous statement under Evidence Code section 1240 because it was made under the
stress of excitement of the incident. Specifically, Maria testified that Charlene arrived at her
house in pajamas and bare feet immediately after Quintanilla had strangled her, and Charlene
was crying and upset as she described the incident. Charlene stated that the strangling had
occurred in the bedroom, that she was scared, could not breathe, felt like she might pass out,
and she struggled to get away. The People also identify another statement by Charlene that was

of 26

7/7/7071 10-^0 AM

'eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintcliclc/...

admissible as a spontaneous statement. Specifically, when Sister saw Charlene with a crooked
nose and swollen face at the gate, Charlene was upset and crying as she told Sister that
Quintanilla had hit her and would not let her open the gate. We agree that this statement is
-a4raf5sible— [.**4^1 ] ond^r Fvirlpnrp Code section 1240. Therefore, in conducting [***46] our
harmless error analysis, we includeas part of the properly admitted evidence (1) Charlene's outof-court statement to Maria about the strangling; and (2) Charlene’s out-of-court statement to
Sister about Quintanilla hitting herJl2A
The properly admitted evidence also included testimony about the domestic violence perpetrated
by Quintanilla that the witnesses personally perceived. First, Maria saw Charlene with black eyes
and a crooked nose. Second, Andrea saw bruises on Charlene's arms that looked like they were
caused by fingertips, and she saw bruising on Charlene's nose. Third, Sister saw a bruise mark
on Charlene's back. Fourth, Mother saw a red mark on Charlene's neck when Charlene was
complaining of her throat hurting. Finally, during arguments, it was reported that Quintanilla hit
his former girlfriend in the head and ripped a purse off of her arm.
Unquestionably, all of the properly admissible incidents of domestic violence portray Quintanilla
as someone with a propensity to inflict serious physical injury. Crucially, however, what is
missing from the admissible evidence is any evidence from which it is reasonable to infer that
Quintanilla had a propensity .to inflict physical injury that was not [***47] merely the result of
rash and impulsive anger, but instead the result of a deliberate and considered decision to inflict
harm. However, two incidents that were improperly admitted [*1064] into evidence based on
Charlene's out-of-court statements do provide evidence of Quintanilla's infliction of domestic
violence under circumstances where he had ample opportunity to reflect and act deliberately.
First, both Aunt and Sister testified about an incident in which Quintanilla tied Charlene to a
chair, put duct tape on her mouth and a bag over her head, poured gasoline on her, and then lit
a lighted 13&1 Charlene said that she thought she was going to die, and explained that she was
saved only because Quintanilla's mother intervened. Second, both Aunt and Mother testified
about Quintanilla using a belt to strangle Charlene. According to Aunt, Charlene lost
consciousness during the incident, and according to both Aunt and Mother, Charlene was able to
get away only because Quintanilla's stepfather intervened., 14 A
CA(11 /F (11) [**452] There can be no doubt that the act of tying up Charlene, putting a bag
over her head, pouring gasoline on her and then lighting a lighter involved a drawn-out process
during which Quintanilla was [***48] able to reflect and deliberate on the dangerous, cruel
and deadly nature of his actions. Similarly, Quintanilla's act of getting a belt, putting it around
Charlene's neck, and then pulling on it until she lost consciousness also involved a course of
conduct during which Quintanilla had a chance to reflect on the deadly nature of what he was
doing. Indeed, HN13t "[l]igature strangulation is in its nature a deliberate act." (People v.
Bonillas (1989) 48 Cal.3d 757, 792 [257 Cal. Rptr. 895, 771 P.2d 844]), and case law holds that
killing a victim by strangulation shows the type of premeditation and deliberation necessary to
support a conviction for first degree murder. (People v, Shamblin (2015) 236 Cal.App.4th 1, 11 \
[186 Cal. Rptr. 3d 257] ["where strangulation occurs over a prolonged period of time, a rational
juror could find that the killer committed a premeditated and deliberate murder"]; People v.
Hovarter (2008) 44 Ca!.4th 983, 1020 [81 Cal. Rptr. 3d 299, 189 P.3d 300] [the prolonged
manner of a murder by strangling "affords ample time for the offender to consider the nature of
his deadly act"].)
As we have explained, it is not clear what happened between Quintanilla and Charlene on the
night of the shooting. Further, the forensic evidence of the crime scene and the evidence of
Quintanilla's actions after the shooting [*1065] do not provide strong evidence as to
Quintanilla's state of mind during the killing. Because the [***49] belt-strangulation incident
and the gasoline incident were the only incidents of domestic violence that demonstrated
Quintanilla's propensity for perpetrating deliberate, considered and deadly violence against
Charlene rather than acting rashly and impulsively, it is likely that those two incidents were
central to the jury's deliberation on the issue of whether it could conclude, beyond a reasonable
doubt, that Quintanilla acted with premeditation and deliberation in killing Charlene. We
therefore conclude that it is reasonably probable that the jury would not have convicted
Quintanilla of first degree murder if testimony about the belt-strangulation incident and the
gasoline incident were not admitted into evidence at trial.
The evidence makes clear that Quintanilla had a long history of engaging in violent and
reprehensible conduct toward Charlene that culminated in a brutal and tragic killing. However,
even a defendant charged with a horrific crime like Quintanilla's has the right to a fair trial where

99 nf 96

7/7/2021.10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

the rules of evidence are properly applied. Because we conclude it is reasonably probable that
Quintanilla would have obtained a more favorable result at trial on the issue of
premeditation [***50] and deliberation had the trial court excluded Charlene's out-of-court
statements from evidence, we reverse the judgment and remand this action for further
proceedings consistent witn our opinion.fiS^i----------------------------------------- ------------------------

DISPOSITION
The judgment is reversed, and this matter is remanded for further proceedings.
Huffman, Acting P. J., and O'Rourke, 1, concurred.

Footnotes

IT
Unless otherwise indicated, all further statutory references are to the Penal Code.

.[2¥
In the interest of preserving the privacy of crime victims and their families, we refer
to Charlene solely by her first name. Similarly we refer to witnesses by their first names
or other nonspecific descriptions to preserve their privacy. We intend no disrespect by
doing so.

3T
The deputy could not remember whether Quintanilla said that he shot Charlene or
that he killed Charlene.

Ill

Sheriff deputies found the shotgun outside where Quintanilla specified. It was loaded
with a round in the chamber.

5?
An expert examined the shotgun and found that it functioned normally, including its
safety mechanism.

[6Tj
Evidence Code section 1109, subdivision (a)(1) provides that, with certain
exceptions, "in a criminal action in which the defendant is accused of an offense
involving domestic violence, evidence of the defendant's commission of other domestic
violence is not made inadmissible by Section 1101 if the evidence is not inadmissible

1 of 26

7/7/2021. 10:39 AM

eople v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/...

pursuant to Section 352."

TW

HN&W
(5) "[I]n general, admission of'testimonial' statements of a witness
who was not subject to cross-examination at trial violates a defendant's Sixth
Amendment right of confrontation, unless the witness is unavailable and the defendant
had a prior opportunity for cross-examination." (People v. Rangel (2016) 62 Cal.4th
1192, 1214 [200 Cal. Rptr. 3d 265, 367 P.3d 649].) '"[A] statement cannot fall within the
Confrontation Clause unless its primary purpose was testimonial' ...—that is to say,
unless the statements are given in the course of an interrogation or other conversation
whose '"primary purpose ... is to establish or prove past events potentially relevant to
later criminal prosecution.""' {Ibid., citation omitted.)

8¥
Specifically, the People cited Evidence Code sections 1240, 1241, 1250, 1251 and
1390 as a basis for admissibility of the various out-of-court statements.

9T

We note that in Giles, Justice Scalia’s majority opinion responded to the dissent's
observation that it "would be particularly helpful to women in abusive relationships—or
at least particularly helpful in punishing their abusers" if the court adopted a forfeiture
by wrongdoing doctrine that did not require that the defendant act with the purpose of
preventing the witness from testifying. {Giles, supra, 554 U.S. at p. 376.) As Justice
Scalia noted, "since only testimonial statements are excluded by the Confrontation
Clause" "[statements to friends and neighbors about abuse and intimidation and
statements to physicians in the course of receiving treatment would be excluded, if at
all, only by hearsay rules, which are free to adopt the dissent's version of forfeiture by
wrongdoing." {Ibid.) In drafting Evidence Code section 1390, which was enacted
subsequent to Giles, the Legislature could have, but did not, follow Justice Scalia's
suggestion that drafters of hearsay rules could omit the intent requirement in codifying
the forfeiture by wrongdoing hearsay exception.

)

10 ■?

Of course, the improperly admitted evidence was also relevant to the issue of
express or implied malice needed for a conviction of either first or second degree of
murder. (§ 188.) However, because establishing premeditation and deliberation for first
degree murder is generally more difficult than establishing express or implied malice, we
focus our harmless error analysis on the issue of premeditation and deliberation.

Od nf Of,

7/7/2021. 10:39 AM

People v. Quintanilla, 2020 Cal. App. LEXIS 177

https://doc-advance.lexis.com/documentprint/documentprintclick/ ...

11V
An empty soft-sided gun case, which was long enough to hold the shotgun used in
the shooting, was found in the closet of the bedroom where the shooting occurred.

12¥
The People make a vague and undeveloped argument that some of Charlene's outof-court statements were also admissible under Evidence Code section 1251, a hearsay
exception that applies to "evidence of a statement of the declarant's state of mind,
emotion, or physical sensation (including a statement of intent, plan, motive, design,
mental feeling, pain, or bodily health) at a time prior to the statement" when "[t]he
evidence is offered to prove such prior state of mind, emotion, or physical sensation
when it is itself an issue in the action and the evidence is not offered to prove any fact
other than such state of mind, emotion, or physical sensation."(Evid. Code, § 1251.)
However, the People do not develop the argument, and we are unable to identify any of
Charlene's out-of-court statements that would be admissible under Evidence Code
section 1251.

The Child may have described some of this same incident when she stated that
Quintanilla had tied Charlene's legs and put tape on her hands. However, the Child's
description left out some of the most crucial details to show Quintanilla's cruel,
deliberate and deadly course of action, namely the bag over Charlene's head, the
gasoline, and the lighting of the lighter.

14¥
Although the admissible evidence included a statement by Charlene to Maria that
Quintanilla had strangled her, there was no indication that Quintanilla used a belt rather
than his hands, and Charlene did not say that she lost consciousness. Accordingly, the
strangling that Charlene described to Maria is not evidence that Quintanilla engaged in a
deliberate and drawn-out course of conduct that lasted long enough for Quintanilla to
premeditate and deliberate rather than committing a rash and spontaneous act.

15T[
Because we reverse the judgment, we need not, and do not, reach the other issues
raised in Quintanilla's appeal.

Content Type: Cases

;of26

7/7/2071. 10:19 AM

https://doc-advance.lexis.com/documentprinl/documentprintclicky...

'eople v. Quintanilla, 2020 Cal. App. LEXIS 177

Terms: 2020 Cal. App. Lexis 177

Date and Time: Jul 07,2021 10:39:21 a.m. EDT

if|p’ LexisNexis*

76 of 76

Privacy
Policy

Terms &
Conditions

Copyright © 2021
LexisNexis.

6LRELX™

7/7/2021, 10:39 AM

